<html>
<title> - COMMERCE, JUSTICE, SCIENCE, AND RELATED AGENCIES APPROPRIATIONS FOR 2018</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]


 

 
   COMMERCE, JUSTICE, SCIENCE, AND RELATED AGENCIES APPROPRIATIONS FOR 
                                  2018

_______________________________________________________________________

                                 HEARINGS

                                 BEFORE A

                           SUBCOMMITTEE OF THE

                       COMMITTEE ON APPROPRIATIONS

                         HOUSE OF REPRESENTATIVES

                      ONE HUNDRED FIFTEENTH CONGRESS

                              FIRST SESSION

                               _________

               SUBCOMMITTEE ON COMMERCE, JUSTICE, SCIENCE,
                          AND RELATED AGENCIES

                  JOHN ABNEY CULBERSON, Texas, Chairman

  HAROLD ROGERS, Kentucky               JOSE E. SERRANO, New York
  ROBERT B. ADERHOLT, Alabama           DEREK KILMER, Washington
  JOHN R. CARTER, Texas                 MATT CARTWRIGHT, Pennsylvania
  MARTHA ROBY, Alabama                  GRACE MENG, New York
  STEVEN M. PALAZZO, Mississippi
  EVAN H. JENKINS, West Virginia

 
  

  NOTE: Under committee rules, Mr. Frelinghuysen, as chairman of the full committee,
  and Mrs. Lowey, as ranking minority member of the full committee, are authorized 
                 to sit as members of all subcommittees.



                  John Martens, Jeff Ashford, Leslie Albright,
                  Colin Samples, Aschley Schiller, and Taylor Kelly
                             Subcommittee Staff

                               __________

                                  PART 5

                                                                   Page
                                                                   
  Department of Commerce..........................................    1 
                                                                      
  National Science Foundation.....................................  265

  National Aeronautics and Space Administration ..................  327
  
  


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]        


                          ____________________

                    U.S. GOVERNMENT PUBLISHING OFFICE

  27-225                    WASHINGTON: 2017
  
  
  
  
  

                             



                      COMMITTEE ON APPROPRIATIONS

                                ----------                              
             RODNEY P. FRELINGHUYSEN, New Jersey, Chairman


  HAROLD ROGERS, Kentucky \1\                 NITA M. LOWEY, New York
  ROBERT B. ADERHOLT, Alabama                 MARCY KAPTUR, Ohio
  KAY GRANGER, Texas                          PETER J. VISCLOSKY, Indiana
  MICHAEL K. SIMPSON, Idaho                   JOSE E. SERRANO, New York
  JOHN ABNEY CULBERSON, Texas                 ROSA L. DeLAURO, Connecticut
  JOHN R. CARTER, Texas                       DAVID E. PRICE, North Carolina
  KEN CALVERT, California                     LUCILLE ROYBAL-ALLARD, California
  TOM COLE, Oklahoma                          SANFORD D. BISHOP, Jr., Georgia
  MARIO DIAZ-BALART, Florida                  BARBARA LEE, California
  CHARLES W. DENT, Pennsylvania               BETTY McCOLLUM, Minnesota
  TOM GRAVES, Georgia                         TIM RYAN, Ohio
  KEVIN YODER, Kansas                         C. A. DUTCH RUPPERSBERGER, Maryland
  STEVE WOMACK, Arkansas                      DEBBIE WASSERMAN SCHULTZ, Florida
  JEFF FORTENBERRY, Nebraska                  HENRY CUELLAR, Texas
  THOMAS J. ROONEY, Florida                   CHELLIE PINGREE, Maine
  CHARLES J. FLEISCHMANN, Tennessee           MIKE QUIGLEY, Illinois
  JAIME HERRERA BEUTLER, Washington           DEREK KILMER, Washington
  DAVID P. JOYCE, Ohio                        MATT CARTWRIGHT, Pennsylvania
  DAVID G. VALADAO, California                GRACE MENG, New York
  ANDY HARRIS, Maryland                       MARK POCAN, Wisconsin
  MARTHA ROBY, Alabama                        KATHERINE M. CLARK, Massachusetts
  MARK E. AMODEI, Nevada                      PETE AGUILAR, California
  CHRIS STEWART, Utah
  DAVID YOUNG, Iowa
  EVAN H. JENKINS, West Virginia
  STEVEN M. PALAZZO, Mississippi
  DAN NEWHOUSE, Washington
  JOHN R. MOOLENAAR, Michigan
  SCOTT TAYLOR, Virginia
  ----------
  <SUP>\1\}</SUP>Chairman Emeritus

                    Nancy Fox, Clerk and Staff Director

                                   (ii)
                                   


                    COMMERCE, JUSTICE, SCIENCE, AND
                RELATED AGENCIES APPROPRIATIONS FOR 2018

                              ----------                              


                                            Thursday, May 25, 2017.

                         DEPARTMENT OF COMMERCE

                                WITNESS

HON. WILBUR ROSS, SECRETARY, U.S. DEPARTMENT OF COMMERCE
    Mr. Culberson. The Commerce, Justice, and Science 
Subcommittee will come to order. We want to welcome our witness 
today, Commerce Secretary Ross. We deeply appreciate your 
service to the nation and are grateful to you and everyone at 
the Department of Commerce for the job that you do. Today we 
are going to discuss the Department of Commerce's fiscal year 
2018 budget request.
    Secretary Ross, we anticipate this will be a very tight 
budget year for the subcommittee and the Congress. We are all 
going to have to work to find efficiencies and fund the most 
important programs. I hope, Secretary Ross, that you can bring 
some of your innovative cost-saving ideas from the private 
sector to the Commerce Department to help us make this 
department save our constituents' very precious, scarce, and 
hard-earned tax dollars. You have proposed a lot of funding 
reductions across the department. We will take a close look at 
all of them and see what makes sense.
    The Department of Commerce has several important missions, 
including preparing for and conducting the Decennial Census, 
enforcing our nation's trade laws, forecasting the weather, 
managing our fisheries, protecting and exploring our oceans, 
and administering our patent and trademark laws. The budget 
proposes reshaping the Commerce Department to focus on the 
highest priority missions. With the limited resources available 
to the committee, we will work to make sure that you are 
appropriately addressing the most important key priorities, 
such as ensuring that the 2020 Census will cost less than the 
2010 Census; making certain that weather satellite programs 
meet their cost and schedule timelines; and strengthening cyber 
and IT security at the department, an ongoing and serious 
problem in the 21st Century.
    Before we proceed, Mr. Secretary, I would like to recognize 
the gentleman from New York, Mr. Serrano, for any opening 
statements he would like to make.
    Mr. Serrano. Thank you, Mr. Chairman. And I want to join 
you in welcoming the Commerce Secretary. Mr. Ross, I just want 
to know, is this the hearing that we were supposed to conduct 
all in Spanish? Not this one?
    Mr. Culberson. That is the one tomorrow.
    Mr. Serrano. Tomorrow? The Department of Commerce is vital 
in promoting job creation and opportunity for all. In doing so, 
it must ensure that we have fair trade in which American 
workers are protected and well compensated. As part of that 
effort, we must also make sure that other countries enforce 
labor laws and environmental regulations that help us combat 
climate change, the very things that undermine fair trade if 
not done correctly. In addition, the Department promotes 
sustainable development and improves standards of living by 
working in partnership with numerous stakeholders.
    The President's budget request for fiscal year 2018 
includes $7.8 billion for the Department of Commerce, which is 
a $1.4 billion, or 15 percent, decrease from the 2017 enacted 
level. This level of funding endangers these core missions at 
the Department. This budget very foolishly eliminates, in my 
opinion, vital agencies and zeroes out important programs.
    For example, it eliminates Economic Development 
Administration Grants and the Minority Business Development 
Agency. EDA is the only agency across the Federal Government 
that focuses exclusively on economic development in 
economically distressed areas around the nation. In addition, 
MBDA promotes the growth of minority-owned businesses and helps 
them compete in the world economy. I strongly oppose the 
elimination of these two agencies because it will hurt small 
businesses, workers, and economically distressed areas.
    The President's budget blueprint for 2018 also seeks to 
zero out funding for the Manufacturing Extension Partnership, 
or MEP. It is estimated that for every one dollar of Federal 
investment the MEP national network generates $17.90 in new 
sales growth for manufacturers, and $27 in new client 
investment. A survey by the Upjohn Institute in cooperation 
with the MEP centers showed that the MEP program helped create 
and retain more than 80,000 jobs in 2015 alone. In short, this 
program enhances the productivity and competitiveness of small 
and medium-sized manufacturers, and creates well-paying jobs 
while reducing our trade deficit with other countries.
    In addition to these cuts, the Trump administration 
proposes to zero out funding for various NOAA grants and 
programs that support coastal and marine management, and 
education and research, and benefit industry as well. States 
and local stakeholders are also involved. The Regional Coastal 
Resilience Grants, for instance, ensure our states and 
communities are prepared to face changing ocean conditions, 
from acidification to sea level rise, as well as major 
catastrophes. We need to make sure that we help our coastal 
areas. We need to make sure that we help our coastal 
communities remain resilient in the face of climate change and 
allow NOAA's research programs to continue. This is necessary 
for America's economic and environmental health.
    With regard to the Census Bureau, a very important 
constitutional mandate. As I stated a couple of weeks ago at 
our hearing with Director Thompson, the proposed funding level 
falls short of what is needed to help ramp up the ongoing 
preparations for both the 2020 Census and the other important 
surveys conducted by the Bureau. In fact, your requested total 
is actually $136.6 million below President Obama's request for 
the previous fiscal year. Underfunding and delays in the 
enactment of the Bureau's budget have already had consequences, 
and I remain seriously concerned that the Bureau will not be 
able to match the historic levels of compliance from the 2010 
Census. This is a critical time for the Census Bureau, and the 
leadership vacuum in combination with this budget request 
imperils a successful Decennial Census.
    These proposals in total represent the betrayal of many of 
the very individuals who voted for President Trump, individuals 
who reside in areas that are hurting economically and that are 
greatly helped by the programs that this budget seeks to 
eliminate. However, Mr. Chairman, I remain confident, and I 
want to say this to you personally because of our relationship, 
that I mean this sincerely, I and my staff want a bipartisan 
approach, want to be able to do the best for the Commerce 
Department. Because if they succeed, America succeeds. So there 
will be times when we disagree. It may fall apart. Who knows? 
It is democracy. But my intent is to work with you to come up 
with a bill that we can be proud of. Thank you.
    Mr. Culberson. We have always worked together beautifully 
and we are starting in the right place. I look forward to 
finding the way to do that in the weeks ahead.
    It is my privilege to recognize the gentleman from New 
Jersey, our full committee chairman, Mr. Frelinghuysen, for any 
remarks he would like to make.
    The Frelinghuysen. Well, thank you, Chairman Culberson, and 
welcome, Secretary Ross, to the Appropriations Committee. 
Today's hearing is an important part of the oversight duties of 
the committee and now we have formally received the 
administration's budget, and I can assure you we will go 
through each and every budget, including yours, line by line, 
question witnesses, your good self, and other representatives 
of the department and demand credible spending justifications. 
And only then will we make our own determinations on the best 
use of tax dollars.
    The Department of Commerce of course serves as a voice of 
America's businesses. And in my home State of New Jersey your 
department plays an integral role in promoting job creation and 
creating more economic opportunities. It is imperative that we 
continue to make smart investments that protect American 
companies from unfair trade practices, help foster and grow 
domestic manufacturing, and promote U.S. innovation and 
industrial competitiveness, and deliver more U.S. products to 
international markets.
    In a larger sense, many of my colleagues are concerned that 
certain sections of your budget suggest that America may be 
stepping back from many of its international relationships and 
responsibilities. I for one am concerned about the optics of a 
possible retreat into isolationism and protectionism. What I do 
know, and I think we all know, we cannot isolate ourselves and 
expect the vacuum not to be filled by the Chinese and others. 
We have seen that in the military aspect of what we are doing 
in the Middle East. If you step back, the vacuum is filled by 
bad characters who will take that economic edge away from us.
    But we are very pleased to have you here this morning and I 
thank Chairman Culberson for the opportunity to address you. 
Thank you.
    Mr. Culberson. Thank you, Mr. Chairman. Secretary Ross, we 
are delighted to have you here today. And your written 
statement will be entered into the record in its entirety, if 
there is no objection. We recognize you for your opening 
statement. And if you could keep your statement to within five 
minutes, that would be appreciated. Thank you, sir.


             department of commerce fy 2018 budget overview


    Secretary Ross. Thank you, Chairman. Chairman Culberson, 
Ranking Member Serrano, and members of the House Appropriations 
Subcommittee, I thank you for this opportunity to discuss 
President Trump's fiscal year 2018 budget request, a New 
Foundation for American Greatness. And thank you all for your 
previous support of the Department of Commerce.
    When I was confirmed as Secretary of Commerce on February 
27th, I took on the great responsibility of ensuring our 
Nation's taxpayer dollars are targeted to our current mission 
for keeping us safe and creating economic growth. The 
President's 2018 budget request is $7.8 billion in 
discretionary funding for Commerce, is a first step towards 
achieving those means. Oh--it is on. Were people able to hear 
what I had been saying or do I need to start back--it seemed to 
me like everybody was following. Anyway, the President's budget 
request prioritizes and protects investment in core government 
functions. These include ensuring fair and secure trade, 
preparing for the 2020 Decennial Census, and providing the 
satellites necessary to produce timely and accurate weather 
forecasts. The budget also reduces or eliminates often 
duplicative or redundant grant programs.
    The administration is devoting resources toward making 
critical investments in our Nation's economic and military 
security. The President's budget provides an additional $4.5 
million to the International Trade Administration for its 
Enforcement and Compliance Operations. These resources will be 
directed towards the self-initiation of anti-dumping and 
countervailing duty investigations. We will ensure that no 
country or foreign corporation can take unfair advantage of 
U.S. markets. This budget will create 29 new positions to 
accelerate these cases and shield U.S. businesses which are 
concerned about retaliation.
    The President's budget also provides a $1 million increase 
in funding for the Bureau of Industry and Security (BIS). The 
requested funding will add 19 new special agents within BIS' 
Export Enforcement Offices across the United States. BIS, 
despite its current size of only about 120 special agents, 
pushes far above its weight in defense of our country.
    In March, we announced a combined civil and criminal fine 
of $1.19 billion against ZTE Corporation, the second largest 
Chinese telecommunications company, for illegally shipping 
sensitive equipment to Iran and North Korea. BIS took the lead 
in cracking this case open. So I am confident that these 19 
additional agents and the bandwidth they represent will have 
real impact.
    The President's 2018 budget also requests $1.5 billion for 
the U.S. Census Bureau, a two percent increase from the 2017 
Omnibus Appropriations. This is a recognition of the important 
work that the Department of Commerce does in fulfilling its 
constitutional responsibilities of the Executive branch. The 
President's budget funds key activities that prepare for the 
2020 Decennial Census and in support of the Bureau's other data 
collection functions.
    As you are well aware, the Census Director has reported a 
large cost overrun in one area of its operations. The Commerce 
Secretariat and the OMB are jointly cross-checking these 
numbers. In addition, we are retaining outside consultants to 
conduct a third party review. We hope to have more clarity on 
this issue soon.
    The 2018 fiscal year budget also proposes $4.8 billion for 
the National Oceanic and Atmospheric Administration. NOAA's 
budget is tailored to fund its core missions of data collection 
and environmental stewardship. Within NOAA's top line, $1 
billion is recommended for the National Weather Service. 
Funding is also included for the Advance Weather Interactive 
Processing System Cyclical Refreshment. This reduces the risk 
of system downtime that can impede critical weather forecasts 
and warnings. With its $1.8 billion request for the National 
Environmental Satellite and Data Information Service, NESDIS, 
NOAA will continue its work to deploy the next generation of 
weather satellites.
    These items are just a small cross-section of our 
department's overall budget. I hope that I have given you a 
glimpse into the priorities set by President Trump and his 
administration. I am glad for the opportunity to get into more 
detail with you and to provide answers for any specific 
questions you may have. Thank you.
    Mr. Culberson. Mr. Secretary, thank you. I want to commend 
you for the focus, as you indicated in your testimony, on the 
International Trade Administration. We are delighted to be 
joined by our ranking member, the gentlewoman from New York. I 
would be pleased to recognize her for any statement she would 
like to make at this time.
    Ms. Lowey. Well, thank you very much. And I am really 
excited to see you again, and I wish you the best in your new 
responsibilities. And I thank you so much for joining us today.
    As you noted in your written testimony, the Department of 
Commerce's mission is to ensure that taxpayer dollars go to 
programs that will grow the economy, and that is why your 
budget's elimination of the Economic Development 
Administration, which helps struggling communities, does not 
make any sense. And I hope we can have further discussion on 
that.
    I would say that investments in scientific and environment 
advancements that keep our coastal zones and marine wildlife 
safe also have an important economic impact. Given this 
administration's aversion to science, unfortunately, especially 
when it comes to climate change, your proposed eliminations of 
the NOAA National Sea Grant Program and the NOAA Coastal Zone 
Management Grant Program may not be a surprise, but combined 
with significant decreases to NOAA climate research and NIST, 
these cuts are dangerous. We need research to understand the 
changes in the environment and weather patterns that put our 
communities' safety and economies at risk. An ounce of 
prevention is worth a pound of cure. I could name a litany of 
natural disasters for which we could have been better prepared 
to mitigate damage. Superstorm Sandy, for example, destroyed 
homes, businesses, transportation hubs, and shorelines along 
the eastern shore, including in my district. The Federal 
Government provided $60 billion to help communities recover and 
rebuild. Why in the world would we impede research to help us 
understand and prepare for the havoc our changing environment 
could wreak on our communities in both lives and treasure?
    Finally I must note while this budget includes an increase 
for the Census Bureau, it is shockingly insufficient with 2020 
looming. We need an accurate and full picture of the population 
to understand how to best serve the American people across 
every Federal department and agency.
    Mr. Secretary, I look forward to a productive discussion 
this morning, and I look forward to working with you to achieve 
the Department's goals. And Mr. Chairman, I want to thank you 
so much. As the chairman knows, we have had our roller skates 
on today, there are so many hearings. Thank you very, very much 
for giving me the opportunity.
    Mr. Culberson. Thank you, Ms. Lowey. Delighted to have you 
with us and it is always a pleasure to work with you.
    Mr. Secretary, I truly do want to thank you for focusing on 
anti-dumping and countervailing duties. And I want to 
congratulate the department in particular for that long overdue 
and very important $1 billion civil and criminal fine that was 
imposed on ZTE. That is extraordinarily important. The Chinese 
have been notorious in this area and I am really grateful to 
you for that work. And I congratulate the agents in the 
department that took care of that.
    Secretary Ross. Thank you, sir.


                                 census


    Mr. Culberson. If I could, Mr. Secretary, start with the 
Census. We had a hearing earlier this month with the Census 
Bureau and they testified that their IT systems would be 48 
percent over budget, which is unacceptable. What will you do to 
hold Census employees and contractors accountable for that cost 
breach, and what steps are you taking to keep the cost of the 
2020 Census under control while reserving your ability to 
perform that vitally important function?
    Secretary Ross. Surely. Well the first thing we are trying 
to do is to get our arms around what the real numbers are 
likely to be. We have put together a task force consisting of 
folks from the Secretariat and from OMB, plus two outside 
consultants with a great deal of experience in prior Censuses 
so that we can begin to identify what caused the huge overrun 
that has already been reported and what are the implications 
for potential future further overruns. Because that was just 
one segment that accounted for it.
    In general, the contracts that the Census Bureau has put 
out have tended to be time and material contracts. My 
experience in the private sector has been when you have a very 
complicated situation with a large number of vendors and the 
necessity to integrate them into a very massive software 
activity, the potential for trouble is really quite 
considerable. It is alarming that at this relatively early 
stage when only a small portion has actually been spent, they 
already are calculating for a very major overrun on the back 
end of it.
    We are going through the entire series of activities that 
will be conducted as we keep two things in mind. One deals with 
the budget course or budget requirements, and second, which is 
outside the parameters, has to do with how bad could it get if 
really things get totally out of control? Once we have those 
two, we have to determine what can be done on a remedial basis 
in each of the various phases to bring the current situation 
back under control.
    Our primary objective, though, is an accurate enumeration 
of the population and we do not intend to sacrifice that at 
all. If it is going to cost more, we will come to you, we will 
explain why, and we will work with you on solutions.
    I am just getting up to speed on all these contracts, 
because, as you know, they were entered into before I was 
confirmed as the Secretary of Commerce. So other than those 
40,000-foot observations for the moment, we will get to ground 
zero and we will report quite promptly once we do.
    Mr. Culberson. I have faith you will get to the bottom of 
it. I want to assure you that I will work with you, and this 
committee will work with you, to be sure that you have the 
tools you need to hold people accountable and to do what is 
necessary to help control the cost of the Census while ensuring 
its accuracy. That is a vitally important role of the 
Department.
    We are expecting votes about 11:30. So I am going to cut my 
time a little short, 11:15, 11:30, and recognize Mr. Serrano so 
we can move along.
    Secretary Ross. Yes, sir.
    Mr. Culberson. Thank you, sir.
    Mr. Serrano. The President's budget request includes $800 
million for the 2020 Census preparations. But while this is an 
increase above the current level, it is still $131 million 
below the amount that the Commerce Department had earlier 
projected to be needed for fiscal year 2018. The Department is 
now planning on delaying the opening of regional offices and 
other issues that we need to set up. Mr. Secretary, how can 
such an inadequate budget request for the 2020 Census be 
justified? And will it not eventually lead to a situation where 
the Census in fact will cost more? And how can we fix that? 
Because as you know, the Census is one of the few areas which 
is constitutionally mandated. We need to do it, and we need to 
get a good count. It helps all the states. It helps all our 
members. But we do not seem to be ready to do it, nor do we 
seem to be able to pay for it properly. And secondly, having a 
vacuum at the leadership position also adds to the problem.
    Secretary Ross. Well, that is a whole bunch of questions, 
sir. I will try to answer them as best I can.
    I am committed to being transparent, totally transparent 
with this committee regarding the financial requirements of the 
2020 Census. And as soon as we really have a good handle on the 
2020 Census requirements, whether it is more or less, whatever 
it is going to turn out to be, we will promptly come back to 
you with our detailed backup for why we are making the request. 
So rest assured of that.
    Rest assured, also, I have a historic reason for being very 
interested in the Census in that when I was working my way 
through Harvard Business School, I was a Census taker. I 
literally was an enumerator with the big white belt and the 
badge going around Copley Square in Boston. So I understand the 
groundwork that is needed to be done. I also understand how 
hard it is to manage that kind of a workforce. You are talking 
about hiring hundreds of thousands of part-time people, who 
know they are part-time, and who also know that there is no 
permanent career opportunity for them at Census. So just 
creating, hiring, and managing that kind of a force, all over 
the country, and in the territories, dealing with Native 
American Reservations, it is a very, very daunting and very 
complex task. So I do not think I will be underestimating the 
magnitude of either its importance or the magnitude of its 
challenges. But as we sit here at this moment, I do not have a 
totally reliable figure for you. When I return it will be an 
amount that I can stand behind.
    Mr. Serrano. OK. Mr. Chairman, do I have enough time for 
another question?
    Mr. Culberson. Thank you. Yeah, but we are going to try to 
follow the five minutes.


investigation of russian interference in the 2016 presidential election


    Mr. Serrano. Well, this is a longer question. Mr. 
Secretary, I have a number of questions about the 
administration's budget request. But before we get to that, I 
need to address something related to the cloud that is 
currently hanging over much of the Federal Government right 
now. And that is the investigation into Russian interference in 
the 2016 Presidential Election.
    Earlier this year numerous members of Congress sent you 
written questions related to the Bank of Cypress and its 
Russian investors. First, why has the White House refused to 
permit the release of your written responses to these 
questions? Second, are you concerned that the White House 
refusal to release your answers contributes to the concern 
expressed by many Americans over the White House refusal to 
address the testimony by current and former intelligence 
officials that Russia did in fact interfere in the 2016 
elections?
    Secretary Ross. Well, I am aware of the letters that were 
sent by various members of Congress. I discussed that as part 
of my confirmation proceedings. What the White House decision 
making was, I cannot tell you why. But that was the position.
    Rest assured, though, the New York Times, which is not 
normally a big friend of this administration, did a very 
thorough investigative study of my own situation vis a vis Bank 
of Cypress and Russia, and they came away with a very 
affirmative conclusion in terms of me not having any real 
involvement. So I hope that gives you some degree of comfort in 
the situation.
    Mr. Culberson. Thank you, Mr. Secretary. Chairman 
Frelinghuysen.
    The Chairman. In my earlier life I was in Mr. Serrano's 
position as the ranking. It is better to be in the majority 
situation, I think.
    Let me say, I commend you for taking a look at the Census. 
It really begs the question, what has been going on over there 
since the last Census? I mean, it is an expensive endeavor and 
I think much of American business obviously depends on a lot of 
the information that is collected. I know you are acutely aware 
of that. And lastly, I would like to put a plug in. I have 
always thought that NOAA has done an incredible job. I am 
reminded of, what is it, 71 percent of the world's surface is 
water. So it is important that we be aware of all aspects that 
relate to it. And I want to put a plug in for NIST. Sometimes 
in the overall scheme of things, there are a lot of acronyms, 
but they do some remarkable things, too. And I have always 
viewed it as sort of one of the crown jewels that is out there, 
especially now because they have this sort of initiative on 
cyber which I think affects just about every part of our 
Nation. But certainly you know that in the final analysis this 
House is going to put its imprint on your recommendations. And 
we obviously will do that respectfully and look forward to 
working very closely as we move ahead. Thank you, Mr. Chairman.
    Secretary Ross. Thank you, sir.
    Mr. Culberson. Ms. Lowey.


                         noaa sea grant program


    Ms. Lowey. Thank you very much. And where our Chairman left 
off, I would like to say that I look forward to working with 
the Chairman and all my colleagues in producing a really good 
bill, as we did in 2017.
    So to my question, Mr. Secretary, you are proposing to 
eliminate the NOAA Sea Grant Program, which received $63 
million in the recently-passed fiscal year 2017 spending bill. 
Its national network of colleges and universities conducts 
scientific research in support of the conservation and 
practical use of the coasts, the Great Lakes, and other marine 
areas. There are several universities and research institutions 
in our home State, New York, that are part of this network--in 
fact, I would love to take you at some point to Columbia 
University's Lamont-Doherty Earth Observatory--but so are a 
number of universities in other states that voted for President 
Trump because they believed that he would deliver for their 
economies: Ohio, Wisconsin, Michigan, Florida, North Carolina, 
and others. If the Sea Grant Program is eliminated, as 
President Trump proposes, these states will lose this very 
valuable program. This does not make sense to me and if you 
would comment on this, I would really be appreciative, and I 
would love to take you to Lamont-Doherty one day.
    Secretary Ross. Well if permitted by the Office of 
Government Ethics, I will take you up on your invitation to go 
there.
    In terms of the substance of it, the administration's 2018 
budget prioritizes rebuilding the military and making critical 
investments in the Nation's security. It also identifies the 
savings and efficiencies needed to keep the Nation on a 
responsible fiscal path. To meet those goals, some difficult 
decisions needed to be made. The administration prioritized 
programs that provide a good return to the taxpayer, as well as 
those that serve the most critical functions while 
consolidating or eliminating duplicative, ineffective, or less 
critical programs.
    NOAA'S Sea Grant Program is a successful program. But it is 
one that primarily benefits industry, State, and local 
stakeholders. Those programs are a lower priority than the core 
functions maintained by the budget, such as surveys, charting, 
and fisheries management.
    Ms. Lowey. Let me just say that I look forward to having 
you visit this program, because although some wisdom may come 
from some in the administration, I think that analysis is 
misguided. Because if you look at the creation of jobs, the Sea 
Grant Program is absolutely key. So thank you very much, and we 
will move on and I will save my other questions for another 
day. But we really have to analyze each of these programs. And 
the person who briefed you may not be aware of the job creating 
opportunities and the knowledge we gain from these outstanding 
programs. So I look forward, I will take you up on your 
acceptance. Thank you.
    Secretary Ross. Thank you.
    Mr. Culberson. Thank you, Ms. Lowey. It is my privilege to 
recognize the chairman of the full committee in the last 
Congress, and former chairman of this wonderful subcommittee, 
the gentleman from Kentucky, Mr. Rogers.


                ita enforcement and compliance for steel


    Mr. Rogers. Thank you for being here. Congratulations on 
your elevation to this post, or demotion as the case may be. So 
good luck to you.
    Recently, U.S. steel companies have had to close plants and 
lay off their employees at an alarming rate due to unfair trade 
practices. In December of 2015, AK Steel temporarily laid off 
about 700 employees at Ashland, Kentucky, just outside my 
district. And AK Steel pointed out that one of the reasons for 
that temporary lay off was, ``the onslaught of unfairly traded 
imports.'' AK and several other domestic steel producers filed 
a complaint with the International Trade Administration and the 
International Trade Commission at Commerce. And in 2016, 
Commerce imposed a 209 percent duty on imported Chinese 
corrosion-resistant steel and leveraged separate anti-dumping 
duties on hot rolled steel products from seven other countries. 
And then in March of this year, ITC determined that countries 
under de facto Chinese government control had in fact sold 
stainless steel sheet in the U.S. at far less than market 
value, injuring U.S. companies. And they imposed a 58 percent 
duty on these Chinese products.
    But the AK Steel plant is still idling, its Ashland 
furnace, as are many of the other steel companies. In recent 
years, this committee provided several funding increases for 
the ITA Enforcement and Compliance Division. I am pleased to 
see that the President's request in his budget continues this 
trend with an additional $3 million.
    [The information follows:]

    ``Clarification: There are two requested increases for 
Enforcement and Compliance: 1) $3.9 million for strengthening 
current programs, and 2) $4.5 million for Self-Initiation of 
Anti-Dumping/Countervailing Duty Investigations and 
Administration Reviews''

    The question is, how do you plan to spend that money and 
stop this insidious wasting of American jobs?
    Secretary Ross. Thank you, sir. Well as you are probably 
aware, I have spent a good deal of time in the steel industry 
myself, with International Steel Group and Bethlehem Steel and 
LTB and some others. So I am acutely aware of how we got to 
where we are.
    What we are doing is a number of things. We have stepped up 
the pace of enforcement. Already the department has almost 400 
orders, I think it is around 389 or 390, about half of which 
alone relate to steel. And about half of those relate to 
Chinese as one of the participants. So we are very much focused 
on both the geography and the magnitude of the problem. And 
just yesterday we held a hearing under Section 232 exploring 
the national defense and national economic security 
implications of the steel situation. It was a very, very 
interesting day. We had 37 separate witnesses come to testify, 
Steel Worker's Union, just about all the American steel 
producers, some of the consuming industries. And interestingly 
several representatives of foreign governments, the Chinese 
Government, the Russian Government, Ukrainian Government, and 
maybe one or two others testified that they did not feel that 
there was any national defense or economic security implication 
to steel. Representatives of our domestic industry by and large 
took a quite different view.
    We have been studying this industry within the department 
for quite some time since the executive order. Having completed 
the hearing, we have allowed another week for written 
submissions beyond those that have already come in. Once we 
have had a chance to review yesterday's oral testimony, plus 
the written, we will complete our report. Also, we will 
recommend to the President whatever course of action the facts 
suggest. And then he will make his decision. We technically 
have 270 days to complete this report. We are not going to take 
anything like that. Sometime during the month of June I expect 
we will render the report. My guess is the President will act 
very quickly on the report once it is submitted.
    Mr.  Rogers. Well as the gentleman knows, steel is the 
backbone of American industry. So many other types of 
industries feed off it, such as coal in my district.
    Secretary Ross. Right.
    Mr. Rogers. And of course others. So we wish you well in 
your job and in pushing these proposals to stop this insidious 
wasting of American jobs. We want to make steel great again.
    Secretary Ross. Yes, sir. Well steel is very important to 
our national defense. Even though it is only a small percentage 
of total steel production, it is the same mills that make steel 
for civilian purposes that make it for military purposes. The 
famous big bomb that was let loose in Afghanistan would not 
have been able to do the job without a lot of steel. Neither 
would the Navy have ships, neither would the Air Force have 
planes, neither would the Army have tanks or armored personnel 
carries, or rifles, or anything. So steel, is an essential 
ingredient to many of our industries and products. 
Particularly, the higher quality special alloys are extremely 
important from the point of view of armor, armor for vessels, 
armor for vehicles, armor for everything. So we are focusing 
quite intently on it. And the questions we posed to the people 
who testified yesterday were, one, do they agree that it is a 
national emergency? Two, if it is, what is it we should do? 
Should a tariff> imposed? Should it be quotas? Should it be 
some combination of the two? Should it be broadly based, 
covering a multitude of steel products? Should it be more 
narrowly focused? How should we deal with the relationship in 
steel between the U.S. and its two immediate neighbors, Canada 
and Mexico? We actually have steel surplus with Canada and 
Mexico. So that puts them in a little different position, as 
well as the fact that they are participants in NAFTA.
    So my reason for going into that detail is this is a very 
serious situation and it is the first systematic study of the 
real implications of the import problem, the global over 
capacity on steel. And that will be followed up very shortly 
with our response to the President's other executive order 
about aluminum. We are going to be conducting a very similar 
study on aluminum. And there may well be other industries that 
need the same treatment. If it comes to an affirmative finding, 
Section 232 gives the President very broad powers as to the 
kinds of remedies that he might impose. So that is one of the 
merits of using that very rarely used provision in the 1962 
Act. So we are on board with that investigation.
    But we are not letting up on the normal enforcement 
matters. In fact, recently, we did a case called Tenaris in 
which the problem was not steel as such--am I over time?
    Mr. Culberson. They just called a vote, Mr. Secretary.
    Secretary Ross. OK. My goodness.
    Mr. Culberson. Excuse me, but we have a vote. Forgive me 
for interrupting because you are talking about something we are 
all in agreement on, focusing on the strategic importance of 
our steel industry and protecting it in the United States. Mr. 
Cartwright, if you can be brief we will recognize you. We will 
then recess and come back, Mr. Secretary. Excuse me for 
interrupting you.

                  ECONOMIC DEVELOPMENT ADMINISTRATION

    Mr. Cartwright. Thank you, Mr. Chairman. Secretary Ross, 
welcome to our subcommittee. I am Matthew Cartwright from 
Northeastern Pennsylvania. My hope is that you share my 
commitment to the goal of creating and preserving family 
sustaining jobs in our economy. Something that is horribly 
troubling to me is that the administration proposes the 
complete elimination of the Economic Development 
Administration, the EDA, one of our greatest job creators in 
this Nation. I believe if anything we need to expand the work 
of the EDA to help the communities that need it most. For 
example, the past two budget proposals from the administration 
included a power plus plan, which would focus money on 
communities that have been hurt by the contraction of the coal 
communities.
    I am proud to be the lead Democrat on a bill called the 
Reclaim Act, introduced by the former chairman, Representative 
Hal Rogers here, and Senator McConnell, a brilliant piece of 
legislation that would inject $1 billion to benefit those 
communities. Mr. Secretary, will you support the Reclaim Act 
and similar efforts to inject funding and help create jobs 
where they are needed most?
    Secretary Ross. The administration is committed to bringing 
jobs back and to building jobs here in existing businesses. And 
I very, very much share his commitment to those activities. And 
a lot of the reason why we have become so much stricter in 
enforcement than had been true before, is that is where a lot 
of the problems are coming from, is from dumping of product.
    You have, take the steel industry, a global over capacity 
that has set the unused excess capacity is several times that 
of total U.S. consumption. So it dwarfs our whole economy. So 
we really need that.

                  MANUFACTURING EXTENSION PARTNERSHIP

    Mr. Cartwright. Well thank you for that. I want to move on 
to manufacturing, which I think is one of the keys----
    Secretary Ross. Yes, sir.
    Mr. Cartwright [continuing]. To creating and preserving 
family sustaining jobs. Mr. Secretary, the administration 
proposes eliminating all Federal funding to the Manufacturing 
Extension Partnership, the MEP, as was originally intended when 
the program was established, they said. But in 1998 Congress 
changed course and has continued to appropriate funding for MEP 
in every single subsequent year in strong bipartisan fashion.
    MEP centers need Federal support because they serve 
manufacturers that are too small to attract private sector 
investment. Over 60 percent of MEP beneficiaries cite MEP 
centers as their only resource for technical expertise.
    Now my question is a full 85 percent of Department of 
Defense awards go to smaller manufacturing firms. This is the 
very market the MEP program serves. Have you analyzed the 
potential threat to DOD's manufacturing and readiness needs if 
you eliminated the program that allows DOD suppliers to be more 
productive, efficient, and innovative?
    Secretary Ross. Well as I mentioned, this budget 
unfortunately has to be about priorities. And the MEP has 
certainly performed a good function. We believe that even with 
the elimination of Federal funding the MEP centers would 
transition to non-Federal revenue sources, which as I 
understand it, was originally intended when the program was 
first established, that it would eventually transit to non-
Federal sources.
    Mr. Cartwright. Could you be specific on what the plan is 
for transitioning to non-Federal sources?
    Secretary Ross. Well they have partnerships with a number 
of local institutions. We believe that there is community 
support for funding coming from private sector to them. We 
certainly do not mean to imply that manufacturing is not 
critical. It is. We understand that. But you have to make 
difficult choices when you are in a stringent budget and 
unfortunately this is one of the choices that had to be made.
    Mr. Culberson. We are running pretty tight.
    Mr. Cartwright. I yield back, Mr. Chairman.
    Mr. Culberson. Thank you. Thank you very much, Mr. 
Cartwright. I recognize Judge Carter.

                             CYBERSECURITY

    Mr. Carter. Secretary Ross, welcome. Thank you for being 
here. I chair the DHS Subcommittee on Appropriations and I 
often hear about threats we face concerning cybersecurity. And 
actually the outright theft of intellectual properties and the 
growing cyber threat we face concerning our critical 
infrastructure, such as the grid. Tell us about what changes 
you are making in the cybersecurity realm to protect our 
critical infrastructure. And have, we have seen general nods to 
increase cybersecurity and tightening of intellectual property 
security in the budget, how can American business, especially 
small and medium enterprises, expect to see these initiatives 
working for them?
    Secretary Ross. Well as you know, part of the Department of 
Commerce's function is to take a leading role in the 
interagency activities relating to cybersecurity. That is a 
problem that I think will be with us for the rest of our lives 
and our grandchildren's lives. It is a never ending struggle to 
try to keep pace with or even get a little bit ahead of the 
hackers. You saw this very recent instance on a huge, huge 
scale.
    So this is a very serious problem. We take it very 
seriously. And I feel that the work that the people within 
Commerce are doing is very, very valuable to it. I think they 
are acknowledged as playing a leadership role, along with 
Homeland Security, along with other entities of the government 
in doing so. And they will continue those efforts. We are very, 
very supportive of that.
    Mr. Carter. Do you feel like that small businesses and 
medium sized businesses are being considered? Because we know 
that the targets and the big target areas out there are, make 
the news. But the reality is, those smaller entities have less 
ability to secure their own information.
    Secretary Ross. No----
    Mr. Carter. And it would seem to me that would be something 
that you would have to be challenged by.
    Secretary Ross. Yes. That is certainly true. It is also 
true, though, that at least some of the hackers are more 
interested in getting blackmail money or protection money. And 
so they tend to go after the larger targets because there is a 
bigger check that they can get for the same hacking. So it is a 
problem for small businesses. And it is something we are very 
aware of. So is the Small Business Administration, 
Administrator Linda McMahon is aware of it as well. It just is 
a struggle we are going to have every day as we go forward. And 
we are doing the best we can to cope with it.
    Mr. Carter. Thank you, Mr. Chairman.
    Mr. Culberson. Thank you, Judge. Mr. Secretary, I think we 
will recess at this time because the vote is down to the last 
three minutes. There are three votes, so I do not expect to be 
too long. We will come right back into session. So with that, 
the committee stands in recess. Thank you, Mr. Secretary.
    Secretary Ross. Thank you, Chairman.
    [Recess.]
    Mr. Culberson. The hearing will come to order.
    Ms. Meng, you are next. If I could, I would like to briefly 
recognize our ranking member, Mr. Serrano, for a brief 
statement.
    Mr. Serrano. Mr. Secretary, don't be shocked, but I am 
going to praise you for something. [Laughter.]
    I have been in Congress 27 years and you are the first 
Secretary to mention the Territories, I was born in Puerto 
Rico, without having to be prodded by me to mention the 
Territories. [Laughter.]
    So I appreciate that personally. Thank you.

                            CENSUS DIRECTOR

    Secretary Ross. Thank you, Congressman.
    Mr. Culberson. Mr. Serrano is a true gentleman.
    Ms. Meng, I am pleased to recognize you.
    Ms. Meng. Thank you, Mr. Chairman.
    Thank you, Mr. Secretary, for being here today, and 
congratulations as well.
    I wanted to follow up on questioning about the census. As 
you know, Director Thompson recently retired from the U.S. 
Census Bureau; where are you in the process of hiring a new 
director?
    Secretary Ross. Well, we have been actively recruiting and 
we would welcome any suggestions that members of this committee 
might have as to who would be a good successor. We are looking 
both within Census and outside Census to try to find both the 
Director and the Deputy Director.

              MINORITY BUSINESS DEVELOPMENT AGENCY (MBDA)

    Ms. Meng. Thank you.
    My other question is about the MBDA. Your budget submission 
to Congress proposes eliminating the MBDA. It is the only 
Federal agency tasked to create new jobs by expanding the U.S. 
economy through our Nation's 8.1 million minority businesses. 
Based on current census data, it is estimated that by the year 
2050 minorities will represent 54 percent of the total United 
States population. Minorities currently represent 29 percent of 
our population, but own only 7.5 percent of our Nation's 
businesses.
    How can we ensure if this agency is eliminated that we are 
giving them opportunities to grow?
    Minority-owned businesses are twice as likely to export 
their products and services, for example, as non-minority-owned 
businesses.
    My questions are, what message does the elimination of a 
program like this send to our minority communities across 
America, and how will this administration ensure that for 
minority-owned businesses that they have a level playing field 
in access to capital, contracts and markets?
    Thank you.
    Secretary Ross. Thank you. That is a very important 
question.
    The administration's general focus is trying to help 
everybody in the economy with the tax reductions, with the 
regulatory reductions, with unleashing our energy resources, 
and with getting rid of inappropriate trade practices. Our hope 
is that that will make a much better environment for all 
businesses, whether minority businesses or not.
    As to the MBDA itself, it is a relatively small entity, as 
you are aware, and a grant-making entity, and in general those 
have been targets in this budget proposal. Small, grant-making 
entities have been targeted. And part of the reason is there is 
some duplicative activity between the MBDA and the Small 
Business Administration in their district offices and in their 
small business development centers.
    But the President's proposal to eliminate the agency should 
not be viewed as an abandonment of the agency's core mission. 
Rather it is in a strange way an acknowledgment that the agency 
has succeeded in creating an environment that is more 
supportive of minority businesses today than it had been before 
the agency was founded in 1969.
    So in a sense that is a factor in it, but our hope is that 
the overall lift to the economy will make a lot more room for 
minority businesses and other small businesses.
    Ms. Meng. Thank you for that.
    As you know, the SBA programs would address small 
businesses, not all minority-owned businesses are necessarily 
small businesses. I am just concerned and would love to hear 
more details. And I appreciate you addressing issues like tax 
regulations and cutting down on regulations. I am just 
concerned if the MBDA is eliminated, and the 30-plus centers 
around the country are eliminated, then the employees won't be 
there in certain communities to be able to help minority 
communities. Outside of the SBA, if businesses don't fit into 
that category, how are we going to ensure that the core mission 
of the MBDA is fulfilled?
    Secretary Ross. Well, as you know, there also are similar 
efforts at the State and local, as well as private sector 
efforts to encourage minority business development, presumably 
those will go unabated by the demise, if it occurs, of the 
MBDA.
    Also, you probably are aware, I serve on the board of OPIC 
and of the Export/Import Bank and I have been encouraging those 
two institutions very aggressively to help smaller businesses 
and particularly minority businesses, because only two percent 
of all American businesses ever export anything. And I think 
part of the reason is, it is a daunting challenge to arrange 
foreign transactions, letters of credit, all the things that 
are essential to the international market place. So I have been 
trying to get them to focus more on the small business 
situations in this country.
    Ms. Meng. If I could just finish by saying, if I could work 
with you and have your commitment on ensuring that our 
government is fulfilling the core mission of the MBDA as we 
work through this budget, and is working with the State and 
local governments to make sure they have the resources that 
they need.
    Secretary Ross. Surely. Well, we had to make a lot of 
difficult decisions in this budget process and this was one of 
the more difficult ones.
    Mr. Culberson. Thank you, Mr. Secretary.
    I know the University of Houston has a very successful 
program to coach and guide minority business owners and small 
businesses into the equity market. Also I know you have got 55 
years of experience in this area.
    Secretary Ross. Yes, sir.
    Mr. Culberson. So it is an area you know well.
    Secretary Ross. Yes, sir.
    Mr. Culberson. I want to recognize Mr. Palazzo.

                NDAA-COMMERCIAL AND RECREATIONAL FISHING

    Mr. Palazzo. Thank you, Mr. Chairman. And, Mr. Secretary, 
thank you for being here today.
    Mr. Secretary, having been at least a part-time Florida 
resident, I think you understand very well that commercial and 
recreational fishing in State and Federal Gulf of Mexico waters 
is very important to the national and our regional economies. 
And as everyone here knows, NOAA announced earlier this month 
that the recreational fishermen along the coast would have a 
mere three days to fish for red snapper in Federal waters. Over 
the past decade, the recreational private sector has seen 
annual seasons reduced from 194 days in 2007 to just 11 days in 
2016, to three days in 2017.
    Now, I am not going to get in the weeds on this one with 
things like total allowable catch or State versus Federal data 
collection. I think my Gulf Coast colleagues and I have 
outlined those issues fairly extensively at this point in the 
several letters that we have sent you and your department in 
2017.
    I understand that in the absence of legislation the 
agency's purview is limited; however, going forward can you 
assure us that you will use whatever tools you have to provide 
some relief to our recreational anglers right now and down the 
road work with Congress to develop a long-term solution to 
address these issues impacting our recreational fishermen and 
coastal communities.
    Secretary Ross. I am quite aware of the situation and those 
letters sent by some 15 Congressmen on the topic led by 
Majority Whip Steve Scalise, and just last night Earl Comstock 
from my office, who is our Director of Policy, had a meeting 
with many of those members. I don't know, Mr. Palazzo, if you 
were----
    Mr. Palazzo. Yes, sir, I was in attendance.
    Secretary Ross [continuing]. Part of it. I think there he 
pledged and I pledge again that we will try to make sure that 
there is an equitable solution to the conundrum of recreational 
fishing versus commercial fishing. But you are quite right in 
saying that our resources in the sense of powers is relatively 
limited in that area.
    So we are going to be making a very fulsome request of NOAA 
for the underlying data on which they base the decision just to 
give that one three-day weekend for recreational red snapper 
catching. It seems on the skimpy side, but we are not the fish 
experts. So I promise you we will follow up and we will do the 
best we can to balance the needs of the recreational with the 
needs of the commercial.
    Mr. Palazzo. Well, Mr. Secretary, I appreciate that, and I 
look forward to working with you and your team to help the 
recreational anglers be able to enjoy what pretty much, you 
know, is their heritage and what they enjoy to do, and be able 
to get out on the waters and make memories that will last a 
lifetime.
    So thank you, sir.
    Secretary Ross. Well, when I was a little boy, my 
grandfather and I used to fish a lot. So I have a history as a 
recreational fisherman.
    Mr. Palazzo. And you never forget those memories.
    Secretary Ross. Thank you.
    Mr. Palazzo. Thank you.
    Mr. Culberson. Thank you, Mr. Secretary. I want to express 
my agreement with Mr. Palazzo. This is a thorny issue. Red 
snapper is a tough issue. But three days are on the skimpy 
side. And the commercial fishermen have done a good job, the 
stocks are rebounding because there were reasonable limits put 
in place to protect red snapper. There has certainly to be a 
way to open up the Federal waters to recreational fishermen in 
a way that will preserve the fishing stock. Maybe just limits 
in the Federal waters like you have got in the State waters.
    Secretary Ross. Sure. Well, the fishing whole scene is very 
intriguing to me in that I am obsessed with the problem that we 
have a $13 billion deficit, trade deficit in fish and fish 
products, and it doesn't seem to me with all the water 
surrounding us and all the lakes and rivers, it seems weird 
that we should have a deficit. So that is one of the areas we 
are going to be focusing very much on.
    It is not directly on the point of recreational, but the 
whole fishing topic is very, very complex and fascinating.
    Mr. Culberson. And especially important in the United 
States, as you say, with our coastal waters are so prolific. We 
have done a good job of protecting and managing those assets 
and there are few people in Congress that know more about it 
than the former State Senator from Washington, Mr. Kilmer. We 
look to him and Mr. Palazzo for advice on this.

               ECONOMIC DEVELOPMENT ADMINISTRATION (EDA)

    Mr. Kilmer. Thanks. Thanks for being with us, Mr. 
Secretary.
    Before I came to Congress, I worked in economic development 
professionally, and I worked often with the only agency at the 
Federal level whose sole purpose is economic development and 
that is the Economic Development Administration.
    I represent a district that has a lot of areas that are 
really struggling. My hometown of Port Angeles is one of those 
distressed communities and with the help of the EDA's Regional 
Innovation Strategies Program just started up a composite 
recycling center in that town with an investment of just 
$500,000, which is a drop in the bucket for the Federal 
government. The recycling center is going to establish a new 
industry and bring much-needed jobs into an area that needs it. 
And I am perplexed that the department would choose to 
eliminate one of the Federal government's strongest supporters 
of job creation.
    I know that the rationale is stated as it being 
duplicative. I guess I would love to understand what programs 
is the EDA duplicative of and what is the rationale for 
eliminating it.
    Secretary Ross. Well, thank you for that question.
    First of all, I am proud of the investments that the EDA 
has made historically. I think their record over the last 52 
years has been exemplary both in terms of the help they have 
provided to distressed regions and of the way that the 
investments have turned out. I think it has been a very well-
run program because there were locally driven strategies and 
needs that it succeeded as well as it did. Those investments 
did spur local innovation and entrepreneurship, saved jobs and 
leveraged private investments.
    Now, the good news about the decision is that there will be 
a continuity of the administration of the grants, because there 
is a large portfolio. There are approximately 1,400 grants 
outstanding that total $1 billion. So there is going to be a 
several-years during which those grants will be administered 
and that therefore will assure at least that the existing 
grantees are not left out in the cold; there will still be the 
relationship with them.
    Mr. Kilmer. So who is going to fill the gap afterwards?
    Secretary Ross. There are other programs that at the State 
level and at the local level in a variety of communities that 
perhaps could fill some of that gap.

     COASTAL ZONE MANAGEMENT AND REGIONAL COASTAL RESILIENCE GRANTS

    Mr. Kilmer. Just in the interest of time, I will move on. I 
mean, I would just say I think communities like the one where I 
grew up are looking to the Federal Government to be a partner 
in those efforts.
    Other areas that are looking to be partners are coastal 
communities. I represent the coast of Washington State. And, 
you know, I know you have a long background in business and can 
appreciate return on investment. The Coastal Zone Management 
Program and the Regional Coastal Resilience grants are good 
examples of return on investment.
    And in your own budget justification it says, ``Over the 
45-year history of the Coastal Zone Management Program, 
participating States and Federal agencies have partnered to 
streamline permitting and regulatory processes, reduce the 
costs associated with disasters, and address environmental 
risks with potentially catastrophic economic impacts.'' By the 
most modest standard, they say that there has been more than 
three-to-one return on investment.
    I represent a district that is already dealing with the 
impacts of more severe storms, with sea level rise, with 
coastal hazards, including potential tsunami. So I have to say 
the elimination of these programs I think would be very pound 
foolish, I can't even say it is penny wise.
    You know, I know our own chairman from Texas, you know, 
there are 27 refineries representing 29 percent of the Nation's 
refining capacity in Texas, some of them are on the coast, a 
lot of them are. Countless ports. We have a lot of defense 
installations that are on the coast. Forty percent of the U.S. 
population lives in coastal areas. These programs actually help 
make our communities safer; they help us protect critical 
infrastructure, they help us shore up those national security 
assets.
    So can you explain to me and to our subcommittee why you 
believe NOAA's Coastal Zone Management and Coastal Resilience 
Programs should be eliminated? Because I have to be honest, the 
justification that is in the budget I just don't find 
compelling at all.
    Secretary Ross. Well, again, to get to the administration's 
priority goals, which were rebuilding the military and making 
critical investments in national security, there had to be an 
identification of savings that could be made in order to keep 
the Nation on a responsible fiscal basis and, unfortunately, 
that requires some very difficult decisions to be made.
    I certainly agree with you, there is nothing inherently 
wrong with Coastal Zone Management, it is not a criticism of 
the functions that they had performed, but you have to cut 
somewhere and it seemed to us to be something of a lower 
priority than the core functions of NOAA such as the surveys, 
the charting, and the fisheries management activities that they 
have. So it was a question of trying to rank priorities rather 
than any editorial comment against Coastal Zone Management.
    Mr. Kilmer. I would just mention, I think the Defense 
Department does a stupendous job of keeping us safe, but so do 
programs like this; they keep coastal communities safer.
    Thank you, Mr. Chairman.

                            NOAA SATELLITES

    Mr. Culberson. Thank you. I know we do record--you know, 
the deficit is at tremendous levels, the military really does 
need to be shored up. I have heard, you probably heard the 
numbers, about the Marine aviation. Marine airplanes cannot be 
flown because of inadequate spare parts, about half of the 
Navy's planes are having difficulty staying in the air because 
of a lack of spare parts. We really do have a critical problem 
with the Nation's military at a time of a crushing national 
debt that we just can't pass on to our kids.
    So it is going to be a really difficult budget year for all 
of us. We are going to have to really work hard to be sure that 
our constituents' very scarce and hard-earned tax dollars are 
wisely spent and targeted. With your experience in banking and 
equity, we look to your guidance on how we can shift minority 
business, small business, and coastal community programs we see 
laid out in the President's budget, over to the private sector.
    An area that is also of concern, in terms of managing 
precious and scarce hard-earned tax dollars, is in NOAA's 
weather satellites. NOAA's three biggest weather satellite 
programs are slated to cost nearly $30 billion over the next 15 
years. They are absolutely essential to the Nation's economy, 
to protecting lives, to ensure that we can accurately forecast 
the weather, but this $30 billion price tag is quite frankly 
going to put intense pressure on the rest of the department's 
budget.
    As we move forward, Mr. Secretary, what options are you 
examining to reduce the cost of the weather satellite program 
while maintaining accurate and reliable forecasts?
    Secretary Ross. Well, clearly the number-one purpose is the 
accuracy and the reliability of the forecasts. So we don't want 
to compromise those activities at all.
    One of the things we are looking into is NOAA has done a 
good thing buying in bulk and getting some savings in the cost 
of satellites. Satellite is not like Navy fighter planes or Air 
Force planes where it is a big, long program that is going to 
go many, many years. These are pretty much a custom designed, 
very limited market, and they have found that by bunching 
together a couple of purchases they get a much cheaper price 
than they would have to pay if they just ordered one and then a 
couple years from now ordered another one, and their statistics 
on that are pretty compelling.
    So even though it seems strange to order a thing years 
before you will actually need to use it, they make a very good 
case that that actually does save, because the amortization of 
the special designs now goes over more than one unit rather 
than just have to be recovered in one single unit.
    What we are discussing with them, though, is what are the 
implications of the fact that the satellite lives now appear to 
be about six years longer than had previously been forecast, 
but what are the implications that that has for how much 
duplication do you really need, how much overlap do you really 
need. And we are trying to get our arms around that so that we 
can get a more precise thing.
    So it is good news that the lives are proving to be longer, 
because even if nothing else changes that will mean a longer 
period when we are safe, we are going to have proper forecasts. 
But they are on schedule for the September, 2017 launch, that 
is going to happen, and they appear to be within their budget 
for that one.
    Currently there doesn't seem to be a big economic overrun. 
The latter satellite is being postponed to 2023, so there is a 
little gap there. But I do think that they have done a pretty 
good job figuring out in what unit increments to make the 
orders so that they do minimize the price.
    You also, of course, have to be aware that there is a need 
for some redundancy, because there is always the danger of a 
catastrophic failure and while that may only be a one or two 
percent probability, if it happens then it is a hundred percent 
probability. So that is a tricky thing for them to balance and 
so far it feels as though they are doing a pretty good job of 
it.
    Mr. Culberson. And since the GEO satellites are lasting 
longer, should we slow the pace of buying more GEO satellites 
if the existing ones are lasting longer?
    Secretary Ross. Well, that is exactly the question I was 
just raising. That is something we are exploring with them, but 
there still is the danger of the catastrophic failure. There is 
also the danger of a launch failing. Now, they have not really 
had that, but as you have seen some of the private sector, 
SpaceX for instance, have had some severe problems with 
launches.
    So it is a very complicated question and my work so far 
with them has suggested they are doing a pretty good job 
balancing all of these variables.

                  MINORITY BUSINESS DEVELOPMENT AGENCY

    Mr. Culberson. Thank you, Mr. Secretary.
    Mr. Serrano.
    Mr. Serrano. Thank you. To follow up on these questions, 
Mr. Secretary.
    As you know, the Minority Business Development Agency was 
established by a Republican president, President Richard Nixon. 
This agency received 34 million dollars in the final fiscal 
year 2017 Appropriations Act. This is a successful program with 
locations around the Nation, including in my district, yet the 
administration seems intent upon destroying it.
    In his signing statement on the Appropriations Act that we 
just concluded, President Trump asserted that the provisions of 
this agency's appropriations would be treated, quote, ``in a 
manner consistent with the requirement to afford equal 
protection of the laws under the due process clause of the 
Constitution's fifth amendment,'' unquote.
    Would you please explain this? In what ways will the 
Department depart from the approach of previous administrations 
of both parties as far as implementation of the funding for the 
development agency? And secondly, did the White House or OMB 
officials consult with you in advance about the President's 
signing statement?
    Secretary Ross. As I said, it is not meant to be an 
editorial comment on the quality of the agency or the 
performance that it has had over the years. It simply is a 
question there is a limited amount of funding, very, very 
difficult decisions had to be made, very uncomfortable 
decisions. And we had to cut somewhere and this seemed to be 
something that did not destroy the fundamental missions of the 
Commerce Department.
    In an ideal world, we certainly would have preferred to 
keep it going, but we are in a stringent budget period.
    Mr. Serrano. I am aware of that, Mr. Secretary, but my 
question further is, if you agree that in an ideal world we 
could keep it going, then what harm could it cause once we 
remove it, you know?
    Secretary Ross. What harm could it cause once we remove it?
    Mr. Serrano. When we remove it, you said that you don't see 
that it is a--it sounded to me like you say it is not that 
important to the ongoing operation of the Commerce Department, 
but yet it has value and a lot of people----
    Secretary Ross. It does have value, there is no question 
about that. But what we are trying to do is to improve the 
whole economy for everyone and by reducing taxes, curtailing 
inappropriate imports, unleashing the energy, all those 
measures are designed to make the economy better for everyone.
    So what we are trying to do on a macro scale is make less 
the necessary functions on a micro scale to help things. If the 
economy gets stronger overall, businesses will thrive.

                                 CENSUS

    Mr. Serrano. Let me move on to another area, Mr. Secretary.
    Again, we go to the census. The budget requests to save 
money, proposes to save money, by scaling back several of the 
Census Bureau's most widely used surveys. For example, the 
budget would reduce the sample size of the Survey of Income and 
Program Participation, or SIPP.
    Now, the census collects a lot of information that a lot of 
Americans I think look at and say why did we ask that question, 
and yet it really is necessary because it speaks to who we are 
as a Nation, what we are as a Nation, what we have, what we 
don't have. You know, when we say the average American has, 
whatever, three television sets or so on, that wasn't just made 
up, you know, there are people who work at that.
    Why get rid of that or scale back the SIPP part of the 
form? Of the study, if you will.
    Secretary Ross. Well, the census, are you addressing the 
issue of the content of census?
    Mr. Serrano. Yes.
    Secretary Ross. It is my understanding that there was a 
hearing in the Congress, a different committee from this one on 
content, and that the final content of the census will be 
determined by next spring. I don't believe there has been a 
final determination as to what will be the content of the 
items, the questions asked.
    What complicates it, though, is that the more questions you 
ask and the more subcategories within those questions the lower 
the response rate tends to be, because people don't want to put 
an infinite amount of time to dealing with the census 
questions. So there is a balancing attempted between having 
maximum content and getting maximum response, because we are 
clearly better off to the degree we can get actual responses 
rather than interpolated or estimated responses.
    So it is also a balancing act between a response percentage 
and content.
    Mr. Serrano. I would just close this question by saying 
that I hope as a person of your background you keep an eye on 
this, because this is more important than we think. This gives 
us or I have been told by Census Directors before it gives us 
indications on economic trends and on situations that we need 
to know also.
    Secretary Ross. True.
    Mr. Serrano. As you know, I am sure you know, we work a lot 
with census information to make decisions. The best decision, I 
think, or the worst is that is how they redraw our districts, 
but we are not going to discuss that painful one right now. 
[Laughter.]
    Secretary Ross. Well, over the years I have been a very big 
consumer of data put out by the census, so I have a great deal 
of respect for it. I am very happy that they have done a lot of 
things to improve the accuracy of the preliminary forecasts 
versus the revised ones, because the preliminary forecasts are 
getting better and better as they find more and more reliable 
data sources on a timely basis.
    So I have a very keen appreciation of the importance of the 
census data and I think they are the gold standard in the world 
for accuracy and for the breadth of content that they provide. 
I don't believe there is another country that does the census 
at all as well as we do either in terms of breadth of content 
or accuracy.

                  THE DEPARTMENT OF COMMERCE AND CUBA

    Mr. Serrano. One last question, Mr. Secretary.
    I have spent a lot of time in my 27 years here talking 
about a new relationship with Cuba, and we do have a new 
relationship, but it is not on the front page anymore, so a lot 
of people are wondering what that relationship is. Is the 
Commerce Department involved in any way in opening up Cuba and 
opening up the U.S. to Cuba in a way that we didn't do before?
    Secretary Ross. Well, as I understand it, so far there have 
been a number of hotel chains from the U.S. that have made 
arrangements to operate facilities in Cuba and that is probably 
one of the best things for that economy in that it used to be a 
very big tourist economy, and then obviously that changed quite 
considerably during the difficult periods.
    So I think that has been the number-one initiative so far 
is the tourism initiative. And there has been consultation 
between the travel industry and parts of Commerce on a very, 
very active basis. That is the main thing of which I am aware 
at this point.
    Mr. Serrano. Thank you, Mr. Secretary.
    Mr. Culberson. Thank you, Mr. Serrano.
    Mr. Cartwright.

                      NOAA--NATIONAL WEATHER MODEL

    Mr. Cartwright. Thank you, Mr. Chairman.
    Secretary Ross, while the administration's general position 
on the cause of our changing climate flies in the face of 
science, we can agree that the Earth is warming and extreme 
weather events are occurring with more frequency. 2016 was the 
warmest year on record and out of the last 17 years fully 16 of 
them have been the warmest on record to date.
    Now, specific to your mission, sir, new scientific analyses 
find that the Earth's oceans are rising nearly three times as 
fast as they did during the 20th Century. Sea level is not only 
real and an imminent threat, but it is accelerating.
    NOAA, the National Oceanic and Atmospheric Administration, 
has been gathering and analyzing climate and weather data since 
1970. I appreciate that during your confirmation hearing you 
said in regard to climate science that science should be left 
to the scientists, I can't tell you how much I appreciated 
hearing that. But the administration's budget proposal 
significantly decreases the funding that allows these 
scientists to do their essential work. You can't leave the work 
to the scientists, but not give them the resources they need to 
do that work.
    My first question relates to the administration's call for 
a 52-percent decrease in funding for its National Water Model, 
NWM. The NWM has proven significantly to improve flood 
forecasting. Now, with heavy downpours increasing across the 
Nation, the need for accurate and timely flood forecasting is 
more important than ever. Why does the budget proposal reduce 
flood forecasting, which can help save lives and money, 
Secretary?
    Secretary Ross. Well, you are right that the National Water 
Model has been reduced. Fiscal year 2017 was at $6 million, 
fiscal year 2018 it was planned to be at $2.9 million. And the 
Regional Climate Center, fiscal year 2017, $3.65 million; 
fiscal year 2018, $650,000. These are level-of-effort 
activities. No centers are being closed. It was an 
affordability decision, not a policy decision.

                     NOAA--REGIONAL CLIMATE CENTERS

    Mr. Cartwright. You anticipated my next question, which is 
the RCCs, the Regional Climate Centers. Actually, the 
administration's budget request is an 82-percent cut to the 
RCCs.
    Now, these have been around for more than 30 years, helping 
local communities on the ground work with National Centers for 
Environmental Information's data records and apply them to 
solving many real-world problems posed by climate change. 
Businesses and farmers rely on this information, the RCC data; 
what are they going to do when you cut this funding? Your 
budget states that, quote, ``With this reduction, NOAA will 
rely on State and local service providers to cover the 
necessary services,'' unquote, and that is a phrase that has 
been in tone several times in today's hearing.
    My to question is, really? Who might it be that steps in 
and replaces this funding?
    Secretary Ross. Well, as I indicated, no centers are being 
closed. So there is no region that will be left without a 
center, it is just the level of activity will be diminished 
somewhat. And within the levels of activity, they will try to 
prioritize the ones that are the most crucial.
    Mr. Cartwright. Well, if the implication is we are going to 
push it off on the states, states have a State climatologist 
who generally has a very limited budget, and these State 
climatologists typically share and receive information with the 
RCC----
    Secretary Ross. Right
    Mr. Cartwright [continuing]. Especially for regional 
concerns that affect larger tracts of geography than just one 
State.
    So again, who are these State and local service providers 
who can apparently fill the funding gap that you are creating?
    Secretary Ross. I don't know that they will be able to fill 
the funding gap, but all that is happening is there is a little 
lower level of activity in each of these regions, no center is 
being closed. So the level of activity will go down, will go 
down considerably, but no one will be left without a center.
    Mr. Cartwright. And I take it that the overall answer 
comports with what you have been saying today, that the big 
reason for all of these cuts is that we must cut.
    Secretary Ross. Yes, sir. Yes, sir. We are in a very 
stringent period and with the big increases in defense and 
military and national security, cuts have to be made somewhere.
    Mr. Cartwright. I yield back, Mr. Chairman.
    Mr. Culberson. Thank you, Mr. Cartwright.
    We are indeed in an era of $20 trillion in debt and 
extraordinary annual deficits. We have to find areas where we 
can save money. I would welcome your suggestions where else we 
might find savings within our summary judgment, and I 
appreciate very much your work in that area.
    Mr. Serrano. Not in the Commerce Department. [Laughter.]
    Mr. Culberson. There is undoubtedly somewhere we can save 
some money within the Department of Commerce.
    Mr. Secretary, I really appreciate your service. I have got 
a number of other questions that I will submit for the record 
for you to answer in writing.
    Secretary Ross. Surely.
    Mr. Culberson. We will submit those to you for your 
response at a later time.
    Above all, I want to thank you for your service to your 
country and for your time here today. We look forward to 
working with you to find savings to make sure we spend our 
constituents' very scarce and hard-earned tax dollars wisely 
and frugally.
    Secretary Ross. Well, thank you, Mr. Chairman. And thank 
you, ranking member and Members.
    Mr. Culberson. Thank you, Mr. Secretary. The hearing is 
adjourned.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                           Wednesday, June 7, 2017.

                      NATIONAL SCIENCE FOUNDATION

                                WITNESS

 FRANCE CORDOVA, DIRECTOR, NATIONAL SCIENCE FOUNDATION
    Mr. Culberson. The Commerce, Justice, and Science 
Appropriations Subcommittee will come to order. We are 
delighted to have with us this morning the Director of the 
National Science Foundation, Dr. France Cordova. We sincerely 
appreciate your service to the nation, Dr. Cordova. You have 
had a distinguished career both in government and academia. We 
share a common passion for astronomy and astrophysics. I know 
that is your area of specialty. I am looking forward to hearing 
you talk to us a little bit today about this most recent 
extraordinary detection of a third gravitational wave. That is 
right up your alley.
    We have on this subcommittee always enjoyed bipartisan 
support when it comes to investments in fundamental research at 
the National Science Foundation and NASA. Everyone on this 
subcommittee is here because we share a common passion for 
ensuring that the United States maintains the world's best 
space program and the world's best fundamental scientific 
research. When it comes to peer reviewed scientific research, 
the National Science Foundation does a superb job. And your 
budget is extraordinarily important as the National Science 
Foundation represents about 60 percent of the Federal 
Government's annual investment in basic research that is 
conducted at U.S. colleges and universities, not including the 
research that is done by the National Institutes of Health in 
the extraordinarily important work that they do in fighting 
cancer and other dreadful diseases.
    In many fields the National Science Foundation is the 
primary source of Federal academic support. May 2017, just this 
past month, marked the National Science Foundation's 67th 
anniversary, an extraordinarily important milestone. We are 
looking forward to more successful discoveries in the future 
when it comes to understanding the fundamental building blocks 
of the universe.
    In fiscal year 2018, the National Science Foundation is 
requesting $6.7 billion, which is a decrease of $819 million, 
or about 11 percent below the current fiscal year. We do not 
know yet what our subcommittee's allocation is going to be for 
2018. The budget process has unavoidably gotten off to a slower 
start than normal. But the committee is going to work arm in 
arm to ensure that NSF is appropriately funded and we preserve 
American leadership in scientific research.
    I would like to add that while we wholeheartedly support 
NSF's basic research in sciences, all of us are mindful of the 
fact that our constituents' tax dollars very scarce, very 
precious, and hard-earned. So we are counting on you to be good 
stewards of that precious resource.
    Before we proceed I would like to recognize the gentleman 
from New York, Mr. Serrano, for any remarks he would like to 
make.
    Mr. Serrano. Thank you, Mr. Chairman, and thank you, Ms. 
Cordova, for being with us today. It is good to have you with 
us today and as the chairman said, you have a distinguished 
career and much more to come.
    The National Science Foundation is vital in promoting basic 
research and education in science and engineering. In doing so, 
it is a major source of Federal support for U.S. university 
research in the STEM fields. NSF's investments in STEM 
education also help train the next generation of scientists and 
engineers. As you know, Dr. Cordova, I am a strong supporter of 
NSF and believe that its programs help our nation be the world 
leader in major discoveries, innovations, and scientific 
breakthroughs.
    The President's budget blueprint for fiscal year 2018 
requests $6.65 billion for NSF, which is an $822 million or 11 
percent decrease from 2017. It is the first time in the 67-year 
history of this agency that a President has proposed a budget 
below the previous fiscal year. The result is deeply troubling.
    Within the total the President's budget also proposes $5.63 
billion for the Research and Related Activities Account, which 
is a cut of $672 million, or 10.6 percent. This level of 
funding endangers the core missions at NSF. For example, if the 
requested amount is enacted into law the number of competitive 
awards for fiscal year 2018 would go down from 11,900 awards 
per year to 10,800, a reduction of more than 1,000 awards. In a 
given year NSF grants awards to over 1,800 colleges, 
universities, and other public and private institutions in 50 
states, the District of Columbia, and Puerto Rico. Cutting 
funding for NSF will leave many schools without much needed 
education and research funding. I strongly oppose this proposed 
budget cut.
    Another area cut by the President's request is the 
Educational and Human Resources Account, which is requested at 
$760.6 million. This represents a cut of $123.5 million or 14 
percent. The President's budget proposal accomplishes this by 
cutting initiatives that increase STEM participation, including 
programs that help underrepresented minorities. The request 
also cuts reducing the number of graduate research fellowships 
by 50 percent. No funding is requested at all for a program 
that I worked to authorize, the new Hispanic Serving 
Institutions Program.
    Mr. Chairman, I have been a strong support of Hispanic 
serving institutions and minority serving institutions since I 
arrived in Congress more than two decades ago. Last year 
Congress mandated the NSF establish a new HSI program and we 
appropriated $15 million in the fiscal year 2017 bill for this 
effort. Notwithstanding the clear evidence that HIS's need this 
funding, the budget proposal does not fund this program in 
fiscal year 2018. This negatively affects constituents, by the 
way, in both Republican and Democratic districts alike.
    Another issue of importance to me is the Arecibo 
Observatory in Puerto Rico. The President's budget for NSF in 
fiscal year 2018 proposes a total of $7.72 million for the 
observatory, which is a reduction of $480,000 from 2017. Due to 
the quality of work taking place at the Arecibo Observatory and 
the need for maintenance and repairs, I strongly oppose this 
proposed cut. I know the NSF is currently debating the future 
of the observatory. But I believe the Federal Government must 
maintain an adequate level of involvement and support for 
Arecibo.
    Overall the NSF's budget request for this year is an 
extreme example of the problems with the President's proposal 
to increase defense spending by $54 billion at the expense of 
domestic priorities. There is little justification for cutting 
vital agencies, like NSF, simply to fund a Defense Department 
already receiving more than half a trillion dollars each year.
    The discoveries attained by investing in NSF help our 
economy grow, sustain our economic competitiveness, and enable 
us to remain the world leader in innovation. I would note that 
countries like China are not cutting back on their involvement 
and investment in the sciences. And unless we shore up the 
NSF's ability to invest in research, our global leadership in a 
large number of scientific fields will be threatened. That is a 
serious national security threat. Unless we have the funding to 
promote our nation's values beyond defense, our leadership in 
the sciences is not the only thing that will be threatened.
    That you once again, Dr. Cordova, for being with us. And 
let me just tell you something. You are before a committee that 
is unique in one way. When it comes to this agency, the 
chairman and the ranking member agree totally. It is a great 
agency and it is one that should be funded properly. He has got 
his limitations with the budget. I have my bully pulpit. I am 
not chairman right now. I was, and then I had the problems with 
the budget. But rest assured that we have an interest that is 
not seen on many other committees where we agree on one agency 
as much as we agree on this one. Thank you. Thank you, Mr. 
Chairman.
    Mr. Culberson. You bet. And Mr. Serrano is exactly right. 
We are arm in arm. This whole subcommittee is arm in arm when 
it comes to our support for fundamental research, the 
spectacular work done by the National Science Foundation and 
NASA. We are all of us committed to preserving American 
leadership in fundamental research and in space exploration.
    I also want to express my agreement with Mr. Serrano when 
it comes to Arecibo. We have had previous budgets recommend 
cutting or reducing, even eliminating Arecibo and we have 
always stood behind it. It is a national strategic asset. It is 
a unique radio observatory that has unique capabilities that we 
simply cannot permit to fall by the wayside. I know you are 
looking at options about what to do about Arecibo in the 
future. But Arecibo and Green Bank in West Virginia, we 
strongly support the preservation of those vital facilities and 
frankly the expansion of the great work you are doing in 
astrophysics, whether it be in radio or visible light or in the 
area I am looking forward to hearing you talk about, the dawn 
of the era of gravitational wave astronomy. We are looking 
forward to hearing you talk about that this morning.
    We are delighted to have you with us today. We thank you 
for your service to the nation. Your written testimony will be 
entered into the record in its entirety, without objection. And 
at this time we would welcome your brief summary of your 
testimony. Thank you very much.

                      Statement of France Cordova

    Dr. Cordova. Thank you, Chairman Culberson, Ranking Member 
Serrano, and members of the subcommittee. I am very pleased to 
be here today to discuss the National Science Foundation's 
budget request for fiscal year 2018. And thank you both for 
your heartfelt remarks.
    NSF is the only Federal agency dedicated to the support of 
basic research and education across all fields of science and 
engineering. We support research that enhances our nation's 
security, drives the U.S. economy, and advances our knowledge 
to sustain America's technological leadership. And the results 
of that research enhance the lives of millions of Americans 
everyday.
    The President's NSF budget request for fiscal year 2018 is 
approximately $6.6 billion, a reduction of over 11 percent from 
the fiscal year 2017 appropriation.
    You already have my full written testimony so I would like 
to use this time to give some specific examples of how forward 
looking NSF investments are benefitting the American people.
    NSF has long been a leader in information technology 
research, funding foundational research in computer science, 
helping to launch the internet, supporting advances in high 
performance super computers, and investing in cyber security 
research and education. On the first page of your handout that 
is in front of you, it looks like this, you will see Dr. 
Rajkumar of Carnegie Mellon University loading software into an 
NSF funded self-driving automobile. This research builds on 
decades of NSF-funded research in precision sensors, computer 
vision, real time data analytics, and artificial intelligence 
or AI. Researchers estimate that driverless cars could reduce 
traffic fatalities by up to 90 percent by mid-century.
    NSF-funded AI research also has broad impacts for health. 
For example, page two of your handout shows Dr. Suchi Saria, 
Assistant Professor at Johns Hopkins, who recently developed an 
AI program integrating data from patient health records to 
identify factors capable of predicting septic shock. Septic 
shock is a rapid immune response to infection that can cause 
organ failure, leading to more than 200,000 U.S. deaths 
annually. Early symptoms are notoriously difficult to spot, but 
with Dr. Saria's combining and analyzing of numerous health 
factors her program can accurately predict septic shock 85 
percent of the time, often before organs are harmed. Imagine 
the impact this NSF funded tool will have on people's lives.
    These two examples from transportation and health of the 
power of artificial intelligence and machine learning to 
transform lives are at the heart of the shaping of the future 
at the human technology frontier, which is one of our ten big 
ideas.
    Similarly NSF's investment has led to breakthrough 
manufacturing technologies, as illustrated on page three of 
your handout. NSF provided critical early support for the 
techniques behind additive manufacturing, sometimes called 3-D 
printing, that were discovered and patented during the 1980s 
and today 3-D printing has become a $5 billion a year industry.
    In this image you see Harvard's Jennifer Lewis, who uses 
materials such as hydrogels, to create architectures that mimic 
those found in nature, such as bone and spider webs and 
vascular networks. Such advanced 3-D printing techniques 
suggest we may soon be able to grow organ replacements using a 
person's own tissue. Just imagine the lives that will be saved.
    Finally, as an astrophysicist myself I cannot resist citing 
NSF's pivotal role in advancing the era of multi-messenger 
astrophysics. It is already enhancing our understanding of the 
universe and revealing its mysteries and is another of NSF's 
ten big ideas. With ground-based telescopes and particle and 
gravitational wave observatories in the U.S. and abroad, we are 
hopeful that some of the biggest discoveries are in reach, 
unveiling for example the nature of dark energy and dark 
matter.
    Because of the ingenuity of inventors and dreamers such as 
MIT researcher Nergis Mavalvala, who is shown on page four of 
your handout, we increasingly have the capabilities to address 
these profound mysteries. The NSF-funded LIGO facilities 
detected gravitational waves, which are ripples in the fabric 
of space time, for the first time in 2015. And just last week, 
as the chairman referenced, they made a third detection of 
gravitational waves, this time from a binary black hole source 
about three billion light years away. Without NSF's consistent 
funding over the past four decades, we would not have been able 
to make these kinds of discoveries. It is important to note 
that these types of projects are made possible because of our 
country's unique ability to perform complex systems 
engineering, integrating the talents of scientists and 
engineers who work together to achieve such results.
    Mr. Chairman and members, these are only a few of the 
thousands of trail-blazing awards that NSF funds every year. On 
behalf of those talented scientists and engineers and the 
employees of the National Science Foundation, I would like to 
thank this subcommittee for its longstanding support of our 
agency and our continued goal to keep our nation at the very 
forefront of the global science and engineering enterprise.
    And I would like to acknowledge the presence of the 
National Science Board Chair Maria Zuber and Vice Chair Diane 
Souvaine in the audience, and I am open to your questions. 
Thank you.

          LASER INTERFEROMETER GRAVITATIONAL WAVE OBSERVATORY

    Mr. Culberson. Thank you, Dr. Cordova. We wanted to ask 
about the black hole merger and the gravitational waves. It is 
a great illustration and, if you could, I would ask you to 
expand a little bit on the importance of the Congress providing 
sufficient funding to NSF over a sustained period of time for 
projects that might not immediately appear to have benefit or 
gain. The LIGO detection, if you could talk to us about the 
investment made and what the hope was. Christmas Day of 2015 
was the first detection of a gravitational wave and the 
discovery that was just announced last week is the third 
detection. How long was the Congress' investment in the Laser 
Interferometer Gravitational Wave Observatory? And what sum of 
money was involved? And what significance does that hold for 
the future, this discovery?
    Dr. Cordova. Well thank you, Mr. Chairman. The NSF has been 
investing in gravitational wave observing and its potential, 
for four decades. Since the early nineties we have been funding 
this particular experiment and more recently an advanced 
version of it. But integrated over those four decades we have 
put in $1.1 billion. And significantly our international 
partners, and there are 14 other countries that participate 
with us in the LIGO consortium, have put in $400 million. So 
about $1.5 billion has been invested over a very long period of 
time.
    Much of that money, of course, has gone to observers and 
students, post-docs, all through that time. And in developing 
the technology, which as you know this was a huge achievement 
that Einstein himself when he predicted it now over 100 years 
ago never thought would be realized because the sensitivity 
level that needed to be achieved was so very, very great. And 
he could not envision the kind of technology that would need to 
be developed to actually detect a gravitational wave. But the 
scientists and engineers working together did achieve that.
    It was a slow progression over a couple of decades to 
finally get the LIGO facilities to be at the right sensitivity 
to detect just in time a huge event that happened a billion and 
a half years ago and then was detected during the first 
actually engineering run of the LIGO observatory in September 
of 2015. And then to detect on January 4th the third detection 
that happened three billion years ago. So we are ready now to 
observe events that happened billions of years ago.
    And the other thing, Mr. Chairman and members, that is so 
very important about this result, it is not only about 
achieving an amazing goal and over a long period of time which 
only the Federal Government can invest in. It is not only about 
building the kinds of technologies that will have huge spin 
offs because these are very, if you could look inside the LIGO 
tubes, the 4-kilometer-long tubes, and see the sophistication 
of the instrumentation and all that that has entailed over 
decades to build that and appreciate how impactful those can be 
in other regimes. But it is also about how we actually 
identified what those sources of gravitational waves were. They 
turned out to be something that was totally unexpected.
    And that is the whole business of opening up a new window 
on the universe, it is that you might just see something that 
you never realized was there before. And in this case, with all 
three LIGO detections, they are due to binary black holes, 
which are large in mass, on the order of 20 to 30 solar masses, 
each component of the black hole. Because they are orbiting 
each other they are losing angular momentum and eventually they 
fall into each other and form a single black hole. And when 
they do that they lose a lot of energy. In the most recent case 
two solar masses worth; in the first case three solar masses 
worth. And that is a tremendous amount of energy we cannot even 
envision. More than the whole universe is putting out is 
integrated in one instant of time, in just a fraction of a 
second. And so finding a whole new population of astrophysical 
phenomena and then thinking about what that could mean for the 
evolution of the universe is also another tremendous aspect of 
these discoveries.
    Mr. Culberson. The first astronomers were using visible 
light, obviously their eyes, and then telescopes----
    Dr. Cordova. Right.
    Mr. Culberson [continuing]. Unaware of any electromagnetic 
radiation outside the visible spectrum. Then we moved into the 
era of course of radio, infrared astronomy----
    Dr. Cordova. Mm-hmm.
    Mr. Culberson [continuing]. Ultraviolet astronomy----
    Dr. Cordova. Mm-hmm.
    Mr. Culberson [continuing]. X-ray astronomy. Talk about the 
meaning of this new era that we are entering into, the era of 
gravitational wave astronomy and what it is when you say that 
the holes merged, very quickly, is a very rapid event.
    Dr. Cordova. Yes.
    Mr. Culberson. The merger of these holes. This----
    Voice. This is the long one. And this is the shorter one. 
And now for the increased pitch.
    Mr. Culberson. That is the first one.
    Dr. Cordova. That is the sound of the universe, yes. That 
is great. So you have your chirps on your cell phone.
    Mr. Culberson. Extraordinary. Talk to us about----
    Dr. Cordova. Are you going to make this your ring tone?
    Mr. Culberson. Yeah.
    Mr. Culberson. Talk to us about the significance of what we 
are hearing. We are seeing a very narrow band of----
    Dr. Cordova. Listening to the universe now, which is just 
great. As you pointed out, Mr. Chairman, we first were 
investigating the universe through electromagnetic means, all 
the way from the radio to the x-ray and gamma ray parts of the 
electromagnetic spectrum. And then we built particle detectors, 
like the great detector that NSF is involved in at CERN, and 
the neutrino detectors. We have one called Ice Cube at the 
South Pole so we can also look at the universe and the high 
energy particles that come from exotic sources. And now we have 
opened up a third window, the gravitational window. And as I 
said, we are observing new phenomena. And yes, you are 
absolutely correct. That just as the electromagnetic spectrum 
is very large, embraces a lot of frequencies or wavelengths, so 
does the gravitational spectrum. And with the particular 
configuration of the observatories that we have on Earth and 
their size, we can only observe a narrow portion of that 
spectrum. So who knows what could be observed, what kinds of 
phenomenon if we could build larger detectors? And those are 
certainly under conception in space to observe other parts of 
the frequency spectrum. And on the ground in explorations at 
the South Pole we are re-upping and improving the cosmic 
microwave background detectors so that they can go after 
identifying what is called the B polarization or polarization 
from the gravity waves embedded in the microwave background. So 
that is looking back to the big bang.
    So yes, there is a huge amount of spectrum in gravitational 
waves alone to examine through various means.
    Mr. Culberson. Well I thank the members for allowing me a 
little extra time. But the significance of this discovery I do 
not think can be overstated. And how vital it is for the 
Congress, for the country, to stand behind NSF and make sure 
that you have got the support, the financial backing over a 
sustained period of time to continue to unlock the mysteries of 
the universe. Because the universe is always more extraordinary 
than we can even imagine. Thank you very much. Mr. Serrano.

                       IMPACTS OF REDUCED FUNDING

    Mr. Serrano. Thank you, Mr. Chairman. Fascinating. Now when 
you get a call it will be the universe calling you. The budget 
request, Dr. Cordova, we have before us is the deepest cut in 
NSF history. According to Science Magazine, prior to this year 
no President, as I said, had ever proposed cutting NSF below 
its previous year level. Beyond the numbers in terms of 
dollars, how far does this cut in funding set us back? Can you 
give us an idea of how many fewer grants will be funded and 
graduate students trained? Do we endanger our global leadership 
in the sciences at this level?
    Dr. Cordova. The reduced funding, Congressman Serrano, will 
of course have an effect because fewer researchers, including 
students, will receive grants. We estimate that we, with this 
budget, would have the wherewithal to fund approximately 8,000 
grants whereas in our current 2017 budget we can fund 11 or 12 
percent more than that. And the public also will have less 
benefit from the Federal investment in science.
    That said, the current budget still has considerable 
resources and we will do our best to select excellent science 
to fund using input from the National Academy of Sciences, 
among others, and relying on the efficacy of our merit review 
process.
    We are used to making difficult choices. Even in the 
current year we are leaving up to $4 billion worth of 
excellently funded proposals on the cutting room floor that we 
simply do not have the funding to make and the fiscal year 2018 
budget makes our choices harder. We would see a lower funding 
rate, with perhaps $5 billion of excellent proposals unfunded.
    Mr. Serrano. Mm-hmm. Let me ask you a question that is on 
the mind of some people as we look at the 2017 budget. The 
budget you have proposed for NSF is frankly quite bleak. I 
along with several of my colleagues here on the subcommittee, I 
imagine, are interested in making sure that we do not see a cut 
like this to your budget. After all, it is the Congress who has 
the final say in funding matters. With that in mind, I am 
concerned that the NSF may be taking steps to begin reductions 
now that have been proposed in fiscal year 2018 but not 
enacted. Can you assure me that fiscal year 2017 funding, which 
we just completed recently, will not be held back in 
anticipation of a cut that may or may not come in the future?
    Dr. Cordova. I can assure you that we are not holding back. 
Our fiscal year 2017 budget was a robust budget for fundamental 
science and we are not anticipating what the 2018 budget looks 
like. We very much understand that Congress is in the driver's 
seat on the fiscal year 2018 budget.
    Mr. Serrano. So we should have no fear that 2017 will be 
used to cover for 2018 at this point?
    Dr. Cordova. I can assure you that we are not using 2017 to 
cover for 2018 and we are letting Congress make the decisions 
about the 2018 budget of course.
    Mr. Serrano. All right. Let me ask you something about the 
grants. You spoke about the reduction that this budget would 
reduce or would bring about. Are we seeing an increase in 
requests for grants? Or has it leveled off?
    Dr. Cordova. We get around 50,000 proposals a year and that 
number, we are anticipating it could go a little higher, just 
depending on the situation with all agencies. There are some 
principal investigators that apply to multiple agencies for 
their funding. But it is hard to anticipate until we actually 
see a budget to estimate how many people will apply for grants.
    I do know that from going around to universities, I was 
just at a university yesterday talking with a lot of their 
faculty, that the funding climate can actually discourage 
people from applying for grants. So we do not really understand 
the full consequences of whether we will get more or fewer 
grant proposals right now. But 50,000 is a lot of grants to 
manage and we do that well, I think.
    Mr. Serrano. All right. Mr. Chairman, I am at three. So 
thank you.
    Mr. Culberson. Thank you, Mr. Serrano. Mr. Jenkins.

                         GREEN BANK OBSERVATORY

    Mr. Jenkins. Thank you, Mr. Chairman. Director Cordova, 
wonderful to see you. Thank you for our good working 
relationship over these last couple of years and I enjoyed our 
phone conversation yesterday. I am glad you made it back 
safely.
    Mr. Chairman, thank you so much for this opportunity. And 
Director, you and I have had multiple discussions about an 
asset in my district, Green Bank Observatory, a world class 
radio observatory. You have mentioned, and the chairman has 
mentioned, radio astronomy several times. So thank you for your 
commitment to that. Over these number of years it has received 
steadfast support from NSF, literally for decades and I 
appreciate that very much. I do believe it is a key resource 
for radio astronomy and does contribute significant 
groundbreaking exploration. And in your testimony you mentioned 
the important aspects of NSF, such as maintaining global 
leadership in science and in investing in STEM fields. And I 
firmly believe, and I think we all would agree, that Green Bank 
does both.
    It gives students hands on experience in STEM at literally 
every level. And two of the most compelling stories that I have 
heard over the last couple of years serving in Congress 
representing this wonderful asset is some of the work that 
Green Bank's education programs have been doing from students 
literally from around the world who pursue STEM careers.
    What I would like to ask is while I see the budget, as we 
have talked about, does maintain and support the GBO, the Green 
Bank Observatory, at level funding for next year, it has been 
suggested that potentially in the future NSF plans to divest. 
Can you share with me what the steps of NSF is at this point 
vis-a-vis this next year and the potential for divestment 
moving forward, which concerns me greatly?
    Dr. Cordova. So Green Bank is one of the observatories that 
the National Academy of Sciences, at the beginning of this 
decade in its decadal report, suggested that in order to do new 
things, at what was at the time looking at a flat budget 
scenario, we would have to consider divesting ourselves of some 
assets. And so a couple of years later, namely in 2012, a 
portfolio review committee, gathered of astronomers nationwide, 
recommended that NSF divest itself of the Green Bank telescope, 
among others.
    And so since that time, and that has been reaffirmed in a 
mid-decadal review as well, that is not saying that it is not 
doing wonderful science. It is only in order to do new things 
in a constrained budget that we have to let go of some of the 
things that we have been doing for a longer time.
    So right now we have undergoing an environmental impact 
study on all of the potential divestments, and the results from 
the Green Bank environmental impact study that we'll present to 
the National Science Foundation with options for divestment. 
Those results should be in by the beginning of the next 
calendar year, early 2018. We do expect a draft report of the 
environmental impact study in late August or early September 
and there will be a 45-day comment period for that.
    As you also pointed out in fiscal year 2018 our budget for 
GBO is approximately the same, even a little bit more, than our 
fiscal year 2017 estimated budget and that assumes that the 
ongoing partnerships continue, like the partnership with the 
Breakthrough Prize Foundation.
    Mr. Jenkins. In my 30 seconds I have left let me summarize 
and make sure I understand. Based on the fiscal year 2017 that 
we are in, based on the fiscal year 2018 that is before us, we 
should be safe and sound for the fiscal year 2018 period. We 
have the EIS study scheduled out early next year, but a draft 
with public comment may be in the coming months of this year. 
We have got some hurdles but at least at this point in time 
with the budget that is before us we should be good for the 
next year and we will address the issues moving forward after 
that.
    Dr. Cordova. That is right, Congressman. And I think you 
also know that NSF is working with others to see what other 
possibilities there are.
    Mr. Jenkins. Yes. Thank you, Mr. Chairman.
    Mr. Culberson. Thank you, Mr. Jenkins. I recognize Mr. 
Kilmer.

                             CYBERSECURITY

    Mr. Kilmer. Thank you, Mr. Chairman, and thanks for being 
with us. You know, you touched on it in your opening remarks: 
the work NSF does around cybersecurity. Your organization has 
helped advance our cybersecurity efforts and has provided 
awards to outstanding schools like Tacoma Community College--in 
my district--that train the next generation of cybersecurity 
workforce and actually conduct research in this space.
    I am concerned about the level of budget cut and what that 
would mean in terms of NSF's role in regard to our 
cybersecurity as a nation writ large. To what degree has the 
administration reviewed the additional risk to local, state, 
and our federal government, not to mention private industry, if 
we invest substantially less in cybersecurity?
    Dr. Cordova. All I can talk about is what NSF is trying to 
do, realizing how important cybersecurity is. I think you know 
we have a big investment in CyberCorps: Scholarships for 
Service, which aims to develop just what you are talking about, 
a well-educated cybersecurity workforce. And we also have a 
number of other programs like our Advanced Technical Education 
program for community colleges to develop the technical 
workforce.
    I think absolutely we understand at the agency that 
cybersecurity is one of our biggest challenges going forward. 
There is enormous interest on the part of universities to 
provide curricula. I was, as I said, at a university yesterday 
which has developed along with many others a curriculum for 
involving their students in learning more about computer 
science so they can produce the cybersecurity workforce for the 
future. Our Social and Behavioral Sciences Directorate is very, 
very involved with our Computer and Information Science and 
Engineering Directorate in encouraging interdisciplinary 
collaborations of researchers to understand the behavioral 
practices that are also involved in conjunction with computer 
practices to provide for a cyber secure world.
    Mr. Kilmer. Do you think that that progress is going to be 
eroded based on the cuts that the NSF faces?
    Dr. Cordova. Well, as I said, the reduced funding does 
present challenges and we have had to make a number of tough 
choices in our budget. And there will be impacts from reduced 
funding, yes.

                 GEO SCIENCE AND EARTH SCIENCE RESEARCH

    Mr. Kilmer. Let me switch gears and ask about geoscience. 
Some folks may have read the article about the really big one 
that could hit on the Cascadia subduction zone, and the impacts 
that that would have on the West Coast of the United States. We 
know a lot about the Cascadia subduction zone but there is a 
bunch that we do not know. That is why the NSF funding grants, 
like the M9 grant awarded to the University of Washington four 
years ago, is so vital.
    We have heard arguments made that geoscience and earth 
science research could be funded by other agencies, like NOAA. 
Unfortunately, within NOAA, the office that is responsible for 
the bulk of that extramural research is also slated for a cut 
of more than 30 percent. NASA Earth science is slated for a cut 
as well. So my question to you is this: If NSF is cutting back 
in geosciences, and NOAA and NASA are cutting back on research 
in related fields, who is going to do this?
    Dr. Cordova. We are, as you said, one of the major agencies 
that is involved in the geosciences and our work that we do, 
often in conjunction with those other agencies, is extremely 
important. And I think your question is probably a rhetorical 
question?
    Mr. Kilmer. Actually it is not. I actually am curious. Who 
is going to do the work? I mean, if the funding is being cut by 
everyone, who is doing this work, and where is it going to 
happen?
    Dr. Cordova. Well there will be less wherewithal in order 
to do that important work. We will continue to do the best we 
can with the budget that we have and subject it to the best 
merit review processes. And we think that that work is very, 
very important.
    Mr. Kilmer. I do, too. I yield back. Thank you.
    Mr. Culberson. Mr. Kilmer served in the State Senate, I 
believe, in Washington State. They are very familiar, very 
familiar with the coastline there, the geology of the area. Is 
it my memory there was a tremendous tsunami in the 1600s, they 
found evidence? What was the size of that tsunami? And what 
effect would that, what kind of an earthquake caused that 
tsunami, and what would be the effect today, Mr. Kilmer, if you 
have a similar earthquake and a tsunami of a similar size?
    Mr. Kilmer. I wish I had a science degree like Dr. Cordova. 
But the potential, you know, in the article that came out last 
year I think was definitely not night reading because it 
suggests that there would be massive devastation. The potential 
for an earthquake at the Cascadia subduction zone could trigger 
a very significant tsunami. And that is why I think this 
research is so important.
    Mr. Culberson. Yes, I would certainly agree. Thank you. 
Thank you very much.
    Mr. Kilmer. Thanks.
    Mr. Culberson. Mr. Palazzo.

                        BROADENING PARTICIPATION

    Mr. Palazzo. Well, thank you, Mr. Chairman, and thank you, 
Director Cordova, for being here today. I echo the comments 
from my colleagues on the important work the National Science 
Foundation is doing across the board. Earlier this year I 
cosponsored the Inspire Women Act, which was a bill that 
directs NASA to encourage women to study science, technology, 
engineering, and mathematics and to pursue STEM careers, 
especially aerospace. That bill passed the House alongside the 
Promoting Women in Entrepreneurship Act, which authorizes NSF 
to support STEM entrepreneurial programs aimed at women. As you 
know, these two bills were among the very first signed into law 
by President Trump.
    I have long been a supporter of STEM programs, especially 
those geared towards women, not only because I had the 
privilege of serving as the Chairman for the Space Subcommittee 
for five years but also because I have a teenaged daughter at 
home that I hope pursues a STEM field as a career one day.
    Your budget proposes calls for providing opportunities and 
support for those pursuing STEM programs and it aims to produce 
measurable, sustainable progress geared towards diversity and 
inclusion. What is your plan on providing these opportunities, 
especially as it relates to the Inspire Act and Promoting Women 
in Entrepreneurship Act? And how do you plan on measuring 
diversity in STEM programs?
    Dr. Cordova. The National Science Foundation is very 
committed to broadening the participation of women and 
minorities in STEM. And we have had a lot of programs over time 
in order to further those goals. One particular one is the 
ADVANCE Program, for advancing women faculty at universities. I 
in fact was a PI on that when I was at Purdue University. We 
have more recently an INCLUDES Program and we are currently 
funding 40 pilot programs around the United States in order to 
encourage women and minorities, everyone really, to have more 
access to STEM careers. And some of these programs are for K 
through 12, others are for other age groups, and many different 
disciplines are involved. There is much diversity in the kinds 
of programs that are being piloted around the country.
    All of them have the goal of broadening participation, 
broadening access to STEM. It is hard to be a STEM entrepreneur 
without first being STEM literate and then being involved in 
research and then being inspired to go on and start to be an 
entrepreneur perhaps in a startup company. And so those pilot 
programs are going on. INCLUDES is one of our ten big ideas. 
And they are showing tremendous promise. We will be funding 
more of those proposals in the fiscal year 2018 budget. We will 
be forming alliances of groups, because what we really want to 
do is to scale up this effort so that it connects the whole 
United States in an effort to make progress in this area. And 
then more particularly in our SBIR programs, our Small Business 
Innovative Research programs, where women can actually, can be 
encouraged and funded to start their own business, we are 
upping our efforts to reach out to potential prospects and to 
encourage a larger number of women to want to start their own 
companies.
    Mr. Palazzo. Well thank you, Director Cordova. And I think 
promoting women in STEM careers and fields and education is a 
sound Federal investment. I think you make an outstanding role 
model for inspiring young women to pursue STEM careers as well. 
So thank you. I yield back.
    Dr. Cordova. Thank you.
    Mr. Culberson. Thank you, Mr. Palazzo. Mr. Cartwright.

                       IMPACTS OF REDUCED FUNDING

    Mr. Cartwright. Thank you, Mr. Chairman. Dr. Cordova, thank 
you for joining us this morning. And I congratulate you on a 
stunning career and I wish you all the best in the future.
    I am not the first one to say it. The Chairman has said it. 
My ranking member has said it. This is the first time in the 
history of the NSF that we are talking about reducing the 
budget, 11 percent lower than the previous year. I will cut to 
the chase, that was not your idea, was it?
    Dr. Cordova. The NSF is an executive branch agency of the 
administration. This is the President's budget.
    Mr. Cartwright. OK. Well NSF of course is wholeheartedly 
and full throatedly supported by both sides of the aisle here 
in Congress. It is credited with unimaginable discoveries that 
have increased social welfare and long term economic benefits. 
American Sign Language, facial recognition software, fiber 
optics, and the MRI all have roots from NSF funding to 
promising researchers at institutions like Penn State, where my 
district is in Pennsylvania. You know this all too well having 
worked there yourself. Institutions will be gravely damaged by 
this budget.
    I want to focus on climate change for a moment. Last week 
the President announced the U.S. withdrawal from the Paris 
Accord. Although unfortunate it was not unexpected from an 
administration that denies climate change and denies that human 
activity has an effect on as the primary cause of climate 
change. As the head of the Nation's premiere scientific agency, 
you must have a scientifically informed view on this issue.
    I am equally concerned that we might lose our best and 
brightest, our most talented researchers, to other nations 
because of these cuts. Just recently French President Emmanuel 
Macron actually invited American climate change scientists to 
move to France. You saw that, did you not?
    Dr. Cordova. I heard about it, yes.

                         RETAINING RESEARCHERS

    Mr. Cartwright. Yes. How does NSF, in this climate, plan to 
retain our best and our brightest? Our talented researchers, 
not just on climate science, but in all scientific fields 
within the U.S. in an environment where we are cutting the 
budget for the first time ever, this time by 11 percent? How do 
you keep your best people in this kind of environment?
    Dr. Cordova. I think the budget does, as I said, present 
impacts and challenges. The budget is not final until Congress 
weighs in on the budget and I am sure many prospective 
scientists and engineers are anxiously waiting for how it all 
unfolds.
    Meanwhile, as I also said, we have a lot of money to do 
good science. We have $6.6 billion proposed and presently we 
have $7.5 billion. And our goal is to do the very best science 
that we can and continue to fund researchers that are talented 
and that are presenting great proposals, continue to invest in 
them.
    We will do everything we can to be more efficient and 
effective as an agency in order to make those dollars go 
farther. We will continue to increase our partnerships, and I 
mentioned partnerships in the context of Green Bank and the 
context of Arecibo, to leverage the Federal investment. And I 
will continue to go around the country. And just last night I 
spoke in D.C. to a lot of very young people and their mentors, 
about the importance of STEM careers. And I do think that 
emphasizing broadening participation and welcoming more women 
and minorities into the fields of science because it is just a 
terrific thing to do for one's self and for the country, for 
the world, the future.

                         FUNDING DETERMINATIONS

    Mr. Cartwright. Not to interrupt, but I want to follow up 
with another question. There is a movement afoot on Capitol 
Hill to selectively fund programs at the NSF. You are aware of 
that, I believe? A movement to pick and choose here in Congress 
of what programs to fund at NSF.
    Dr. Cordova. Sure.
    Mr. Cartwright. Which I believe would unnecessarily and 
detrimentally inject politics into questions of what science 
projects should be funded. How do you feel about that?
    Dr. Cordova. I feel the same way, that the science 
community is best equipped to set the priorities for science 
and engineering. We rely on the advice of the National Academy 
of Sciences and its reports and our advisory groups. And we 
work with Congress and the administration, of course, to 
integrate all of those priorities to come up with the very best 
strategic plan for investment. But I have often said that as 
the world is changing and evolving; the grand challenges 
require more disciplines, not fewer, to aggregate around those 
challenges and to give their best input in solving them. And we 
found the most effective solutions come from interdisciplinary 
groups that converge on an important question. We never know 
where the next discovery is going to come from or who is going 
to make it. And so it just behooves us to continue to fund, as 
has been our mandate for these 67 years, all of science and 
engineering.
    Mr. Cartwright. Thank you, Director Cordova, and I yield 
back, Mr. Chairman.
    Mr. Culberson. Thank you, Mr. Cartwright. I am pleased to 
recognize the gentlewoman from New York, Ms. Meng.

                       STEM WORKFORCE DEVELOPMENT

    Ms. Meng. Thank you, Mr. Chairman, and thank you, Director 
Cordova, for all your wonderful work. America's economy cannot 
deliver on its full potential and cannot continue to be great 
if we do not have STEM workers to fill open STEM jobs. 
Neglecting to invest in new generations of scientists will only 
further this problem. Our research shows that STEM fields face 
persistent and dramatic worker shortages in this country. And 
for example on the STEM unemployment rate category a study 
shows from the years 2010 to 2016 unemployment rate within the 
STEM fields went down from 5.9 percent to 2.7 percent.
    So I believe, as I think many of my colleagues do, that at 
a time when we should be developing STEM expertise and 
encouraging the pursuit of these advanced degrees we are 
cutting funding. And by doing this we will be limiting, cutting 
back on entire generations of scientists. Because those in 
these fields will be more prone to leave and less students may 
want to enter into these fields and will have less support if 
these cuts go through. So how does the NSF intend to deal with 
consequences of these cuts and the decreasing numbers of people 
going into these fields in the first place?
    Dr. Cordova. I hope that there is not decreasing numbers of 
people going into these amazing fields. Because the country 
really needs them to remain a global leader. And we will do 
everything we can to promulgate the importance of science and 
engineering and to fund programs all the way from K through 12, 
K through my age, for people to get more involved in science 
and engineering. And we will try to leverage those programs 
with partnerships from foundations and scientific societies in 
the private world and industry, which are becoming ever more 
involved in working with us.

                             STEM EDUCATION

    Ms. Meng. Colleges and students in my district, which is 
one of the most diverse districts in our country, are now 
receiving many NSF grant funds supporting STEM faculty 
training, teacher recruitment, development. These are schools 
such as Queens College and Queensborough Community College in 
Queens, New York, York College, and the CUNY system in general. 
And they have been doing a lot of work in this area. Are you 
concerned that the NSF budget cuts may decrease effectiveness 
in terms of NSF's ability to support these important efforts 
moving forward?
    Dr. Cordova. They are important efforts and by the way, 
just your mentioning Queens, that is where my mother was born 
and raised. So it was nice to hear that. But absolutely, the 
reduced funding will have an effect and fewer researchers will 
be able to be funded. Yesterday I was in St. Louis at 
Washington University and one of the things I did was to have a 
round table with some two dozen young faculty who were CAREER 
Awardees, which is a very special competitive award that we 
give. And every time I go to a university I meet with the 
CAREER Awardees because they represent the bright, up and 
coming, the people who are going to make the LIGO and other 
discoveries of the future. And they represented all of the 
disciplines in science and engineering. And they were so alive 
with the transformative nature of their research and part of 
the CAREER Award is that they must also do educational outreach 
in addition to the research. And they said that doing that 
education, and it is usually in a school system in K through 
12, has transformed even the way they think about their future. 
So it was very heartening to hear them. As for impacts, a 
reduced budget does have impact.
    Ms. Meng. I too have been having conversations with both 
private stakeholders and nonprofit organizations who are very 
concerned about STEM education and want to ensure that they are 
doing their part to bolster these efforts. So if we could ever 
have a larger or a further discussion on how to collaborate in 
light of these potential cuts, I would love to continue this 
conversation. Thank you. I yield back.
    Dr. Cordova. Thank you.

                    DANIEL K. INOUYE SOLAR TELESCOPE

    Mr. Culberson. Thank you very much. All the members of the 
subcommittee have expressed our strong support for the National 
Science Foundation and your mission on the importance of 
continuing the nation's investment in fundamental research. But 
I wanted to be sure to add because we have an opportunity 
through our hearing today, Dr. Cordova, to talk to the 
scientific community at large.
    I know that the general sciences here, I see Jeff Mervis, I 
assume some of the major publications from around the country 
are here. And the scientific community I hope will join, and my 
colleagues will join with me and certainly on our side of the 
aisle to focus the attention of the country on the urgency of 
bringing down the national deficit, of bringing down the 
national debt. The fundamental problem that is devouring all of 
these precious resources that our constituents work so hard to 
earn, that the 70 cents out of every federal dollar goes out 
the door immediately, as soon as it comes in, for Social 
Security, Medicare, Medicaid, veterans benefits, under the 
Obamacare program, the Affordable Care Act, principal on the 
debt, and interest on the debt. Seventy cents goes right out 
the door. And the Appropriations Committee is responsible for 
that remaining 30 cents. And 15 of the 30 cents goes right out 
the door to help our men and women in the military ensure that 
they can fight and win, ideally two battlefronts on two sides 
of the world. But because of underfunding in previous years for 
the military, 70 percent of the Marine Corps aircraft cannot 
fly because of lack of spare parts. Half of our Navy's 
airplanes cannot fly because of a lack of spare parts. It is an 
unacceptable situation.
    Our military urgently needs a shot in the arm to bring them 
back up to the level of readiness and preparedness that we 
expect the United States military to have to ensure that those 
young men and women come home safely. So we, all of us, have an 
obligation in educating our constituents, working with our 
colleagues, to ensure there is enough money for the National 
Science Foundation, for NASA, for the other critical work in 
law enforcement, all the important work that the Federal 
Government does. We have to address the bigger problem of money 
flying out the door to the programs that are on automatic pilot 
and devouring our annual Federal spending to such an extent 
that this subcommittee, the Appropriations Committee is going 
to be reduced to a smaller and smaller percentage of each one 
of those Federal dollars. And we just simply cannot pass this 
massive debt onto our kids.
    Donald Trump was elected because the country wanted to see 
these problems dealt with. They wanted to see the debt 
resolved, the deficit resolved, spending brought under control, 
the military restored. They wanted problems solved. And we have 
got a CEO in the White House who is dealing with these urgent 
problems and has laid out a budget proposal that we may not 
agree with all parts of it but fundamentally we have to 
recognize that our military needs help. We have got to get 
spending under control in order to make sure that the National 
Science Foundation has got the help they need.
    I encourage the scientific community to do all they can to 
speak to their members of Congress, their members of the 
Senate, to focus on the bigger problem. Let us balance the 
Federal budget, save the looming bankruptcy of Medicare and 
Social Security, and that will free up a vast amount of money 
and allow us to get the deficit under control and get back to 
balance and ultimately pay down that debt so we are not leaving 
that to our kids. So we have the money to invest in critical 
work that, expanding the STEM grants for example, is so 
important; making sure that the tsunami detection network is 
safe and sound; that you have got the money that you need to 
invest in really important work like the Daniel K. Inouye Solar 
Telescope, which has a $20 million line in the budget to 
continue building this, the world's most powerful solar 
telescope.
    And the total cost I understand for the Daniel Inouye Solar 
Telescope is about $345 million. Could you talk to us about the 
current status of the program? Is everything proceeding as 
planned? And when it comes online in 2020, how will NOAA be 
able to access the data to fulfill its space weather prediction 
responsibilities?
    Dr. Cordova. Sure. May I make just a comment related to 
your remark about the military?
    Of course a lot of what the military can use today traces 
its roots back to science and technology investments, and 
whether it is GPS or prosthetics and new materials that are 
used on the battlefield or above it have their roots in 
science. So we look at science beyond funding a telescope or 
instruments as really creating a pathway to the future and that 
has tremendous impacts for all aspects of life, including 
national security and health, transportation.
    So on DKIST, and that is the Daniel K. Inouye Solar 
Telescope, which will be the world's largest telescope, we 
expect it to see first light in the middle of 2020, and we 
welcome any members who would like to see how the telescope is 
progressing. It is really, besides its promise of being a 
scientific marvel, it is an engineering marvel.
    And I took members of the National Science Board, two of 
whom are in this audience today, there several months ago and 
they were just in awe. It is like building, really, a satellite 
on the ground, but one that has enormous capabilities.
    So it is on track to fulfill its promise of having first 
light very soon. Everything is going very smoothly.

                             SPACE WEATHER

    Mr. Culberson. Well, the Space Weather community, have they 
begun discussions on how this solar telescope can be exploited 
by both NOAA and NASA to inform their operational or research 
roles?
    Dr. Cordova. Yes. I don't know the details of that, but 
could provide them to you. But clearly we advertise that this 
telescope, because of its incredible sensitivity in observing 
the sun and magnetic flares, will be very, very useful for 
Space Weather and Space Weather predictions of substorms and 
the like from the sun, and those can of course affect the 
electric power grid.
    And so I am quite sure that those discussions with other 
agencies have already taken place, because the world is really 
looking to us to have this extraordinary capability to do this.
    [The information follows:]

                    Daniel K. Inouye Solar Telescope

    NSF's DKIST will be the world's most powerful ground-based solar 
observatory poised to answer fundamental questions regarding the Sun 
and its magnetic fields. DKIST will be used by scientists to explore 
the fundamental physics behind the solar magnetic fields that drive 
phenomena like solar flares, coronal mass ejections, and the solar 
wind, all of which constitute the space weather that impacts the Earth.
    DKIST, however, will not have the cadence or field-of-view 
capabilities to make it an operational space weather tool for use on a 
daily basis. This role is better suited to a facility like the NSF's 
Global Oscillations Network Group (GONG) operated by the National Solar 
Observatory (NSO). GONG observes the entire disk of the Sun 24/7, 365 
days per year from six stations spread around the globe. It is this 
continuous full-disk coverage that is vital to the space weather 
prediction models of NOAA, NASA, and the DoD.

    Mr. Culberson. I am sure the telescope will also help us, 
for example, understand things like during the, I think it was 
the Maunder Minimum, it was a little ice age during the Middle 
Ages, it got very, very, very cold as a result of decreased 
solar activity, this will help us understand to what extent the 
cycles of the sun are and the effect they are having on Earth's 
climate.
    Dr. Cordova. Absolutely, and understand more precisely the 
physics of the sun and then how that translates into impacting 
us and Earth.
    Mr. Culberson. Thank you.
    Mr. Serrano.
    Mr. Serrano. Do I understand, Mr. Chairman, that this 
telescope eventually will be able to look at a State and 
determine how many people are going to vote Democrat and how 
many people will vote Republican? [Laughter.]
    Dr. Cordova. Our telescope is----
    Mr. Serrano. It is called the anti-pundit telescope. I 
couldn't help myself. [Laughter.]

                          ARECIBO OBSERVATORY

    Speaking of telescopes, back to the Arecibo Conservatory 
and Observatory in Puerto Rico, which is very important to me 
and obviously to the chairman also.
    We know about the reduction; how much have we spent 
throughout the years to operate, how much did it cost to 
construct, and what is the research benefits of the facility?
    Dr. Cordova. Well, let me look up my notes here on the 
costs. It was built by--actually, it was built by ARPA, the 
precursor of DARPA in the '60s and was completed at a cost of 
only $9 million. That was in the '60s. And then the transfer to 
NSF was made in 1969 with us assuming full responsibility a 
couple of years later.
    The operations have cost NSF about $255 million from 1990 
through the present fiscal year and total operations costs 
before that time from 1970 to 1990 we estimate were about $100 
million.
    As far as the importance of Arecibo, it has been 
extraordinarily important. Of course, that was where Joe Taylor 
and Dr. Hulse discovered the binary pulsar, which was the first 
real evidence of gravitational waves, and it has made many 
other seminal observations, especially on pulsars, which just 
happens to be one of my fields. I have been to the telescope 
and seen the extraordinary observatory.
    Mr. Serrano. I am also concerned about the condition of the 
observatory with respect to maintenance and modernization. Have 
any maintenance needs been deferred? Which ones? Could 
improvements be made to modernize Arecibo and what would that 
entail?
    Because there is a concern, I am hearing, that it is not 
being taken care of or kept up, because some people believe it 
is going to go away.
    Dr. Cordova. Well, two major upgrades have been funded, one 
as long ago as 1974 by NSF and NASA at a cost of $9 million. 
And there was a 1997 upgrade, funded by again NSF and NASA at a 
cost of $27 million, which added some powerful things like the 
Gregorian feed and a more powerful radar transmitter.
    Modernization of Arecibo could include new optic elements 
to allow the telescope to access more of the visible sky, 
because observations are currently limited to an angle of just 
20 degrees from straight overhead. New receivers, upgraded 
reflector panels and new radar transmitter subsystems. When I 
asked my group how much all that would cost, they don't have 
firm estimates yet, but they think it could approach $100 
million to do those kinds of upgrades.
    Mr. Serrano. Do you see a desire to continue? I mean, I 
would like to get to the bottom of this information floating 
around that in some cases some people say, well, give it away 
to some universities, which may not be the worst thing in the 
world, but then there are others who say it is time for it to 
cease, which should be a warning to other members of this 
committee, because it may affect how these kinds of things are 
seen in their districts.
    What is your sense of what the scientific or the government 
community is saying about the observatory?
    Dr. Cordova. NSF's preferred alternative is to collaborate 
with interested parties for a continued science-focused 
operation and that is why we put out a solicitation in January 
of this year to ask others if they were interested in 
partnering on this telescope. And proposals that are being 
received in response to the solicitation are currently under 
review and they will inform us as to next steps.
    I go back to my earlier comments that we--and the chairman 
often asks us just how priorities are set for NSF, we really do 
rely on the science/engineering communities to inform our 
strategic planning and that is often done through the Decadal 
Reports, which actually the astronomy community piloted a 
number of decades ago. And in this decade's report they have 
said that we couldn't continue to do everything, if we wanted 
to do new things, DKIST was mentioned, the LSST, the 
spectroscopic survey telescope was mentioned, and we couldn't 
do new things, and all the investment that requires, without 
letting some things go.
    And then we asked the community to assess current assets 
and what they would divest of. And Arecibo and Green Bank 
telescope are on that list not because they are not excellent 
telescopes, they do do great research in particular areas, but 
there are other telescopes that could have improved resolution 
over a large what we call phase space in all areas of observing 
that can provide just simply more capability, and we are in a 
constrained budget.
    So that is where we are with Arecibo.
    Mr. Serrano. Thank you so much.
    Thank you, Mr. Chairman.
    Mr. Culberson. Mr. Jenkins.

                         GREEN BANK OBSERVATORY

    Mr. Jenkins. Thank you, Mr. Chairman.
    Director, during our last round right at the end you made 
reference to collaborations and I would like to explore that 
for a few more minutes relating to GBO, Green Bank Observatory, 
and the opportunities and the work that NSF has been 
undertaking to look for partners in collaborative relationships 
that may also provide additional funding for maintenance moving 
forward.
    Can you share with me what work your office and the NSF in 
general has been doing to look for collaborative relationship 
opportunities, or partners with GBO?
    Dr. Cordova. Yes. Since we started the environmental impact 
study, we have been on that course, and I have to say I myself 
have been one of the prime movers in pushing us to look for 
collaboration and partners. And one potential partnership has 
turned up recently for Green Bank with the national security 
community and so we are engaged. I don't want to say too much 
about it, because it is very new, within the last couple of 
weeks, few weeks, but those have been very, very long and now 
sustained discourse with that community over their potential 
interest in that.
    And so we are always hopeful that that will produce 
something of significance here and we will keep you informed.

         ESTABLISHED PROGRAM TO STIMULATE COMPETITIVE RESEARCH

    Mr. Jenkins. Well, thank you and I appreciate that. Our 
office, and I am sure the entire delegation, looks forward to 
working with you for that. We think there are touch points with 
not only those interests, but others, NASA, and there are 
unique opportunities and capacities.
    What I think we are trying to do is obviously not only 
continue to work with the relevance and fulfilling those core 
NSF missions and functions that you have outlined, but also 
with other Federal entities and agencies and programs.
    So we look forward to working with you. Thank you for your 
personal interest, as you described engagement in this, very 
helpful.
    One of the areas we are very supportive of is EPSCoR. Back 
in the 1990s I served on the EPSCoR state board, so this 
activity is very important. One of the things I do notice from 
NSF funding is that about 88 percent of your funding goes to 
about 25 states. I really would encourage some careful 
consideration about the breadth and the scope and the talents 
and capabilities of the other 25 states that are now enjoying 
only about 12 percent of the NSF funding and making sure, 
candidly, like I do is fight for our fair share in the unique 
talents and capabilities.
    So I just hope that I put a place marker out there of 
concern that I have about the disparity in the funding 
allocation. I understand this isn't going to be a pot that is 
divided in 50 equal ways, but I do believe 25 states getting 88 
percent of the funding warrants a careful evaluation of those 
25 states that receive 12 percent.
    Dr. Cordova. I hear you, Congressman Jenkins, and clearly 
the agency feels similarly and that is why we really value the 
EPSCoR program and we do a great deal. It has had wonderful 
leadership under Denise Barnes and I think all of us were at, I 
spoke at that event and you introduced me a couple of years 
ago, it is just a great and transformative program. And I love 
going to the EPSCoR states, I went recently to Rhode Island 
with Senator Reed and just saw the amazing work that they are 
doing.
    So I am very appreciative of your remarks.
    Mr. Jenkins. Well, thank you.
    Thank you, Mr. Chairman. I yield back.
    Mr. Culberson. Thank you, Mr. Jenkins.
    Mr. Kilmer.

                 INFRASTRUCTURE AND FACILITY INVESTMENT

    Mr. Kilmer. Thank you, Chairman.
    I know there has been a lot of talk by the current 
administration about a big infrastructure initiative. I know 
also that research dollars from NSF don't just go to individual 
investigators; they support facility investments, including in 
my neck of the woods at the University of Puget Sound. An NSF 
major research instrumentation award for a mass spectrometer 
has made a real difference for faculty and staff and student 
research.
    I am curious, is the NSF involved in the administration's 
infrastructure initiative and, if not, how could the NSF 
perhaps be a partner to increase accessibility to science?
    Dr. Cordova. The NSF is very willing to work with the 
administration and Congress to pursue important investments 
like that. We know there are many findings from NSF-supported 
research that can improve infrastructure investments and we 
have a lot of research on that going on, especially in our 
engineering directorate. We hope that investments in scientific 
infrastructure can be considered and also in cyber-
infrastructure as part of the administration's interest in 
bolstering infrastructure. And so we are very open to 
collaborations.
    We have had some talks with congressional members and their 
staff about how we are positioned to do increased investments 
in infrastructure and you mentioned specifically the major 
research instrumentation program that is so important to our 
colleges and universities. And of course then we have the large 
facilities program and we are trying to close the gap in 
funding with our mid-scale program, which the AICA, a new Act 
for Competitiveness and Innovation, asks us to do.
    So there is just a lot. Infrastructure has been part of 
what NSF has built its scaffold of amazing discoveries in 
science and engineering on, and we hope that the entire nation 
realizes what an important investment that infrastructure is.

            NATION'S INVESTMENT IN RESEARCH AND DEVELOPMENT

    Mr. Kilmer. I also want to ask you, you mentioned the 
Competitiveness Act, it is rare to get to talk to someone who 
is NASA's chief scientist. I was thinking, as you came in, 
about October 4th, 1957, Sputnik. That was a moment in which 
the United States woke up to an existential threat and as a 
consequence, the United States, Democrats and Republicans, 
embraced the notion that to respond to that existential threat 
required a substantial investment in science. We talked about 
what could be an existential threat in my neck of the woods, 
with the geoscience issues of potential earthquakes, but I want 
to talk about an economic threat.
    A few years back, the National Academies worked on Rising 
Above the Gathering Storm and then the Gathering Storm, 
Revisited, partnership with a number of CEOs and folks in the 
scientific community. As you look at their findings, they said 
first, ``The Federal Government funding of R&D as a fraction of 
GDP has declined by 60 percent since Sputnik,'' since the 
response to Sputnik. And then they wrote, ``Without a renewed 
effort to bolster the foundations of our competitiveness, we 
can expect to lose our privileged position as a nation.''
    The former CEO of Intel, Paul Otellini, put it this way, he 
said, ``Without a change in U.S. policy, the next big thing 
will not be invented here, jobs will not be created here, and 
wealth will not accrue here.''
    I am curious, do you agree with the findings of the 
National Academies in the Rising Above the Gathering Storm 
report and their call for doubling investment in NSF?
    Dr. Cordova. I agree with their findings. As the head of an 
executive branch agency, I won't comment on their call for 
doubling the budget of the National Science Foundation.
    I gave a little talk yesterday about the existential 
threat, which is even larger than a lot of people realize, 
because we have competition from other countries that is 
incredibly serious.
    Mr. Kilmer. Yes.
    Dr. Cordova. And that is something that can creep up on you 
slowly and then all of a sudden you have lost another market, 
you have lost your premier position, and it has gone somewhere 
else. And, frankly, I am concerned about that. I am concerned 
about the accelerating pace of investments in other countries, 
I am concerned that we will lose our global leadership if we 
don't also invest in science and engineering.
    Mr. Kilmer. I share that concern and I know it puts you in 
a tough position to have to speak to a budget that calls for a 
double-digit cut in the work you are doing. So I appreciate you 
being here.
    I yield back.
    Mr. Culberson. Mr. Cartwright.

                      CONGRESSIONAL CORRESPONDENCE

    Mr. Cartwright. Thank you, Mr. Chairman.
    And thank you for your candor on that last question, 
Director Cordova.
    Director Cordova, we are concerned on this side of the 
aisle about our ability to get our questions answered under the 
current administration. My question to you is, has the White 
House or the Office of Management and Budget approached NSF 
about any kind of policy or guidance that would prohibit or 
delay responses to ranking members, that is the head Democrats 
on congressional committees or subcommittees of jurisdiction?
    Dr. Cordova. There has been no direction that would in any 
way interfere with the flow of information between NSF and 
Congress.
    We have ourselves at NSF internal processes for answering 
congressional inquiries that have been in place for years and 
that haven't changed. We track all incoming and outgoing 
congressional correspondence, I sign off on that myself, and we 
try to answer all inquiries as quickly as possible. There is no 
policy or guidance that would prohibit or delay the flow of 
information.

                          RISK AND RESILIENCE

    Mr. Cartwright. Thank you. I am glad to hear that.
    Now, we have been talking about climate change and one of 
the things that I am concerned about are adaptation and 
resiliency. As NSF's fiscal year 2018 budget states, the 
Agency-wide Risk and Resilience Initiative, quote, ``aims to 
improve predictability and risk assessment, and to increase 
preparedness for extreme natural and manmade events to reduce 
their impact on quality of life, society, and the economy,'' 
unquote, but the proposed fiscal year 2018 budget includes a 
27.4 percent reduction for the Risk and Resilience Initiative 
overall.
    How would this kind of proposed reduction in funding for 
this initiative affect the anticipated outcome of improving 
resilience and readiness of interdependent critical 
infrastructures?
    Dr. Cordova. You are right that some difficult choices had 
to be made and that the overall annual budget for Risk and 
Resilience will be reduced.
    Research on hazards in extreme natural events, which is 
called our PREEVENTS program, will not be affected and will 
continue to enhance understanding of the fundamental processes 
underlying geohazards in extreme events on various spatial and 
temporal scales, as well as the variability inherent in such 
hazards and events, and improve models for extreme events and 
their impacts.
    But research on resilient infrastructure we have called our 
CRISP program, an acronym, will be reduced by about 40 percent 
and impact the number of new awards, and that has been an 
effort to promote research on interdependent critical 
infrastructure systems.
    So we do plan to invest in both our PREEVENTS and our CRISP 
program to the tune of about $31 million in Risk and Resilience 
in the fiscal year 2018 budget. And I know that is a reduction 
and, again, we had some tough choices to make.
    Mr. Cartwright. Further, the Risk and Resilience Initiative 
is an NSF-wide investment that has been supported across six 
NSF directorates and offices. The fiscal year 2018 budget 
proposes to eliminate funding completely to the Computer and 
Information Science and Engineering Program, CISE, that is 
taking away $6 million.
    What is the rationale for eliminating funding for this 
program and how might eliminating the CISE program's funding 
for this initiative affect efforts across the other 
directorates?
    Dr. Cordova. Well, I think, again, we will supply you with 
a more detailed answer for the record, but I think you are 
talking about the contribution to the programs I just talked 
about by the CISE directorate, the Computer and Information 
Science and Engineering directorate. And when I asked all the 
directorates to look at roughly a ten-percent cut, they all had 
tough choices to make and on these cross-agency initiatives 
there were puts and takes.
    I think the numbers are what I mentioned for the total 
effort, which comes from a number of directorates. The size of 
the computer directorate cutback on that, it means that they 
made a choice to invest in other initiatives.
    [The information follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
       
    Mr. Cartwright. Thank you, Director.
    I yield back, Mr. Chairman.
    Mr. Culberson. Thank you very much.
    Ms. Meng.
    Director Cordova, we will submit the remainder of our 
questions for the record.
    Mr. Serrano, is that----
    Mr. Serrano. Yes.
    Mr. Culberson. Very good. We will each submit the remainder 
of our questions for the record.
    I want to thank you again for your service to the nation.
    Dr. Cordova. Thank you.
    Mr. Culberson. And we will stay focused on doing our best 
to balance the budget as a whole, so we can have more resources 
for the vital work that the National Science Foundation, NASA, 
our law enforcement community, and the military all do for the 
United States.
    Thank you very much.
    Dr. Cordova. Great, and thank you.
    Mr. Culberson. And the hearing is adjourned.
    Thank you.
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
      

                                            Thursday, June 8, 2017.

     NATIONAL AERONAUTICS AND SPACE ADMINISTRATION--BUDGET HEARING

                                WITNESS

ROBERT M. LIGHTFOOT, JR., ACTING ADMINISTRATOR, NASA

                       Chairman's Opening Remarks

    Mr. Culberson. The Commerce, Justice, Science 
Appropriations Subcommittee will come to order.
    We are very pleased to have with us today Robert Lightfoot, 
the acting administrator of NASA. Robert, we sincerely 
appreciate your service to the Nation, your devoted service to 
NASA, and keeping the American space program the best on Earth 
over these many years.
    We have in fiscal year 2018 a request from the 
administration to fund NASA at $19.1 billion. This request from 
the Office of Management and Budget is a request $561 million 
below the recently enacted 2017 fiscal year level of $19.7 
billion.
    When it comes to NASA, Mr. Administrator, this subcommittee 
works arm in arm. The country and Congress are very proud of 
the work that NASA does. I am really pleased to have the full 
support of the subcommittee in getting a record level of 
funding to NASA. In the brief time that I have had the 
privilege of chairing this subcommittee, we have been able to 
take NASA to record levels of funding.
    Last year's level included $184 million in emergency 
funding to address the damage that occurred at NASA facilities 
at Michoud and at the Cape as a result of a hurricane and 
tornado. That was, I know, an important part of keeping NASA 
whole and allowing you to focus your efforts on space flight.
    This Congress has provided really significant increases to 
NASA. You have been underfunded for far too long. Too much has 
been on NASA's plate, and you haven't had enough funds to do 
everything that you have been asked to do. But that is 
changing.
    As you have seen with the last several appropriations, NASA 
has grown from $18.1 billion in funding from--in 2015 to almost 
$20 billion in fiscal year 2017. It is an indication of the 
level of confidence and admiration that the Congress and the 
American people have in you and the good people at NASA. We 
have been able to provide NASA with growth at these levels, 
when other agencies of the Federal Government have seen their 
budgets held flat and even cut or eliminated.
    Of course, increased funding requires increased 
responsibility. Our constituents' hard earned and very scarce 
and precious tax dollars need to be spent wisely, prudently, 
and carefully. And the subcommittee expects that you and 
everyone at NASA will ensure that the money our constituents 
work so hard to earn is used frugally.
    We have, in the 2017 appropriations bill, made sure that 
the SLS rocket is fully funded, the Orion program is fully 
funded, that the agency has the funds that you need to put 
humans back into deep space. The commercial sector is funded at 
a level it should be in the 2017 bill.
    I like to think of what the commercial providers are doing 
is sort of like stepping out in front of your office building 
and catching a cab. In years to come, you should be able to 
catch a commercial provider to take you to low Earth orbit as 
easily as you can catch an Uber, Lyft or yellow cab. NASA will 
then be responsible for deep-space travel. I think it is a good 
way to think about the distinction and the difference between 
them.
    In addition to fully funding the human space flight 
program, as you have seen in the 2017 bill and in previous 
bills I have had the privilege of chairing in the subcommittee. 
The committee made certain that the Decadal Survey 
recommendations of the American Academy of Sciences are funded 
in each one of the major categories because we want to see NASA 
fund and fly those top recommendations of the Decadal Survey, 
and, in particular, when it comes to planetary science, which 
was badly underfunded for too many years. The committee 
included a directive to NASA, a statutory directive that NASA 
fund and fly a mission, an orbiter and a lander to Jupiter's 
icy moon Europa. It is one place nearest to home that the 
scientific community believes we are most likely to find life 
on another world for the first time in human history. I look 
forward to hearing an update on how the Europa mission is 
going.
    Finally, I want to direct your attention to language 
included in the 2017 bill directing NASA to identify the 
nearest Earth-like planet around the nearest star, to 
characterize that nearby planet's atmosphere looking for signs 
of life, methane, carbon dioxide, oxygen. As John Grunsfeld 
once told me, perhaps the sensitivity would be such that we 
might even detect industrial pollution in the atmosphere of a 
nearby planet. Then to directing NASA to develop interstellar 
rocket propulsion achieving 10 percent of the speed of light 
and then launch a humanities first mission to that nearest 
Earth-like planet no later than the 100th anniversary of Neil 
Armstrong setting foot on the moon in 2069.
    In the time it has been my privilege to represent the 
people of west Houston in District 7, I have enjoyed my service 
on this subcommittee immensely. An important part of that has 
been the friendship and close cooperation that I have developed 
with my good friend from New York, Mr. Serrano. I am really 
pleased to have you back as our ranking member. We work 
together so well, and he is as passionate a supporter of the 
space program as I am.
    And I am pleased to recognize the gentleman from New York 
for any opening remarks he would like to make.

                     Ranking Member Opening Remarks

    Mr. Serrano. Thank you, Mr. Chairman.
    And I also welcome the administrator to the subcommittee 
hearing today.
    NASA is in charge of conducting civilian space activities 
and science and aeronautics research. I am a strong supporter 
of NASA and believe that its programs help America maintain 
itself as the world leader in space exploration and in the 
scientific arenas that develop those technologies. Not only do 
NASA's missions inspire so many people around the world, but 
they also help us innovate and address challenges that confront 
our Nation.
    The President's budget blueprint for fiscal year 2018 
requests $19.1 billion for NASA, which is a $532.8 million 
decrease from the 2017 enacted level. While NASA was not cut as 
much as other agencies under the jurisdiction of our 
subcommittee, the budget proposal reduces funding for a number 
of important areas.
    I am particularly concerned that although funding is 
continued for the education activities of NASA's Science 
Mission Directorate, this request zeroes out funding for three 
longstanding programs within NASA's Office of Education, an 
office that helps inspire the next generation of scientists.
    I strongly oppose the elimination of these programs, Mr. 
Chairman, and I hope that we can work together in a bipartisan 
manner to preserve these programs that so greatly benefit the 
American people.
    I would further like to call attention to the President's 
request for Earth Science, which is cut of $166.9 million below 
fiscal year 2017. In addition to eliminating several individual 
Earth Science missions, which are necessary in our efforts to 
combat climate change, the request will reduce funding for 
Earth Science external grants.
    We need to place a high priority on NASA's Earth Science 
research, and I look forward to discussing this topic further 
today.
    I also look forward to hearing from Acting Administrator 
Lightfoot on NASA's long-term plans for human space 
exploration, which will require significant amounts of money 
for research on advanced communications; entry, descent, and 
landing capabilities; and ways to protect astronauts' health 
during those long deep-space missions, among other things.
    All of these improvements will require massive amounts of 
money over a long period of time, at a time when Federal 
nondefense discretionary spending has been decreasing as a 
share of the economy.
    Mr. Chairman, as you very well know, I am also a strong 
supporter of the Arecibo Observatory and believe that we must 
maintain strong support for its mission. NASA's 2018 budget 
request includes funding for NASA activities at the 
observatory, and I would like to hear more about this work.
    Before I conclude, we cannot discuss NASA's budget request, 
Mr. Chairman, without discussing the overall budget picture. As 
I mentioned at yesterday's hearing, I believe that we must have 
a serious discussion regarding budget caps and President 
Trump's larger budget request. The President proposes an 
increase of $54 billion in defense spending funded by an equal 
decrease in non-defense discretionary spending. Quite frankly, 
implementing such a proposal undermines America's 
competitiveness, economic opportunity, and domestic security.
    Agencies like NASA are being put at risk by this unbalanced 
proposal, as evidenced by the unwise cuts in the NASA budget 
request. Our Nation's leadership in a number of important areas 
is threatened by this budget request, and we need to recognize 
that if we want our Nation to be at the forefront of innovation 
and job creation, we need a much wiser fiscal policy.
    And I am sorry for repeating myself, but I think that 
committees like ours deserve a better allocation as we go 
along, and the moving of $54 billion will hamper that in many 
ways.
    Thank you, Mr. Chairman.
    Mr. Culberson. Thank you very much, Mr. Serrano.
    Mr. Lightfoot, we are delighted to have you with us here 
today. Your written statement will be entered into the record 
in its entirety, if there is no objection. And I welcome you to 
briefly summarize your statement. And thank you again for your 
service to the country.

                 Acting Administrator's Opening Remarks

    Mr. Lightfoot. OK. Thank you, Mr. Chairman and members of 
the subcommittee. I am pleased to have this opportunity to 
discuss our budget, our FY 2018 budget request.
    We really appreciate the subcommittee's support, especially 
your bipartisan commitment to what we call our constancy of 
purpose in NASA.
    The FY 2017 Consolidated Appropriations Act, and 
specifically the emergency supplemental, as you mentioned 
earlier, were critical to us to keep the operations at Kennedy 
and Michoud assembly facility going. So we really appreciate 
that, your hard work on our behalf.
    NASA's historic and enduring purpose can be summarized into 
three major strategic themes: discover, explore, and develop. 
These correspond to our missions of scientific discovery, 
exploration, and new technology development in aeronautics and 
space systems. NASA missions also inspire the next generation. 
They inject innovation into the national economy and they 
provide critical information to address national challenges and 
support global engagement and international leadership.
    The FY 2018 request of $19.1 billion supports a vigorous 
program that leads the world in space and aeronautics. While we 
had to make some difficult decisions with regard to Earth 
Science and education, this remains a good budget for NASA.
    NASA advances U.S. global leadership in aeronautics by 
developing and transferring key enabling technologies. In FY 
2018, NASA will award a contract for detailed aircraft design, 
build, and validation of a low-boom flight demonstrator, which 
will demonstrate quiet overland supersonic flight opening a new 
market in the U.S. industry.
    In science, NASA is currently using our 20 space-borne 
missions to study the Earth as a system, which supply Earth 
Science data for weather forecasting, farming, water 
management, disaster response, and even disease early warning.
    The request also supports two new missions by the end of 
2018. The GRACE-Follow-on will track water across the planet 
precisely measuring Earth's gravitational field, and ICESat-2 
will measure ice sheets, clouds, and vegetation canopy heights.
    In September, Cassini will make the final series of 22 
daring dives through the 1,500-mile wide gap between the planet 
and its inner rings as part of its grand finale of end-of-
mission maneuvers.
    OSIRIS-REx on its way to the asteroid Bennu will conduct a 
search for elusive objects known as Earth-Trojan asteroids, and 
in 2023 will return a sample from Bennu back to Earth for 
analysis.
    In 2018, we will launch the Mars InSight lander to study 
the interior structure of Mars and are on track to launch the 
next Mars rover mission in 2020, and we continue to develop the 
Europa Clipper mission, which will further search for life 
beyond Earth.
    The James Webb Space Telescope continues on schedule for 
its 2018 launch. The Webb will be a giant leap forward in our 
quest to understand the universe and our origins.
    In 2018, we will launch the recently named Parker Solar 
Probe on a mission to fly closer to the Sun than any previous 
mission. Parker will join 18 other missions dedicated to 
studying our nearest star.
    NASA's space technology request includes investments in 
deep space optical communication, high power solar electric 
propulsion technologies, and advanced materials. In late 2017, 
both the Green Propellant Infusion Mission spacecraft and the 
Deep Space Atomic Clock instrument will be delivered to orbit.
    The International Space Station, our first step on the road 
to deep-space exploration, is delivering the knowledge and the 
technology we need to keep astronauts safe, healthy, and 
productive on deep-space missions of increasing durations.
    Working with our commercial crew partners, NASA plans to 
return crew launch capability to American soil in 2018. We are 
continuing the development of the Space Launch System rocket, 
the Orion crew capsule, and the exploration ground systems, and 
the technology and research needed to support a robust 
exploration program.
    In 2019, we plan to launch an uncrewed exploration mission 
called EM-1 using the new Space Launch System with Orion on a 
mission to lunar orbit. A crewed mission, EM-2, will follow not 
later than 2023.
    In the early to mid-2020s, we will develop and deploy 
critical life support and habitation systems leading to a 
crewed mission beyond the Earth-Moon system. Missions launched 
on the Space Launch System in the 2020s will establish the 
capability to operate safely and productively in deep space.
    With your continued support, we look forward to extending 
human presence into deep space, exploring potentially habitable 
environments around the solar system, and deepening our 
understanding of our own home planet, pushing our observations 
of the universe back to the time when first stars were forming 
and opening the space frontier.
    Mr. Chairman, I will be pleased to respond to your 
questions and those of other members of the subcommittee. Thank 
you.

                    SPACE LAUNCH SYSTEM DEVELOPMENT

    Mr. Culberson. Thank you very much, Mr. Lightfoot.
    So you believe the funding levels that the committee has 
provided NASA over these last several years are sufficient to 
keep SLS on track. The delays that you are seeing are not a 
result of inadequate funding; they are a result of some 
technical challenges. Is that correct?
    Mr. Lightfoot. Yes, sir. We are struggling with what I call 
the normal development activities when we are trying to put 
hardware together for the first time. The tornado didn't help. 
I don't think that was a funding issue. You guys helped us by 
giving us the funding.
    But the weld schedule on the Space Launch System, some of 
the challenges we are having with the European service module 
in support of Orion and some software challenges down at the 
cape. They are not anything Earth shattering in my mind. They 
are the typical----
    Mr. Culberson. Normal.
    Mr. Lightfoot [continuing]. Development activities we are 
having to go through. We wish we didn't have them, but we are 
learning as we go for the first-time build.
    Mr. Culberson. And you are confident you can meet the 
launch schedule you have laid out here for the committee for 
SLS?
    Mr. Lightfoot. Correct.
    Mr. Culberson. Terrific.

                           PLANETARY SCIENCE

    The subcommittee has provided robust support for the 
planetary science program to ensure that NASA can maintain a 
good cadence of launches for the discovery class missions, new 
frontiers, and flagship missions. Does the level of funding 
provided by the subcommittee the last few years give you 
sufficient funding to make sure that you can launch missions in 
each one of those major categories that meet the Decadal Survey 
recommendations?
    Mr. Lightfoot. We believe so. We have good progress on 
Europa Clipper. And per the 2017 appropriations, we are going 
to be announcing the instruments for the lander and going 
toward a mission concept review this summer.
    Mr. Culberson. How soon?
    Mr. Lightfoot. This summer.
    Mr. Culberson. This summer.
    Mr. Lightfoot. We seem to be moving really well on 
planetary. Helio, I talked about what we are going to do there 
as well. I am pretty confident that we have got the 
appropriations we need.
    Mr. Culberson. OK. Good.
    The Europa Clipper and Lande missions are extraordinarily 
important, the reason they both appear in the statutory bill 
language is because the science community believes we have the 
best chance of discovering life in another world in Europe.
    So I really appreciate the support that headquarters has 
given to that mission. It is going to be a turning point in 
human history when we discover life for the first time in 
another world. In addition, it makes the SLS even more 
essential, because a deep-space mission like that with a large 
flagship-class spacecraft, such as the Clipper and the Lander, 
require the SLS.
    Talk to me about the timeframe for when you expect Clipper 
to be ready to launch and the lander.
    Mr. Lightfoot. Yes, sir. In the 2018 budget that we 
proposed, we expect a Clipper in the mid-2020s that is when we 
expect it to go. Of course, you know that in the 2018 budget 
there is nothing in there for the lander. It is part of the 
balancing that we had to do.
    We had two flagship missions, the March 2020 and the 
Clipper in there. We have to work the balance on that for the 
lander piece.
    Mr. Culberson. But, of course, the lander is in law.
    Mr. Lightfoot. Oh, yes. We are going to continue what we 
did--it is what you said what we were told to do in 2017.
    Mr. Culberson. Yes, sir. You have got adequate funding for 
it.
    Now, there is another reason the lander is important, not 
only--because when we--Mr. Serrano is exactly right. The future 
missions that--the scale of the human space flight program, the 
SLS program is going to require significant amounts of money 
over a sustained period of time. I am convinced when the 
public--when we make that remarkable discovery of life in 
another world, it will reinvigorate the public's already deep 
admiration for NASA and allow us to have enough money for the 
program for the future. That is another important part of that 
Europa mission.
    Could you tell us about--we were very grateful that the 
Agency has put together an ocean worlds program as directed by 
the subcommittee's bill to explore Enceladus, moon of Saturn, 
and Titan and some of the other ocean worlds of the outer solar 
system.
    Could you talk to us about any--are there, for example, New 
Frontiers--is there a new frontiers mission being considered 
for Enceladus? Talk to us a little bit about why Enceladus is 
important.
    Mr. Lightfoot. Well, obviously, Enceladus is important for 
the same reason Europa is. We think it is a place where we 
could find some of the origins of life or different life that 
could be there. The New Frontiers program is going to stay on 
its standard cadence that we will put out here shortly, and we 
think we have got the money to do that as----
    Mr. Culberson. Every other year?
    Mr. Lightfoot. I believe we are at 3 years, is where we are 
right now, 2\1/2\ to 3 years. Let me make sure of that. Let me 
take that for the record to make sure I am exactly right. I 
don't want to guess here.
    Mr. Culberson. Is there a mission being planned to 
Enceladus, to your knowledge?
    Mr. Lightfoot. Well, we would put out a new frontiers that 
would--that could be a proposed mission for sure in that.
    Mr. Culberson. OK. Very good. Thank you.
    Mr. Serrano.
    Mr. Serrano. Thank you, Mr. Chairman.

                             EARTH SCIENCE

    NASA's Earth Science division works to develop a scientific 
understanding of the Earth and its responses to natural and 
human-induced changes. However, the President's budget proposal 
has a significant reduction in funding for external Earth 
Science research grants. Why is this being proposed? And 
shouldn't research grants aiming to study our own planet be 
made a particularly high priority?
    Mr. Lightfoot. Yes. What we have done with the Earth 
Science budget this year that we believe is the right way to 
approach it, we took kind of a risk management approach where 
we said what is the top science, what does the Decadal say, and 
then how are we doing from a performance perspective on the 
programs that are there?
    Plus, we took into account that the next Earth Science 
Decadal comes out in 2017 that can actually give us some 
guidance to where we may need to go, because the last one was 
2007. When we made the decisions we made within the budget we 
had, we had to balance all that.
    We still have 20 operating missions, they are in space, 
plus we have a large airborne science campaign. We still have 
our STEM science activation program going on where we are 
funding folks at universities to help us with some of our 
challenges. We thought we have done the best balance we can 
within the budget we got.
    Mr. Serrano. OK. My concern is that if the grants are 
currently awarded at a higher rate of acceptance, isn't that a 
good thing? Although, talented researchers are and should be 
doing great work studying other planets and other solar 
systems, shouldn't we place a top priority on studying the 
changes happening in our own planet?
    Mr. Lightfoot. We are. I mean, we are still doing some of 
that work. That is what I am talking about with some of the 
STEM activation activities that we do in science. We will 
continue to do some of it. We won't be able to do it all. And 
that is what we did from----
    Mr. Serrano. And which other agencies do you work with on 
that?
    Mr. Lightfoot. Let's see, I believe we work with NSF and 
NOAA to do similar work in Earth Science. We are pretty 
complementary in the tasks there.
    Mr. Serrano. Within the CJS subcommittee's jurisdiction, 
both NOAA and the NASA Earth Science division are intimately 
involved in studying and tracking changes in Earth's climate. 
To your knowledge, did President Trump or his advisers consult 
with NASA's Earth Science division or rely in any way on NASA's 
Earth Science data prior to the President's announcement that 
he is pulling the United States out of the 196-nation Paris 
climate agreement?
    Mr. Lightfoot. They did not consult with us. I cannot say 
whether they used our data in terms of making that decision, 
but they did not consult with the Earth Science division.
    Mr. Serrano. And your data wouldn't have suggested they 
would pull out, I suspect.
    Mr. Lightfoot. There is a lot of data there, sir. I don't 
know if that would have done it or not.

                           ARECIBO TELESCOPE

    Mr. Serrano. OK. That is a good answer. That is a beautiful 
answer.
    Administrator Lightfoot, you are aware of my interest in 
the Arecibo telescope in Puerto Rico, a 1,000-foot wide radio 
telescope used for radio astronomy, hemispheric science, and 
radar astronomy. Could you explain for our audience and for me 
some of the most important ways that NASA and the Nation 
continue to benefit from utilizing this telescope and others 
like it?
    Mr. Lightfoot. Yes. We use Arecibo--we use several 
instruments to track asteroids near asteroids, and Arecibo, we 
use that to characterize. Once we identify one, we use the 
Arecibo and Goldstone, for instance, is another one that we use 
to actually characterize the shape, you know, what kind of 
asteroid it could be.
    We look at it--it is almost the radar and then the 
characterization kind of mentality that we use. Arecibo is an 
important part of that mission for us. We expect to spend 
roughly the same we have been spending there as we move out in 
the future. I think it is $3.6 million, what we use there today 
that we work with our friends at NSF, depending on where they 
go with it.
    Mr. Serrano. Very briefly as a followup. At yesterday's 
hearing, NSF was basically telling us that they are trying to 
get away from the Arecibo Observatory. They didn't say it in 
those words, but we know that that is the case. Is that the 
same case with your involvement?
    Mr. Lightfoot. I think the way we have looked at it is we 
will use it if it is there, because it is a capability that we 
can use, but we also have other assets that actually can help 
us as well from characterization of asteroids.
    Mr. Serrano. Thank you, Mr. Chairman.
    Mr. Culberson. I want to join my good friend Mr. Serrano 
expressing my strong support to keep the Arecibo radio 
observatory open. It is a unique strategic asset to the country 
and a tremendous capability that we don't want to lose.
    I am very pleased to recognize the gentleman from Kentucky, 
Mr. Rogers.

                    Chairman Rogers Opening Remarks

    Mr. Rogers. Thank you, Mr. Chairman.
    Welcome, Mr. Administrator. I have been a space nut since I 
was a teenager.
    Mr. Lightfoot. Me too.
    Mr. Rogers. In fact, when Sputnik went up in 1957, it was 
so exciting. I quit a job in a radio station in North Carolina 
and enrolled in physics at the University of Kentucky, aiming 
for Cape Canaveral. But the first year was, of course, all 
math, and I wanted to shoot rockets. I got bored with the math. 
I switched off to something else.
    But NASA is more than a space-launching agency. NASA is an 
inspiration maker, a dream realizer. The space race with the 
Soviets and the race to the Moon energized, inspired, excited 
the world, but especially here at home. And all of the spinoffs 
that have been caused by the space program and so many 
different arenas has been absolutely phenomenal. We lack that 
excitement today.
    I have no doubt, Mr. Chairman, that there probably would 
not have been a moonshot, but for the challenge of the space 
race with the Soviet Union at the time. I am not advocating 
anything like that, but we need--the country needs the 
inspiration that you and I both gained from early NASA 
activities.
    What can you tell us about building the dreams and 
inspiring the country?
    Mr. Lightfoot. Well, I think that there is plenty of that 
right now. I will give you a great example just from yesterday. 
We selected 12--announced 12 new astronauts out of the record 
number of applicants. We had 18,000 people apply to be 
astronauts and we picked 12.
    Two months ago, we discovered potential exoplanets, called 
TRAPPIST-1, roughly seven exoplanets. We had 4 billion hits in 
our social media for just understanding what is going on there.
    I think that the missions we do still inspire. I think they 
still engage youngsters everywhere. I mean, my kids are sending 
me stuff that they see on Instagram and Facebook--which I am 
not on, right--asking me, Dad, what is going on here? This is 
pretty cool, right.
    I think we still have a great presence, and I think that 
presence is related to the missions that we do. I think the 
missions, as long as we do, much like what the chairman said 
about when we--we are actually trying to make civilization-
level impacts. We are trying to learn things that are going to 
change the way we look at everything. Those kind of missions 
really inspire everyone to pay attention to what we are doing.
    I think it is still there, maybe not as much as it was when 
we, you know, walked on the Moon, but I tell you, I am pretty 
inspired by what we are doing, and our teams are very inspired 
by what we are doing. We don't have any trouble getting any 
workforce to help us do it.
    Mr. Rogers. Good. Good. I am glad to hear that.
    The October moon, you remember the book and the movie----
    Mr. Lightfoot. Oh, October Sky? Rocket Boys. I think it is 
Rocket Boys, yes.
    Mr. Rogers. October Sky, yeah. I identified very, very much 
with that young kid, and I am sure you had somewhat of a 
similar excitement.
    Mr. Lightfoot. Oh, yes.

                             NASA EDUCATION

    Mr. Rogers. I am concerned about your proposed--in your 
budget, your cuts to the Office of Education, in fact, zero. 
That gets to this, what we are talking about. The education 
programs hopefully have been spreading the word about NASA's 
excitement and all of that. I can't understand why you would 
want to cut that. The EPSCoR and space grant programs. Two of 
my universities have used those moneys to start small but 
remarkably successful aerospace programs. Your investments have 
promoted high retention for Kentucky STEM workforce.
    Just in April, you deployed two CubeSats developed by the 
University of Kentucky and Morehead State University as part of 
your ongoing educational launch of nano satellites mission. The 
first time two Kentucky satellites, by the way, have been ever 
launched simultaneously. Thank you very much.
    What can you tell us about the education programs that are 
now zeroed down in your budget request?
    Mr. Lightfoot. Yes. What we did is--or what we have been 
doing for a while is doing an assessment around our outreach 
activities that we do and our education activities that we do 
and trying to better do--do those a little more effectively or 
efficiently from an Agency standpoint.
    What we felt was that we still have several activities 
going on within each of our Mission Directorates, Science, 
Space Technology, Human Exploration, and Aeronautics that 
actually still do research fellowship programs with 
universities, still do STEM activation in the science 
community, and we felt we could balance those better. The 
decisions we made, we thought we could still do the outreach 
and do it a little more effectively going forward.
    I don't deny that the programs have been pretty successful 
for us, but we felt like in the balance of things we could do 
this more effectively in a different way.
    Mr. Rogers. Well, you couldn't beat the kind of outreach 
that I experienced back last August, a year ago, where the 
students in Leslie County, mountain area--very remote--every 
student in that elementary school gathered in the gymnasium and 
hooked up with a----
    Mr. Lightfoot. International Space Station.
    Mr. Rogers [continuing]. International Space Station. And 
the astronauts did a fantastic job, by the way, for an hour. 
That will be in the minds of those young people from here on. 
And that is the kind of thing that I think we need to do more 
of, inspiring the up-and-comer young students who have no other 
way to understand and learn about what space is all about.
    Mr. Lightfoot. I completely agree, and we will continue to 
do down links from the International Space Station with 
schools.
    Mr. Rogers. You have got the only classroom there is in 
space.
    Mr. Lightfoot. I have also got a school of your kids over 
at NASA headquarters right now that are in town. One of the 
students reached out to me directly in an email and said they 
want to know more about NASA. It is one of the--from Kentucky. 
And I was supposed to do that, but you guys scheduled a hearing 
or I would have been talking to them right now.
    Mr. Rogers. Mr. Chairman, can he be excused?
    Mr. Culberson. Anything for Kentucky.
    Mr. Rogers. Thank you.
    Mr. Lightfoot. No, they are very excited, though.
    Mr. Serrano. Two Kentucky launchings?
    Mr. Rogers. Yeah.
    Mr. Serrano. Not bad.
    Mr. Culberson. Thank you, Mr. Rogers.
    Mr. Kilmer.
    Mr. Kilmer. Thank you, Chairman.
    And maybe, just to begin, I would like to echo the comments 
of Chairman Rogers. We had a NASA explorer school in my 
district, and I got to visit, and the kids were mesmerized. It 
was really amazing. Someone presented a slide that showed a 
giant hole on Mars. I joined every one of the children in 
walking out of that gymnasium, and calling my wife and saying, 
``did you know there is a giant hole on Mars and we don't know 
how deep it is?''--it was awesome. It was really cool, really 
inspiring.
    I share the concern that defunding the education activities 
at NASA would jeopardize that sort of excitement.
    Last Congress I worked with NASA to write and introduce a 
bipartisan bill called the United States and Israel Space 
Cooperation Act. It was recently reintroduced, and it seeks to 
recognize and strengthen our longstanding and mutually 
beneficial partnership with Israel on peaceful exploration of 
space.
    Do you see opportunities for NASA to partner with the 
Israel Space Agency? And can you give us a sense of what 
efforts are currently underway in that regard?
    Mr. Lightfoot. Yes. We already participate with them with 
our GLOBE program, aeronaut program. These are things that they 
participate with us on. We also see some opportunity maybe in 
the SmallSat/CubeSat arena that we will be looking at, and we 
continue to have the dialogue with them today.
    I would leave the aperture pretty open and see what--what 
we find when we work with any of our international partners, 
because we work with so many, is they have niche areas they are 
interested in. Oftentimes, they can fill the areas that--they 
can fill spots for us in doing those things. I think we will 
continue to work with Israelis just like we have already.
    Mr. Kilmer. Is it correct that during NASA's Exploration 
Mission-1, they will be testing a radiation vest from StemRad, 
which is an Israeli company?
    Mr. Lightfoot. I know at one time that was in the planning. 
Can I get back to you for the record on that?
    Mr. Kilmer. Yeah.
    Mr. Lightfoot. I definitely know it was----
    Mr. Kilmer. I know that there is some interest in it 
because it helps kind of get a sense of the effects of deep-
space radiation.

                      IN-SITU RESOURCE UTILIZATION

    Mr. Lightfoot. Yes, sir.
    Mr. Kilmer. I also want to ask about just the cost of 
access to space. As you know, it currently costs $15.6 million 
per metric ton to get to geostationary orbit with a maximum 
payload. If, however, you refueled a rocket in low Earth orbit 
en route to geostation orbit, the price drops to $12.5 million, 
and the payload can increase more than twofold. Even better 
savings can be realized if we utilize on-orbit refueling for 
both Moon and Mars missions.
    So there has been, I think, increasing interest in using 
asteroids as a launching pad for that. They have the capacity 
to unlock the solar system's economy. Can you give us a sense 
of where asteroid resource utilization is in NASA's exploration 
roadmap?
    Mr. Lightfoot. Well, of course, in this proposal we 
canceled the asteroid redirect mission where we were going to 
bring one back. For us, what we are trying to do is understand 
how we can use any resource of any body, not just asteroids, 
how can you do it. We call it in-situ resource utilization, 
where we can utilize the stuff that is there when we get there 
as opposed to bringing it with us.
    That is where we are today. I know there is quite a bit of 
interest in the commercial arena. We had several companies come 
talk to us about doing mining, say, on the Moon.
    Mr. Kilmer. Sure.
    Mr. Lightfoot. To me, that is a great--from my perspective, 
that is a great example of a public-private partnership where 
somebody in the private industry has an idea and we can help 
enable them, as we have done with some of the other things we 
are doing.
    Mr. Kilmer. Last week--and this has come up in a number of 
our subcommittees. Last week, Politico had an article that said 
the White House has been telling agencies not to respond to 
questions from Congress if those questions came directly from 
Democratic members. For example, at a hearing in May, the 
acting administrator of the GSA said, quote, ``The 
administration has instituted a new policy that matters of 
oversight need be requested by the committee chair.''
    To your knowledge, has either the White House or the Office 
of Management and Budget approached NASA about implementing 
that type of policy that would prohibit answering questions 
from Democrats?
    Mr. Lightfoot. No. No.
    Mr. Kilmer. Good. Thank you. I am pleased to hear that.
    Do I have a little more time? Let me ask just quickly. We 
have heard a lot about NASA's desire to enable the commercial 
space industry by, first, focusing on the commercialization of 
low Earth orbit. The commercial space industry has said it is 
important to know NASA's low Earth orbit requirements to help 
with their planning for future commercial space station 
capabilities.
    Can you talk about how NASA is working with the commercial 
space industry to communicate your residual low Earth orbit 
requirements to industry?
    Mr. Lightfoot. Yes. There is numerous ways we are doing 
that. We are looking at the technologies we need to develop for 
us to move onto deep space. We are looking at what would be 
required from a health and human perspective for crews. We have 
a plan on the International Space Station today to retire those 
risks, right. If we don't, you know, there is going to be 
things that we aren't going to completely retire. As we don't 
finish those things as we move on out, we are going to need 
people to actually be there to help us to retire--continue to 
work on those risks going forward.
    We have a good list. We provide it in different ways: 
through broad area announcements, through RFIs that we put out 
for people to say is anyone interested or working on a 
technology they could do this for us. That is the way we 
usually do it, from that perspective.
    Mr. Kilmer. Terrific.
    Thank you, Mr. Chairman. I yield back.
    Mr. Culberson. Thank you very much, Mr. Kilmer.
    I recognize Mr. Palazzo.

                  Congressman Palazzo Opening Remarks

    Mr. Palazzo. Thank you, Mr. Chairman.
    Mr. Lightfoot, you talked about accelerating the SLS to 
include a manned EM-1 mission. The feasibility report last 
month said it was technically possible to do so, but NASA 
decided against it now that SLS and Orion budgets are down and 
the timeline has slipped to 2019. That leads to my question: 
Can you walk me through both the decision not to pursue a 
manned EM-1 mission and the delay to 2019?
    Mr. Lightfoot. Yes, sir. Let's start with the EM-1 crew 
decision first, if that is OK. We asked for the feasibility of 
this. We asked several teams to get together and decide what 
happened. Of course, we have been doing this for a while not 
expecting to put crew on EM-1. The first thing we had to do is 
go back for like 3 years and say what decisions have we made 
that you need to reopen now that we are going to put crew on 
there, from a risk perspective, a technical risk perspective.
    We did the technical risk assessment, we did a schedule 
risk assessment, and then we did a cost risk assessment when we 
went through it. It came out that it was feasible. I mean, we 
could absolutely do this, but what it cost us was it was going 
to cost us more, it was going to push the schedule out, and 
then there we were going to accept more technical risk.
    Really what it kind of did for the most part is it 
validated our original plan, which is we need to do this test 
flight. However, in the process of doing that, we found two or 
three pretty critical areas that we need to do some more work 
on.
    The heat shield on Orion, there was some questions about 
some of the things we wanted to do there. There were some 
questions around some of the systems in the European service 
module, and we wanted to make sure we understood those better 
before we flew the first mission, even if crewed or uncrewed. 
Then there is an ascent abort test we were going to do after 
EM-1 that I think we are going to pull forward now, because we 
think it is important to go ahead and get that done.
    The study itself was really good in identifying some of the 
critical things.
    As far as the date for EM-1, crewed or uncrewed, the first 
date for the uncrewed mission, when the tornado came through 
Michoud, we were already dealing with some weld issues. We were 
trying to do a weld on a tank that we haven't done before, and 
that is just kind of a technical challenge for us that we are 
working through. The tornado came through. We lost access to 
the area where we are, or where we were doing the welding, for 
about, ah, depending on how you look at it, it cost us 1 or 2 
months, probably a little more, actually, when it is all said 
and done, and we are struggling with this weld.
    The move of the date was more related to the fact that we 
are having the technical challenges with this weld schedule 
that we have got to go do. I think that is probably the best 
summary. I hope I got that for you, sir.

                       SPACE LAUNCH SYSTEM STATUS

    Mr. Palazzo. That works well. And so going back to the 
tornados that went through Michoud, and because the majority of 
the SLS components are manufactured there, including the 
welding, you said--I think you just said it might be a 1- to 2-
month delay. Is that all you see from the damage that happened 
at Michoud or could there be more slippage?
    Mr. Lightfoot. Yes. We are looking at that now, right. We 
owe a report back probably next week, I think, is when we are 
having the meeting.
    The tornado was part of it. The weld schedule is another 
part of it, and we are trying to assess where that is. The 
tornado wasn't the only thing. It was the weld and the tornado 
coming through.
    Mr. Palazzo. All right. Apollo 17 was known as the last 
moonshot, and it put three astronauts on the Moon. It launched 
December 7, 1972, almost 45 years ago.
    There are a lot of discussions over the past few years 
about a decimation in getting back to deep space. And the 
President has even talked about trying to get a man to Mars in 
the 2020s. Can we do this? And what will it take to get a man 
back on the Moon and eventually to Mars?
    Mr. Lightfoot. My current plan right now is we are looking 
at roughly--when we look at a horizon goal of getting to Mars, 
we look at 2033 as being a good opportunity. There are certain 
windows that are better for getting to Mars than others. We are 
looking at 2033.
    The way we are doing this is we are using the International 
Space Station today as our jumping off point where we can get 
all the technologies developed, understand everything that is 
happening to the human body, right, and then, frankly, enabling 
a commercial industry. We give them a destination and we give 
them the opportunity to get their systems down.
    We will slowly progress out, take a stepping stone process 
to get us out and around the Moon to test further systems that 
we are going to need. It won't be as big as we have in low 
Earth orbit, but there will be systems that we can actually 
use. Think about a backbone or an infrastructure that we can 
then use. From there, we will test those systems for longer 
duration, because we need to be good for 2 to 3 years when we 
talk about going to Mars. Test those systems out and then move 
toward going out to the next step to Mars.
    We look at the decade of the 2020s as kind of our time to 
prove all that out in the--get those systems ready to go so 
that we can then go in 2033 to Mars. It is kind of a stepping-
stone approach, right, that we have. We don't assume any--we 
pretty much assume the current services that we have budgetwise 
today with an increase in inflation as we go forward. That is 
what we assume when we are making these plans. I think that is 
kind of a methodical approach that we take, a systems approach 
to getting there, and I think it is the right way to do it.
    Mr. Palazzo. Well, I appreciate that response.
    And I would like just to mention that I do think it is 
important to be focusing on planetary sciences and looking out. 
There is already over a dozen Federal agencies that study our 
Earth, but there is only one agency tasked with space 
exploration, and that is NASA. And with limited funds, flat 
funding, and budgets, I think our resources are better spent, 
you know, exploring the deep space and not focused on what 
other agencies are already doing.
    Mr. Lightfoot. I understand. One thing, just for 
consideration, there is a lot of analog to learning about Earth 
and how it plays with the other planets, because Earth is a 
planet as well. How Earth evolves, we learn a lot from learning 
about Earth on what could happen to Mars and what could happen 
to Venus. There is a value for us in learning about Earth as 
well. I understand your point.
    Mr. Culberson. Thank you very much, Mr. Palazzo.
    I would like to recognize the gentlewoman from New York, 
Ms. Meng.

                   Congresswoman Meng Opening Remarks

    Ms. Meng. Thank you, Mr. Chairman.
    And thank you to Mr. Administrator for being here today and 
for all this very interesting work. As a new member of the 
committee, I am learning a lot.
    I want to, first, thank you and NASA for conducting so much 
important research on the commercial air transportation system 
and flight noise situations. And I just wanted to get your take 
on why research of excessive flight noise and noise mitigation 
is important to NASA and to our country.
    Mr. Lightfoot. Yes. Well, clearly, aviation travel has 
become a big deal now. I mean, it has gotten routine for those 
of us that travel a lot, and we like to say NASA is with you 
when you fly. There is a lot of systems on every airplane and 
in every airport that we have worked with our partners in the 
FAA to develop over time.
    Noise mitigation is a clear one, right, when you have so 
many people moving in closer and closer to airports. We have 
what is called technical challenges in our aeronautics area 
that work on aviation safety. They work on the environmental 
responsive activities that we do, whether it is cleaner fuel or 
whatever it is that we use for aircraft, but they also do noise 
abatement as well.
    All of those are critical to us in terms of making sure 
that our aviation industry is a good neighbor for everyone, 
what they are dealing with, but also still being reactive to 
what we need as customers in that arena as well. That is what 
we think our role is.

                       AIRCRAFT NOISE MITIGATION

    Ms. Meng. For noise mitigation, from an environmental 
perspective or a safety perspective, why is noise mitigation 
important?
    Mr. Lightfoot. I think--well, noise mitigation is really 
the good neighbor, right. I mean, if you think about 
environmental, environmental is not just biofuels and things 
like that. It is also the noise pollution, right. Our job is, 
again, as things move closer and closer around airports, you 
have got to be a good neighbor.
    I think that is some of the stuff we are trying to do to 
decrease the noise levels and help set those better.
    Ms. Meng. Do you think there is more that the Federal 
Government can do, whether it is NASA or other agencies, to 
combat this issue of noise mitigation? My district is in 
between the two airports, LaGuardia and JFK in Queens, New 
York. New York is considered to be the busiest and most complex 
air space in the country.
    Currently, NASA invests in aircraft technology such as the 
X-Plane and air traffic management and operations, which would 
limit the effect of noise and amount of time planes are spent 
hovering low over neighborhoods. What are you doing in the 
coming year to address airplane noise?
    Mr. Lightfoot. Well, like I say, we have a program and 
several activities in place. What I would like to do, if it is 
OK, is get my team up here and let them bring you exactly what 
we are doing in that arena. I think that would be better than 
me trying to try to pull it off the top of my head. If I could 
do that, I think you would find it fascinating what the teams 
are trying to do.
    Ms. Meng. And do you have any suggestions if other agencies 
could do more to be helpful in this area?
    Mr. Lightfoot. I am just not familiar enough to know. I 
mean, we work with FAA on these things quite often, obviously. 
They are a partner for us. When the teams come up, we will make 
sure they bring that forward if that is OK.
    Ms. Meng. OK. Thank you.
    Another question. The amount of manmade debris orbiting 
Earth grows every year disrupting our satellites and putting 
astronauts in harm's way. If current trends in space junk 
continue, low Earth orbit could become unusable for our future 
satellites and missions. We heavily depend on the communication 
capabilities provided by these satellites, and I am concerned 
about the economic impact of future space debris collisions and 
what that would mean for our communications infrastructure.
    What is NASA currently doing to mitigate space debris? And 
are there plans to actually remove debris? And how is NASA 
planning to increase these activities moving forward?
    Mr. Lightfoot. Right now, in--I will take that in pieces. 
Today when we launch, we have requirements that will make us 
de-orbit things, like the second stages of rockets. We have to 
carry enough fuel to be able to de-orbit so they don't stay up 
there. That is one thing that we do, and everybody has to do 
that.
    We didn't do that back in the 1970s and the 1960s, so there 
is a lot of stuff still up there. The only thing we are doing 
inside NASA is we are working on technologies, very small 
amount. I don't want to imply that there is a big amount here, 
but it is a very small amount on technology and studies around 
what you could do.
    We haven't had the charter to go do that. I am not sure 
that is our charter necessarily, but we know it is a risk. We 
all understand it is a risk going forward. So far, that is what 
we have been doing as far as orbited debris goes.
    Ms. Meng. Thank you. I yield back.
    Mr. Culberson. Thank you very much.
    I will recognize the gentleman from West Virginia, Mr. 
Jenkins.

                  Congressman Jenkins Opening Remarks

    Mr. Jenkins. Thank you, Mr. Chairman.
    Administrator, thank you for being here.
    Chairman Rogers referenced Rocket Boys and October Sky. I 
am proud to be the Congressman from the Third Congressional 
District, and talked to Homer Hickam just a couple of weeks 
ago. He is doing well, and we are certainly very proud of that 
kind of ingenuity and spirit from our State.

                             NASA EDUCATION

    Also similar to Congressman Rogers, talking about the 
education, you know, we are not Florida. We are not Texas, but 
NASA has a real impact. And I know we have some of the 
brightest minds that, when given the chance to compete, they 
win. Look at the centennial challenge. You are nodding. I 
appreciate it. You know where I am going with this.
    Our WVU students in 2014 won the level one challenge. For 
those who aren't familiar, this is where NASA has challenged 
the citizens, the public, to say help us, NASA, solve big 
problems and issues. And you put out the marker making it a 
competition, and West Virginians stepped up to the plate in 
2014. WVU students won level one. And in 2015, 2016, the only 
team to have won a level two twice.
    So whether it be Homer Heckam from Rocket Boys to WVU 
students winning national competitions, there is a lot of 
exciting things and capabilities and talents from West 
Virginians.
    I want to go back to your opening statement where you talk 
about consistency of purpose. You identified the three areas of 
influence and your mission statements. And then, again, 
Chairman Rogers raised the issue about the same concerns I 
have, the defunding, the elimination of the Office of 
Education, the EPSCoR programs, things that are so important to 
a State like West Virginia that doesn't have the big NASA 
assets but is doing good work in support of NASA.
    In one of your previous answers, you said, well, we are 
doing this to, quote, be more efficient in a different way. And 
I would like for you to explain for me a little more about how 
you were taking these programs that are proving very successful 
in my State, and are you able to reassure me that while, yes, 
we are zeroing out here, we can reassure you that we are going 
to be efficient and effective but just in a different way, and 
you will continue to have that level of support.
    I want to understand what being more effective in a 
different way really means and how that impacts the programs 
that mean so much in West Virginia.
    Mr. Lightfoot. Yes. I think the way we look at it in the 
Agency is, what we found is that we have an education program, 
right. We have outreach that a lot of the mission support--or 
missions do on their own. How can we sync those together so 
that they actually get--we get an economy of scale between the 
two instead of them being stovepiped?
    In the example you used with WVU, that actually is not an 
education program, that was actually in our Space Technology 
Mission Directorate. We are looking at the centennial 
challenges there, right, where the guys were working there. We 
are looking at where we can use our missions more instead of a 
stovepiped education thing so that we can leverage what we need 
in our missions and get, just like you said, get the kids 
engaged in solving those solutions for us.
    We really--we started this long before the budget 
discussion as part of our baseline services activity we have 
been doing, not just in education and outreach, but in 
procurement and human capital and other areas to say, how can 
we leverage our things better and run the agency a little more 
efficiently?
    That is what I mean by effective and efficient. If we can 
start connecting the dots between what the missions need and 
the money they are already spending and engage using some of 
the way we think about engaging the educational institutions so 
we can go forward.
    Space technology has their--they have a research fellowship 
that is still in there. We have the STEM science activation 
program that science does still, those kind of activities, and 
then there is a university innovation and challenges activity 
that is in aeronautics. So we are using our missions to fund 
those kind of things to engage the workforce.
    Mr. Jenkins. Well, 10, 15 years ago, I served on the EPSCoR 
advisory board. So are you--I want to try to cut to the chase, 
are you telling me that the EPSCoR funding or similar funding 
will still be there but from a different source or are you 
cutting out that funding and just going to be doing other 
things in other areas that are more efficient?
    My direct question is, will EPSCoR funding be there in some 
form or fashion and the other kind of education resources that 
have been provided?
    Mr. Lightfoot. Yes. We have proposed no EPSCoR space grant 
from your end. There is nothing proposed there. We are going to 
see how can we get similar results in a different way. It is 
definitely not in there.
    Mr. Jenkins. Well, I will be going to bat because I do 
believe EPSCoR has been very effective. That is how we are able 
to compete, these students. So I appreciate your directness 
and, again, look forward to working with the chair and the 
committee to try to advance the priorities that I think are 
important from a funding standpoint.
    Thank you, Mr. Chairman. I yield back.
    Mr. Culberson. You bet. Thank you, Mr. Jenkins.
    I will recognize the gentleman from Pennsylvania, Mr. 
Cartwright.

                 Congressman Cartwright Opening Remarks

    Mr. Cartwright. Thank you, Chairman Culberson and Ranking 
Member Serrano.
    Mr. Lightfoot, thank you for being here this afternoon.
    I am particularly concerned about the proposed cuts to 
NASA's climate science programs. The administration has 
expressed the view that NASA should be focused on outer space 
and leave the job of observing Earth to other agencies. But 
NASA's unparalleled experience and expertise in developing new 
observational technologies and launching satellites makes it a 
crucial part of the Earth Science enterprise. NASA's wealth of 
engineering expertise is virtually impossible to replicate in 
other agencies.

                           NASA EARTH SCIENCE

    Now, while NASA's fiscal year 2018 overall budget proposes 
only a 0.8 percent cut, it proposes reducing funding for Earth 
Science by as much as 9 percent. Now, to achieve this 9 percent 
reduction, which is hugely out of line with the cuts and the 
other part of the budget for NASA, to achieve this, funding for 
five Earth-observing missions is completely eliminated. These 
missions would plug crucial gaps in our understanding of 
Earth's complex climate and how it is changing.
    The first question I have for you is about OCO-3. The 
budget terminates Orbiting Carbon Observatory 3, OCO-3, which 
measures carbon dioxides from space. The administration's 
budget justification explains that OCO-2 is already measuring 
what we need, but this isn't quite the case.
    OCO-3 improves on at least two OCO-2 limitations. It would 
be able to measure carbon fluxes at different times of the day 
and it could pinpoint specific locations on Earth to, for 
example, measure emissions from different cities, land versus 
ocean ecosystems, and detect signs for drought stress in crops 
before such signs become visible to the naked eye. These are 
things that the OCO-2 cannot do.
    Is it the administration's belief that we don't need to 
know where carbon emissions are coming from? Is there some 
other way to get that data that OCO-3 would provide?
    Mr. Lightfoot. Well, for OCO-3 in particular, what we did 
is we--I think I said, and you may not have been here. What we 
did is we did kind of a systems engineering approach to all the 
Earth Science missions and said where can we get the data that 
is there, and which ones from a standpoint of the science, as 
defined in the Decadals, the performance of their--the current 
performance in terms of how they are performing to get ready to 
fly, were the way we looked at this, and then where can we get 
the data from somewhere else, even if it is not at the 
resolution that folks want, from a risk perspective, right.
    That is how we made the decisions that we made with CLARREO 
Pathfinder, OCO-3, RBI, and PACE. I mean, that is the way we 
step through it trying to balance the entire portfolio. We 
still have 20 operating missions. We still have an airborne 
science campaign. We still believe we are spending $1.7 billion 
on Earth Science and have a pretty good portfolio to allow us 
to understand what is happening here.
    Mr. Cartwright. All right. Next question. The budget 
proposes elimination of the Climate Absolute Radiance and 
Refractivity Observatory, CLARREO, CLARREO Pathfinder, an 
instrument designed to improve a source of uncertainty in 
climate science, one that comes from Earth-observing 
instruments themselves. CLARREO offers scientists the data they 
need to produce highly accurate climate records as well as 
refine and test climate projections, the kind of projections 
that might inform decisions on how to respond to rising sea 
levels, rising global temperatures, declining air quality.
    CLARREO was identified as a high-priority NASA mission in 
the previous Earth Science decadal survey. NASA has labeled the 
CLARREO Pathfinder mission a risk-reduction mission. How does 
its elimination affect the goals of CLARREO and CLARREO's 
future launch? And does NASA plan to continue the CLARREO 
program in general?
    Mr. Lightfoot. When we did CLARREO Pathfinder--the reason 
we didn't do CLARREO to start with is because it was a very 
expensive mission, potentially over a billion-dollar mission. 
What we want to do is use Pathfinder, which we can put on the 
International Space Station, utilize the International Space 
Station, to do risk reduction toward the bigger mission down 
the road.
    With a new decadal coming out this year, in 2017, we 
cancelled Pathfinder to see how CLARREO actually ranked in this 
next decadal before we actually talk about spending that kind 
of money going forward. That is why we have cancelled 
Pathfinder, to see what the decadal says coming back.
    Mr. Cartwright. I thank you, Mr. Lightfoot.
    And I yield back, Mr. Chairman.
    Mr. Culberson. Thank you very much, Mr. Cartwright.
    I recognize the gentlelady from Alabama, Mrs. Roby.

                   Congresswoman Roby Opening Remarks

    Mrs. Roby. Thank you, Chairman.
    Thank you, Administrator, for being here today.
    Great nations dare greatly, and the exploration of space is 
an unlimited challenge but one that the United States dared to 
pursue and an area where we have led from the 1960's into this 
new century. Recently our resolve to lead in the exploration of 
space has faltered. And I am very hopeful in this Congress, and 
this new administration, that we have a chance to regain the 
initiative and reaffirm our leadership into space.
    And I share concerns that my colleagues have already shared 
with you. But I know with your background and in your current 
position, you obviously understand the important role that 
Marshall Space Flight Center, located in Huntsville, plays in 
NASA's vision in testing and operations into deep space. You 
have already talked somewhat at length about SLS and the 
missions even into the outyears, so we won't go over that 
again.

                       NUCLEAR THERMAL PROPULSION

    I do, however, want to talk about NASA's plan for nuclear 
thermal propulsion technology. If you could just kind of go 
over the scope, the schedule, and the cost of the initial test 
for this on the ground, that would be very helpful.
    Mr. Lightfoot. What we are trying to do is do some of the 
early technology risk reduction in nuclear thermal propulsion. 
A lot of that has got to do with materials. We have got some 
work that we were doing in 2017, in the 2017 budget, I think 35 
million in space technology to work on different options to get 
us to kind of, I don't want to say a down select, that is a 
little strong, but to get us to see which path we need to take, 
because the next step is going to be a pretty big one for 
nuclear thermal propulsion.
    We think nuclear thermal propulsion gives us an option to 
reduce the transit time. I mean, that is the value proposition 
of that so that we can keep crews--we can get crews to and from 
quicker from the radiation perspective. It also gives us some 
other advantages on some deeper space probes that we could use, 
some early looks at doing things faster.
    Right now, it is really just a technology development 
program trying to knock down some of the what I would call the 
risks associated with materials going into that.
    Mrs. Roby. There are no specific target dates or a 
timeline?
    Mr. Lightfoot. Not yet. Not until we understand the--not 
until we get a feel if the technology can actually be done, 
because I don't really want to put a date out there if we don't 
know what is in front of us yet.
    Mrs. Roby. Sure. I understand. Just please keep us posted.
    Mr. Lightfoot. Oh, yes.

                         ADDITIVE MANUFACTURING

    Mrs. Roby. My next question is about the additive 
manufacturing on rocket propulsion. And in the fiscal year 2017 
Consolidated Appropriations Act, enacted just a few weeks ago, 
Congress provided 25 million in funding to continue additive 
manufacturing efforts. So what is the plan for this 
appropriation? Does NASA intend to allocate the entire 25 
million Congress appropriated for this project? If not, why? 
And maybe talk a little bit about what NASA centers are 
involved and what roles they are playing here.
    Mr. Lightfoot. Additive manufacturing is a game changer for 
everybody. It is an interesting way to manufacture. From a 
propulsion perspective, we think there is a big advantage in 
engine parts and simpler engine designs. Some of our commercial 
folks are doing this already and proving that it works pretty 
well.
    We are looking at a lot of the material properties that 
come with additive manufacturing going forward. We know it is 
in the 2017 appropriations direction. You will see that when 
the operating plan comes up. Going forward, we intend to spend 
the 25 million on that. That is our plan right now.
    Mrs. Roby. Well, it is absolutely fascinating to see, and 
like you said, a huge step.
    So with the risk of knowing that this might upset half of 
my constituency, I would be remiss if I did not tell you, 
``Roll Tide.'' We are very proud of you, and all the time that 
you have spent in Alabama, and congratulate you on this role, 
and look forward to working with you down the road. So thank 
you, again, for being here, and thank you, Mr. Chairman.
    Mr. Lightfoot. Thank you.
    Mr. Culberson. Thank you, Mrs. Roby.
    It is my pleasure to introduce the gentleman from Alabama, 
Mr. Aderholt.

                  Congressman Aderholt Opening Remarks

    Mr. Aderholt. Thank you, Mr. Chairman.
    Administrator, welcome. Good to have you here today. And 
thank you for your many years of service to this country as an 
employee and manager at NASA. I have enjoyed having a chance to 
work with you over the last several years.
    Of course, NASA is an Agency whose budget has been 
constrained for many decades, especially when you compare it to 
a lot of other agencies here in Washington. So your 
accomplishments and your service are certainly much 
appreciated.
    Americans and really, I think, the entire world are very 
interested in your Agency and it is impossible to cover all the 
topics in one hearing, but I do want to touch base on just a 
couple of things, and I want to follow up with one of the 
issues that we just were referring to.
    Some Members, such as myself, voted for the NASA 
authorization bill in 2010 with the understanding that SLS and 
Orion would be supported by the administration with a launch 
date of late 2017 or early 2018. That support turned out to be 
tepid with a low budget request.
    That bill also included an administration priority, the 
creation of a new space technology account. It is not easy for 
Congress to shoehorn a new account of over $500 million into a 
tight top-line budget.
    Solar electric propulsion has been robustly funded and 
holds promise of prepositioning supplies as part of a deep 
space mission. Its slow speed, however, makes it too slow to 
consider for human transport to Mars, as it was noted in the 
Augustine Commission.

                 NUCLEAR THERMAL PROPULSION ACTIVITIES

    As we have just noted here with my colleague from Alabama, 
nuclear thermal propulsion could be added to our family of 
propulsion systems to provide a shorter and safer journey to 
Mars for human mission and it would make more time available on 
mission once the astronauts arrive. Congress directed 35 
million to be spent on nuclear thermal propulsion in the fiscal 
year 2017 bill.
    My question, does NASA have a plan yet for focusing on 
those contracts, on work related to propulsion, or are the 
funds being broken up and used for nuclear work not related to 
propulsion?
    Mr. Lightfoot. I think we have a plan. I can't speak at the 
level of detail for the contracts. I would have to bring you 
that information. I would probably need to bring it to you for 
2017. I know we are building out a plan now where the 35 
million is actually all being spent and how we are actually 
deploying it out. If it is OK, I would like to take that for 
the record.
    Mr. Aderholt. Yeah, please.
    But you see where I am going with this and how we might 
could try to address that.
    Mr. Lightfoot. Yes.

                            NASA CONTRACTING

    Mr. Aderholt. The other thing is I just want to mention 
contracting philosophy. There is no type of contract that is 
perfect, as you well know, and the FAR contracts have received 
a lot of blame for past problems. After all, it is my 
understanding it is possible to put penalties into contracts. 
FAR contracts offer opportunities to audit work and to know 
where the taxpayer dollars are actually spent. They offer the 
opportunity for companies to lodge a complaint with the GAO if 
competition criteria were changed midstream.
    OTA contracts do not offer the taxpayer the same 
protections. When a company has already developed its hardware 
with its own money and has a healthy business model, even 
without government contracts, OTA agreements can be helpful. 
Although the commercial cargo and commercial crew programs were 
presented by the previous administration as merely purchasing 
services, in reality the taxpayer is paying 80 percent or more 
to develop hardware for the big ticket projects.
    Moreover, to assume that a FAR contract would be more 
expensive is essentially a straw man argument. When a company 
proposes to take astronauts to the International Space Station 
for $20 million a seat, and then in 2017 the estimate is almost 
$60 million a seat, the question is, why is the estimate 300 
percent off the real price?
    If NASA were any kind of business, someone would certainly 
be held accountable for a big cost estimate mistake, especially 
when that first price is used as a reason for abandoning a FAR 
contract and a transparent competition process.
    We need a more vigorous assessment of commercial launch 
programs which compare the promises to the results, not a 
comparison with the unsupported assumption that a FAR contract 
would have been more expensive.
    Let me say, I think that public-private partnerships are 
good when the private investment is openly reported and when 
the taxpayer is protected by realtime penalties instead of 
possible discounts for a service that will be in the future.
    So I just wanted to ask you, would you be open to creating 
more transparency and more reporting in regard to contracts 
overall?
    Mr. Lightfoot. I think, for us, we use the entire spectrum 
of our acquisition strategy process. I mean, we have several 
mechanisms we can use, several vehicles, including things in 
the NASA FAR supplement.
    We are learning how to do this public-private partnership 
as well, right, and the kind of things that we need to learn. I 
think what I would commit is we are going to learn from these 
and we are going to make sure we are doing the right thing for 
the taxpayer on anything we do in the future. I think there is 
an advantage with public-private partnerships for us to get 
services and even products in a different way.
    What we do--or what I do, I actually chair most of these 
discussions--is the acquisition strategy meetings where we 
actually decide what kind of mechanism are we going to use, and 
every time we bring in the lessons learned from the last time 
to make sure we are doing the right thing. That is what I will 
commit to you, that we use the lessons learned.
    Mr. Aderholt. Well, let me say, again, public-private 
partnerships are good when the private investment is openly 
reported. And I think that at the bottom line we want to 
protect the taxpayer.
    So thank you very much.
    I yield back.
    Mr. Culberson. Thank you, Mr. Aderholt.
    Mr. Administrator, NASA yesterday announced the newest 
astronaut candidate class of 12 highly qualified individuals, 
as you said, from over 18,300 applicants. We congratulate them 
and I know everyone on the subcommittee joins me in saying how 
pleased and excited we are to be able to support them in the 
years ahead as they engage in one of the greatest of human 
adventures.

                HUMAN EXPLORATION BEYOND LOW-EARTH ORBIT

    Given that NASA continues to recruit and train new 
astronauts, would you please describe the Deep Space Gateway 
concept which sets a goal for human space exploration beyond 
low-Earth orbit and which could support multiple missions in 
cislunar space on the path towards eventually sending humans to 
Mars?
    Mr. Lightfoot. Yes. What we have been looking at is what is 
the infrastructure we need, the kind of backbone for doing this 
human exploration that we want to go do. We, at very much a 
conceptual level, we started talking about the systems we are 
going to need in cislunar space, around the Moon basically, 
that we can then use to either do work at the Moon or use to 
progress our missions out further into space, Mars, wherever we 
want to go.
    So a simplified version of that is, can we set up really 
three pieces, a habitat, a power propulsion module, and an air 
lock, right, is really the kind of the core of this thing. 
Imagine this as a node that is out there around the Moon. You 
can go there. You can dock. You can do telerobotic operations 
in the Moon. You can move this around using solar electric 
propulsion that we had from the ARM or move this gateway 
around. You can also connect there with whatever you are going 
to take, the vehicle you are going to go to Mars in, and you 
can use that as the node where you leave from there to go out.
    We think it is a good structure. It offers a lot of 
opportunities for our international partners to engage with 
things they may want to do at the Moon, but also to help us 
with what we need to do. It offers opportunities for private 
industry. We have a lot of folks that have come to us and 
talked to us about how they could utilize going to the Moon and 
use this as an opportunity.
    We are excited because of the Space Launch System, the 
advantage to the Space Launch System, and what it does. We can 
actually carry the crew and the pieces in the trunk of the 
Space Launch System because of its lift capability. If we need 
to do anything, we will have the crew there with it when we are 
deploying those things out in cislunar space.
    We really think that it really opens things up for us in 
terms of taking those next steps. What we have done, from a 
planning perspective, at a really high level, and we are still 
working with the administration on this, is we put in kind of 
what each exploration mission with the SLS and Orion would do, 
and which part it would take, and how we would put that in 
place in the decade of the 2020's.
    So that is kind of our notional plan at a conceptual level. 
We think it really does--it is done within the current 
resources we have, considering escalation. We didn't assume 
anything extra. That is just kind of how we put it together. 
That is what we are trying to do from a human exploration 
perspective.
    Mr. Culberson. So the first launch of the first piece of 
this would be approximately when?
    Mr. Lightfoot. Well, right now we are notionally saying 
EM2. When we take the first crew, we would like to take the 
power propulsion module in the trunk when we go.
    Mr. Culberson. That is terrific.
    This power propulsion module would essentially be like a 
solar electric propulsion system?
    Mr. Lightfoot. It would build right off the bus that we had 
for the Asteroid Redirect Mission.
    Mr. Culberson. Right.
    Mr. Lightfoot. It would build off that bus. We would 
probably make it smaller than we were going to have for 
Asteroid Redirect Mission. The smaller part is actually good 
for us because it is more commercially viable for other uses of 
a solar electric propulsion bus. The one we were using for the 
Asteroid Redirect Mission was a little larger than anybody 
would really need for GEO or anywhere else that they want to go 
do.
    I think the advantage is that it kind of gives us--it puts 
us in kind of a leadership role in cislunar where people can 
come work with us going forward.
    Mr. Culberson. In essence, you would be assembling a 
smaller version of the space station in polar orbit around the 
Moon?
    Mr. Lightfoot. We would be able to move it where we wanted 
to move it.
    Mr. Culberson. Because it is solar electric propulsion. But 
it would be a smaller version of the space station?
    Mr. Lightfoot. A lot smaller.
    Mr. Culberson. A lot smaller.
    Mr. Lightfoot. Yes. Again, just kind of a stopping point, 
not really a place to stay. It would be human tended and not be 
there the full time with folks, but people could use it.
    Mr. Culberson. Couldn't you also use it for returning 
samples from deep space, from the asteroid Bennu or from, for 
example, Mars 2020, it could be used to stage samples returning 
to Earth?
    Mr. Lightfoot. That is what we think, and then you 
basically have a system that gets you from Moon to Earth, and 
you have one that can go anywhere, and it becomes the hub that 
you go back to.

                               MARS 2020

    Mr. Culberson. Talk to us, if you could, a little bit about 
Mars 2020. This was one of the top recommendations of the 
Planetary Decadal Survey. How is Mars 2020 mission progressing? 
Are there any concerns with meeting the 2020 launch date? And 
what are the plans for collecting and returning to Earth 
samples collected on Mars 2020?
    Mr. Lightfoot. The teams are doing great. We have had 
several reviews on it. We look like we are performing. The 
heritage system, the ones we basically brought from the current 
Curiosity rover that is on Mars now, they are being put 
together pretty well. The instruments are having what I would 
call typical challenges as they go through there. We did 
critical design review here recently, I got an outbrief on 
that, and things are going well. I think we are on track for 
2020. It looks good.
    Mr. Culberson. For 2020 launch?
    Mr. Lightfoot. Yes.
    Mr. Culberson. Terrific. Thank you very much.
    Mr. Serrano.

                             FUTURE OF NASA

    Mr. Serrano. Thank you, Mr. Chairman.
    You are on the track that I was going to lead you into 
already. Some of the members have asked the chairman has asked 
a lot of questions. And that is, basically, what do you see as 
the future of NASA?
    The reason for that is, there was an excitement, and I 
think it is missing from the public. And it might be related to 
manned travel, or, you know, man/female travel. As long as 
humans are on the ship, then it makes for excitement. When they 
are not, then it doesn't make for excitement. But at one time 
that is all you spoke about. And now you have Members of 
Congress opposing the NASA budget. In fact, I don't want to get 
partisan, but Vice President Pence, when he was here in the 
House, proposed getting rid of the Moon/Mars program.
    So what do you see as the future of NASA? Or does NASA have 
a public relations problem that there is more going on than the 
public knows?
    Mr. Lightfoot. Well, I will probably leave the public 
relations part out. I am not a public relations expert.
    Here is what I see the future of NASA. I think our job is 
pretty fundamental. We do advanced research, we lead discovery, 
and we gain new knowledge for this Nation and, frankly, for the 
world. Part of that is extending humans further into space. 
Part of it is the scientific discoveries we make, and I think 
that is just advancing human knowledge. That is what we do. 
Now, that may not be enough to excite people, but I think it is 
incredible what we do.
    The other pieces that come with that is, I believe NASA has 
a role in the economic development of this country, and what we 
do for the industrial base, that is shared by so many other 
folks in terms of the advances we make and where we go. I 
believe we are, frankly, a strong part of our foreign policy 
with our global engagement and diplomacy. If you look at what 
the International Space Station has done and where we are 
there, it is another piece that we do going forward.
    Our discoveries will continue to inspire. Whether they are 
human or scientific, they continue to inspire. I actually don't 
agree that we are not inspiring people. I think we still do 
just because of the people that follow us and pay attention to 
what we are doing.
    I think that is what we will continue to do. We will 
continue to make the civilization-level discoveries that we do. 
That is why we are here. I can't predict them. I can only know 
that we are sending the right missions based on what we are 
told by our advisers in the national academies on the science 
side, based on our advisers in aeronautics, we are doing the 
kind of game-changing aeronautics we need to do.
    From a human perspective, it is just written in our DNA to 
explore. I think as long as we are exploring--I mean, we have 
been on the space station for 16 straight years. That ship is 
tended. There are humans there. Peggy Whitson just passed the 
record for the longest amount of time in space. She is an 
amazing lady. I just think we will continue that. She inspires 
folks every day, is what she is doing.
    Mr. Serrano. How many years, you said?
    Mr. Lightfoot. We have had a continuous crew for 16 years 
on the International Space Station. Not the same person. Every 
six months we rotate. For 16 years there have been people on 
the International Space Station.
    Mr. Serrano. That is incredible.
    Mr. Lightfoot. One of the things I like to say is if your 
kid just got their driver's license--most kids get them at 16--
there has always been someone in space the entire time they 
have been alive.
    Mr. Serrano. Wow. Well, I am glad to hear your enthusiasm 
about the future, because I was getting concerned, and so were 
some people I know, about how excited is the American public 
about the NASA program and what it means. And with some of the 
things you told the Chairman that are in the works and the 
plans, it may revive what appears to have been lost. And I will 
use the word ``appears.''
    Secondly, let me tell you that I witnessed, as all Members 
of Congress have, the great feeling you get in a school 
building when an astronaut visits. I don't know if you have 
ever had that experience.
    Mr. Lightfoot. Yes.
    Mr. Serrano. I mean, it is just absolutely incredible. I 
mean, these are heroes. This is something children from 
everywhere in the world understand, the unknown, the space 
travel, the rocket ships, or whatever.
    I remember we had a ceremony once where we had flown a 
flag, we were presenting it to a school, and the astronaut came 
to present it. Well, most of the people then, ``What did you go 
to today?'' ``Well, I went to see an astronaut.'' No, you went 
to see a flag being presented to a school, but it became that 
kind of thing. So please keep that kind of work up.

                            NASA AERONAUTICS

    And let me just ask you one last question. The 
administration is proposing a 36 million dollar cut to the 
Aeronautics Account--that is what I get for not wearing my 
glasses--which supports technological advances to our air 
transportation system and the aviation industry.
    At a time when the global economy is extremely competitive, 
don't you think this cut is ill-advised if we are to maintain 
U.S. technological leadership in the aviation industry? Also, 
could you explain the most recent achievements attained as a 
result of our subcommittee funding this account and how the 
American people benefit from it?
    Mr. Lightfoot. Yes. There are several things there.
    Aeronautics. There is a new initiative called New Aviation 
Horizon which has several pieces in it. For the first time in--
I guess I just don't know when--but for the first time we have 
an X-plane. This is going to be the X-plane program, which is 
what NASA used to do in their heyday in aeronautics.
    The first one is a low-boom supersonic demonstrator or 
flight demonstrator. This is for us to demonstrate that you can 
actually fly supersonic across the United States. Today you 
can't legally do that because of the sonic boom. We think that 
opens an entire industry in this Nation. We need to go--we, 
NASA--need to go make sure we have got the technology to allow 
us to do it, and then give it to the industry and let them run 
with it and create the aircraft they need.
    The other things that we do with the budget we have got is 
the air traffic management--big, big issue with us--with our 
partners at FAA. We do a great job with those guys.
    The last thing I will say that we are really working on a 
lot is the traffic management of drones. Our teams are working 
really, really hard with the FAA and building the systems that 
we would do to do traffic management around the unmanned 
aircraft systems, the UTM, the traffic management of these 
unmanned drones flying around. Our teams are leading the way 
there with the research we are doing at Ames Research Center in 
particular. They are just doing a great job leading that.
    I think that is what you are getting, and I think that is 
what our customers are getting. I consider our customers our 
taxpayers out there.
    Mr. Serrano. Thank you.
    I will leave you with this thought. Since I represent the 
Bronx, New York, if you could send the Red Sox on a long, long 
trip, I will be very grateful.
    Thank you. Thank you for your work, and thank you for your 
service to our country.
    Mr. Lightfoot. Thank you, sir.
    Mr. Culberson. Thank you, Mr. Serrano.
    Mr. Cartwright.
    Mr. Cartwright. Thank you, Mr. Chairman.
    I would like to associate myself with the remarks of the 
ranking member except for the part about baseball.
    Mr. Lightfoot, I want to follow up. The administration is 
proposing to terminate the NASA Office of Education. The 
requested fiscal year 2018 budget for the office would support 
only the closeout and transition of existing activities. As you 
did include in your testimony, the Science Mission Directorate, 
SMD, would continue to support certain educational activities, 
but not the existing programs of the Office of Education.

                        NASA EDUCATION PROGRAMS

    The question is, why has the administration chosen not to 
support programs such as the Space Grant Consortia, the NASA 
established program to stimulate competitive research, as well 
as the Minority University Research and Education Project?
    Mr. Lightfoot. I think for us, as I said earlier, I think 
it is just a way of looking at more efficiently and effectively 
measuring our input with the community and how do we engage 
these students.
    The activities that our mission directorates do, the 
Centennial Challenges that the gentleman from West Virginia 
talked about earlier, those are the kind of ways that we think 
we can engage and still get the--we won't get the same. I am 
not going to try to fool you and say we get the same engagement 
today that we do with what we have today. That is the way we 
are going to try to pull our outreach and education together to 
actually implement this new plan here.
    The Office of Education itself, the actual office, one of 
the reasons that we--we wanted to figure out a better way to 
run that instead of having it--and so that is something that is 
going to happen either way. We are going to figure out a way to 
run that differently, to be a more effective delivery arm for 
what we want to do with our education programs.
    That is the proposal that is out there, and we think we are 
going to try to balance the outreach and the education as best 
we can to still reach as many folks as we can.
    Mr. Cartwright. And I wanted to ask you about the analysis 
leading up to that. Was it a determination that the Office of 
Education wasn't working well or was it just we have to save 
some money?
    Mr. Lightfoot. A little of both.
    Mr. Cartwright. OK. What analysis has the administration 
conducted to determine the impact of ending these particular 
programs?
    Mr. Lightfoot. I think what we did is we looked at some of 
the metrics that we have related to the effectiveness of some 
of those campaigns that we do. Again, in the tight budget 
considerations we had, we just had to make some decisions 
around that. That is what we did.
    Mr. Cartwright. Can you speak to how the closeout of NASA 
EPSCoR being coordinated with other agencies will be affected, 
other agencies that have EPSCoR programs?
    Mr. Lightfoot. I would probably have to take that one for 
the record, if that is OK, because I am not sure I know that 
off the top of my head in terms of exactly how they impact. I 
know we are coordinating with them. That is why we got the 
money in 2018 to do that, but the exact coordination, I would 
rather bring that back, if that is OK.
    Mr. Cartwright. Absolutely OK. I would rather not have you 
just wing it.
    Mr. Lightfoot. Yes.

                         EARTH SCIENCE RESEARCH

    Mr. Cartwright. Now, the proposed budget includes a steep 
$59 million cut to Earth science research grants, and this 
could have a significant impact on the U.S.'s global leadership 
in science. Has there been a decrease in applications for these 
grants?
    Mr. Lightfoot. No. I think it was just, again, a balancing 
that we were trying to do internal to all the grants that we 
do. That is where we went.
    Mr. Cartwright. Can you speak to what extent would reducing 
this funding reduce the return on NASA's past investments in 
developing and launching Earth science satellites?
    Mr. Lightfoot. Well, we still continue to launch 
satellites. We are going to launch two in 2018. We still have 
20 missions up there. We still have our science research and 
analysis activities that go on where we do the research and 
analysis. This is just doing--it is just less money in that 
area, but we are still going to be doing that kind of 
assessment and analysis.
    Mr. Cartwright. Can you talk to us about what impact the 
proposed reductions would have on Earth science researchers and 
graduate students at United States universities?
    Mr. Lightfoot. I think, again, it depends on how much we 
have out there to provide those grants. We don't know that 
complete impact at this time. We just know that we will still 
have folks doing work and doing work in these areas. I just 
can't tell you exactly what the impact would be until we 
implement it.
    Mr. Cartwright. I thank you, Mr. Lightfoot.
    I thank you, Mr. Chairman. I yield back.

                          SPACE LAUNCH SYSTEM

    Mr. Culberson. Thank you, Mr. Cartwright.
    Administrator, I wanted to ask about the cost of an SLS 
launch. It is a very large, capable rocket that is urgently 
needed to preserve American leadership in space exploration and 
will dramatically decrease travel time to distant destinations. 
The launch costs are going to be pivotal. When will that data 
per cost of launch at SLS be available? And how much do you 
anticipate it will cost for NASA to launch an SLS with a 
science payload, for example?
    Mr. Lightfoot. We are working on what we call the 
production and ops mode because we are still in the first build 
of these. What we are doing is we are putting out--we put out 
requests for folks to tell us what would be the production and 
ops cost so we can drive that down. We expect to see that 
sometime later this summer. We will understand what it is going 
to be once we start a cadence of flights as opposed to this 
first build going forward.
    Mr. Culberson. OK. What was the cost of the launch of the 
shuttle, for example?
    Mr. Lightfoot. Oh, gosh. I will have to get you that.
    Mr. Culberson. If you remember?
    Mr. Lightfoot. I will provide that for the record.
    Mr. Culberson. That is OK.
    Can you talk to us about the length of time it will take 
the SLS to reach Europa, for example, on the Evolved Expendable 
Launch Vehicle?
    Mr. Lightfoot. The SLS versus an EELV? Is that what you are 
saying?
    Mr. Culberson. Yes.
    Mr. Lightfoot. It is about 3, 3\1/2\ years. It is a pretty 
dramatic difference.
    Mr. Culberson. It makes a significant difference. And that 
enables the scientists to do the data--see the data and do the 
work that much earlier.
    I have got some other questions I will submit for the 
record. Do you want any others?
    Mr. Serrano. I have one more to submit for the record.
    Mr. Culberson. OK. Very good.
    Mr. Cartwright.
    Mr. Cartwright. No.
    Mr. Culberson. All of us on this subcommittee are proud of 
the work that you do at NASA and all the fine men and women 
that make our space program the very best on Earth. We look 
forward to continuing to support your work. We thank you very 
much for joining us here today and for your service to the 
Nation.
    Thank you, very much, Mr. Lightfoot. The hearing is 
adjourned.
    Mr. Lightfoot. Thank you for your support.
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
    
    
    
</pre></body></html>
